United States Department of Agriculture
Office of Inspector General




Commodity Credit Corporation's
Financial Statements for
Fiscal Years 2011 and 2010




                                          Audit Report 06401-0001-11
                                          November 2011
                          United States Department of Agriculture
                                  Office of Inspector General
                                   Washington, D.C. 20250



DATE: 	       November 10, 2011

REPLY TO
ATTN OF:      06401-0001-11

TO: 	         Board of Directors
              Commodity Credit Corporation

              Glenn Pfeffer         

              Acting Controller         


ATTN: 	       Philip Sharp
              Acting Director
              Operations Review and Analysis Staff
              Farm Service Agency

FROM:         Gil H. Harden /s/
              Assistant Inspector General
               for Audit

SUBJECT: 	    Commodity Credit Corporation’s Financial Statements for
              Fiscal Years 2011 and 2010


This report presents the results of the audit of Commodity Credit Corporation’s (CCC) financial
statements for the fiscal years ending September 30, 2011 and 2010. The report contains an
unqualified opinion on the financial statements, as well as an assessment of CCC’s internal
controls over financial reporting and compliance with laws and regulations.

Clifton Gunderson LLP, an independent certified public accounting firm, conducted the audit. In
connection with the contract, we reviewed Clifton Gunderson LLP’s report and related
documentation and inquired of its representatives. Our review, as differentiated from an audit in
accordance with Government Auditing Standards (issued by the Comptroller General of the
United States), was not intended to enable us to express, and we do not express, opinions on
CCC’s financial statements, internal control or on whether CCC’s financial management systems
substantially complied with the Federal Financial Management Improvement Act (FFMIA); or
conclusions on compliance with laws and regulations. Clifton Gunderson LLP is responsible for
the attached auditor’s report, dated November 4, 2011, and the conclusions expressed in the
report. However, our review disclosed no instances where Clifton Gunderson LLP did not
comply, in all material respects, with Government Auditing Standards and the Office of
Management and Budget Bulletin 07-04, Audit Requirements for Federal Financial Statements,
as amended.
Board of Directors et al.                                                                        2

It is the opinion of Clifton Gunderson LLP, that the financial statements present fairly, in all
material respects, CCC’s financial position as of September 30, 2011, and 2010 and its net costs,
changes in net position, and budgetary resources for the years then ended, in conformity with
generally accepted accounting principles.

The Clifton Gunderson LLP report on CCC’s internal control structure over financial reporting
identified three significant deficiencies. Specifically, Clifton Gunderson LLP identified
weaknesses in CCC’s:

      Financial management system’s functionality;
      Information systems controls; and
      Controls over child agency financial reporting.

Clifton Gunderson LLP considered the first significant deficiency to be a material weakness.
The results of Clifton Gunderson LLP’s tests of compliance with laws and regulations disclosed
substantial noncompliance with FFMIA for both Federal financial management systems
requirements and the United States Standard General Ledger at the transaction level.

Because of CCC’s planned actions and recommendations made in prior audit reports, this report
contains no recommendations.
                           U.S. DEPARTMENT OF AGRICULTURE

                           COMMODITY CREDIT CORPORATION


                                      September 30, 2011


                                       Table of Contents



Description                                                                       Page

INDEPENDENT AUDITOR’S REPORT                                                         1


    Exhibit 1 – Material Weakness                                                  1-1


    Exhibit 2 – Significant Deficiencies                                           2-1


    Exhibit 3 – Compliance and Other Matters                                       3-1


    Exhibit 4 – Status of Prior Year’s Findings and Recommendations                4-1


    Exhibit 5 – Management’s Response to Findings Contained in the Independent

      Auditor’s Report                                                             5-1



ANNUAL REPORT
a1


                                      INDEPENDENT AUDITOR’S REPORT

To the Inspector General
U.S. Department of Agriculture
To the Board of Directors
Commodity Credit Corporation:
In our audit of the Commodity Credit Corporation (CCC) for fiscal year (FY) 2011, we found:
    •	 The consolidated balance sheets of CCC as of September 30, 2011 and 2010, and the
       related consolidated statements of net cost and changes in net position, and the
       combined statements of budgetary resources for the years then ended (hereinafter
       referred to as “financial statements“), are presented fairly, in all material respects, in
       conformity with accounting principles generally accepted in the United States of
       America;
    •	 One material weakness and two significant deficiencies in internal control over financial
       reporting;
    •	 Substantial noncompliance with the Federal Financial Management Improvement Act
       (FFMIA) financial management systems requirements and the United States Standard
       General Ledger (USSGL) at the transaction level.
    •	 No instances of noncompliance with selected provisions of laws and regulations tested,
       exclusive of FFMIA.
The following sections discuss in more detail: (1) above conclusions, (2) our conclusions on
Management’s Discussion and Analysis (MD&A) and other supplementary information, (3)
management’s responsibilities, (4) our audit objectives, scope and methodology, and (5) CCC
comments and our evaluation of their response.
OPINION ON FINANCIAL STATEMENTS
The accompanying financial statements including the accompanying notes present fairly, in all
material respects, in conformity with accounting principles generally accepted in the United
States, CCC’s assets, liabilities, and net position as of September 30, 2011 and 2010, and net
costs; changes in net position; and budgetary resources for the years then ended.
As discussed in Note 1 to the financial statements, in fiscal year 2011, CCC reclassified the
downward reestimates from Transfers in/out without Reimbursement, Net to Other Financing
Sources under the Other Financing Sources (Non-Exchange) section of the Consolidated
Statements of Changes of Net Position to conform to U.S. Department of Treasury guidance.
The fiscal year 2010 amounts were also reclassified to conform to the current year presentation.
CONSIDERATION OF INTERNAL CONTROL OVER FINANCIAL REPORTING AND
COMPLIANCE
In planning and performing our audit, we considered CCC’s internal control over financial
reporting as a basis for designing our auditing procedures and to comply with the Office of
Management and Budget (OMB) audit guidance for the purpose of expressing our opinion on
the financial statements, but not for the purpose of expressing an opinion on the effectiveness of
CCC’s internal control over financial reporting and compliance or on management’s assertion on
internal control included in the MD&A. Accordingly, we do not express an opinion on the
4250 N. Fairfax Drive, Suite 1020


Fairfax, VA 22203


tel: 571­227­9500
fax: 571­227­9552
www.cliftoncpa.com		                               1                           h
effectiveness of CCC’s internal control over financial reporting or compliance nor on
management’s assertion on internal control included in the MD&A.

Our consideration of internal control over financial reporting and compliance was for the limited
purpose described in the preceding paragraph and would not necessarily identify all deficiencies
in internal control over financial reporting that might be significant deficiencies or material
weaknesses.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent or detect and correct misstatements on a timely basis. A material weakness is a
deficiency or a combination of deficiencies in internal control, such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis. We consider the deficiency described in Exhibit 1 to
be a material weakness in internal control over financial reporting.

A significant deficiency is a control deficiency, or combination of deficiencies in internal control
that is less severe than a material weakness, yet important enough to merit attention by those
charged with governance. We consider the deficiencies described in Exhibit 2 to be significant
deficiencies in internal control over financial reporting.
We also noted certain other nonreportable matters involving internal control and its operations
that we communicated in a separate letter to CCC management.

Also, as required by OMB Bulletin 07-04, Audit Requirements for Federal Financial Statements,
as amended, we compared the material weakness disclosed during the audit with those material
weaknesses reported in the CCC’s Federal Managers Financial Integrity Act (FMFIA) report that
relate to the financial statements. Our audit did not identify any material weaknesses that were
not identified by CCC in their FMFIA report.

SYSTEM’S COMPLIANCE WITH FFMIA REQUIREMENTS

Under the FFMIA, we are required to report whether the financial management systems used by
CCC substantially comply with the Federal financial management systems requirements,
applicable Federal accounting standards, and the United States Standard General Ledger
(USSGL) at the transaction level. To meet this requirement, we performed tests of compliance
with FFMIA Section 803(a) requirements.
The objective of our audit was not to provide an opinion on compliance with FFMIA.
Accordingly, we do not express such an opinion. However, our work disclosed instances,
described in Exhibit 3, in which CCC’s financial management systems did not substantially
comply with Federal financial management systems requirements, and the USSGL at the
transaction level. The results of our tests of FFMIA disclosed no instances in which CCC did not
substantially comply with the Federal accounting standards.

COMPLIANCE WITH LAWS AND REGULATIONS
Our tests of CCC’s compliance with selected provisions of laws and regulations for FY 2011
disclosed the following instance of noncompliance with the following laws and regulations that
are required to be reported under United States generally accepted government auditing
standards or OMB audit guidance which are described in Exhibit 3:



                                                 2
	

   •   Federal Financial Management Improvement Act of 1996 (FFMIA) 


The objective of our audit was not to provide an opinion on overall compliance with laws and
regulations. Accordingly, we do not express such an opinion.

STATUS OF PRIOR YEAR’S CONTROL DEFICIENCIES AND NONCOMPLIANCE ISSUES

As required by United States generally accepted government auditing standards and OMB
Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended, we have
reviewed the status of CCC’s corrective actions with respect to the findings and
recommendations included in the prior year’s Independent Auditor’s Report dated November 4,
2010. Exhibit 4 provides a discussion on the status of prior year findings and recommendations.

CONSISTENCY OF OTHER INFORMATION

CCC’s Management Discussion and Analysis (MD&A) and other required supplementary
information contains a wide range of information, some of which is not directly related to the
financial statements. We reviewed this information for consistency with the financial statements
and discussed the methods of measurement and presentation with CCC’s officials. Based on
this limited work, we found no material inconsistencies with the financial statements, accounting
principles generally accepted in the United States, or OMB guidance. However, we do not
express an opinion on this information.

The performance section and other accompanying information section are presented for
additional analysis and are not a required part of the financial statements. Such information has
not been subjected to the auditing procedures applied in the audit of the financial statements
and, accordingly, we express no opinion on them.

OBJECTIVES, SCOPE AND METHODOLOGY

CCC management is responsible for (1) preparing the financial statements in conformity with
accounting principles generally accepted in the United States, (2) establishing, maintaining, and
assessing internal control to provide reasonable assurance that the broad control objectives of
the Federal Managers’ Financial Integrity Act (FMFIA) are met, (3) ensuring that CCC’s financial
management systems substantially comply with FFMIA requirements, and (4) complying with
other applicable laws and regulations.

We are responsible for obtaining reasonable assurance about whether the financial statements
are presented fairly, in all material respects, in conformity with accounting principles generally
accepted in the United States. We are also responsible for: (1) obtaining a sufficient
understanding of internal control over financial reporting and compliance to plan the audit, (2)
testing whether CCC’s financial management systems substantially comply with the three
FFMIA requirements, (3) testing compliance with selected provisions of laws and regulations
that have a direct and material effect on the financial statements and laws for which OMB audit
guidance requires testing, and (4) performing limited procedures with respect to certain other
information appearing in the Annual Report.




                                                3
	
                                                 

In order to fulfill these responsibilities, we (1) examined, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, (2) assessed the accounting principles
used and significant estimates made by management, (3) evaluated the overall presentation of
the financial statements, (4) obtained an understanding of CCC and its operations, including its
internal control related to financial reporting (including safeguarding of assets), and compliance
with laws and regulations (including execution of transactions in accordance with budget
authority), (5) tested relevant internal controls over financial reporting, and compliance, and
evaluated the design and operating effectiveness of internal control, (6) considered the design
of the process for evaluating and reporting on internal control and financial management
systems under FMFIA, (7) tested whether CCC’s financial management systems substantially
complied with the three FFMIA requirements, and (8) tested compliance with selected
provisions of certain laws and regulations.
We did not evaluate all internal controls relevant to operating objectives as broadly defined by
the FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient
operations. We limited our internal control testing to controls over financial reporting and
compliance. Because of inherent limitations in internal control, misstatements due to error or
fraud, losses, or noncompliance may nevertheless occur and not be detected. We also caution
that projecting our evaluation to future periods is subject to risk that controls may become
inadequate because of changes in conditions or that the degree of compliance with controls
may deteriorate. In addition, we caution that our internal control testing may not be sufficient for
other purposes.
We did not test compliance with all laws and regulations applicable to CCC. We limited our tests
of compliance to selected provisions of laws and regulations that have a direct and material
effect on the financial statements and those required by OMB audit guidance that we deemed
applicable to CCC’s financial statements for the fiscal year ended September 30, 2011. We
caution that noncompliance with laws and regulations may occur and not be detected by these
tests and that such testing may not be sufficient for other purposes.
We performed our audits in accordance with auditing standards generally accepted in the
United States; the standards applicable to the financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and OMB guidance. We
believe that our audits provide a reasonable basis for our opinion.
CCC COMMENTS AND OUR EVALUATION
CCC concurred with the conditions of our findings and is continuing with implementing their
corrective action plans. CCC’s response to the findings identified in our report is presented as
Exhibit 5. We did not audit CCC’s response and, accordingly, we express no opinion on it.


                                   *********************************
This report is intended solely for the information and use of CCC’s management, USDA’s Office
of Inspector General, OMB, the Government Accountability Office, and the U.S. Congress, and
is not intended to be, and should not be, used by anyone other than these specified parties.


a2
Calverton, Maryland
	
                    

November 4, 2011
	



                                                  4
	
                                                   

                          U.S. DEPARTMENT OF AGRICULTURE

                           COMMODITY CREDIT CORPORATION

                       INDEPENDENT AUDITOR’S REPORT EXHIBIT 1

                                  September 30, 2011


MATERIAL WEAKNESS

1. Financial Management System’s Functionality (Repeat Finding)

The CCC’s financial management system is not capable of recording certain payment
obligations (budgetary entries) at the transaction level. This includes some programs associated
with the producer payments and the conservation reserve program (CRP), which represent
payments of at least $2.4 billion of CCC’s $11.8 billion gross cost in the statement of net cost as
of September 30, 2011. This deficiency does not allow CCC to perform an automated and real
time fund controls at the time contracts are initiated (obligated) by county offices.

In addition, the CCC financial management systems capture the activities of at least 50 farm
programs from over 2,000 county offices throughout the country. The current financial
management systems were put in place in the 1980s. Although functionality enhancements and
updates are continually made to the systems, CCC recognizes that the aging of the financial
management and information systems with inherent limitations have posed significant
challenges to its financial operations. To address these challenges, CCC started in 2004 its
Financial Management Modernization Initiative (FMMI) through the Agency-wide Modernize and
Innovate the Delivery of Agricultural Systems (MIDAS) project. However, the FMMI is not
expected to be fully implemented for CCC until FY 2012.

Federal Management Financial Improvement Act states that one of the purposes of this Act is to
“increase the capability of agencies to monitor execution of budget by more readily permitting
reports that compare spending of resources to results of activities.”

CCC started recording obligations at the transaction level using eFMS in late FY 2011. CCC
continues its efforts to develop and implement new systems that will substantially comply with
the financial management systems requirements. Accordingly, we will not repeat previous year
recommendations in this report.




                                               1-1
	
                                                  

                         U.S. DEPARTMENT OF AGRICULTURE

                          COMMODITY CREDIT CORPORATION

                      INDEPENDENT AUDITOR’S REPORT EXHIBIT 2

                                 September 30, 2011


SIGNIFICANT DEFICIENCIES
2. Strengthen Information Systems Controls (Modified Repeat Finding)
Information systems controls should be in place so that all critical data, transactions and
programs are processed in a timely manner. These include controls over the effective
configuration and maintenance of operating system software, system logging and monitoring
functions. The CCC’s information systems employ aging and unsupported platforms that pose
additional risk to the integrity and availability of financial data.

CCC currently hosts some of its County Office (CO) applications on IBM AS/400 V4R4
platforms that have been configured to emulate the IBM System 36 System. Both the AS/400
V4-R4 and the System 36 operating systems are no longer supported by the vendor, which may
render it difficult for CCC to have access to security patches and hot fixes to remediate any
flaws and vulnerabilities within the operating system.
OMB Circular A-127, Financial Management Systems, requires that Federal financial
management systems be designed to provide for effective and efficient interrelationships
between software, hardware, personnel, procedures, controls, and data contained within the
systems. The Circular states: A financial system, hereafter referred to as a core financial
system, is an information system that may perform all financial functions including general
ledger management, funds management, payment management, receivable management, and
cost management. The core financial system is the system of record that maintains all
transactions resulting from financial events. It may be integrated through a common database or
interfaced electronically to meet defined data and processing requirements. The core financial
system is specifically used for collecting, processing, maintaining, transmitting, and reporting
data regarding financial events. Other uses include supporting financial planning, budgeting
activities, and preparing financial statements. Any data transfers to the core financial system
must be: traceable to the transaction source; posted to the core financial system in accordance
with applicable guidance from the Federal Accounting Standards Advisory Board (FASAB); and
in the data format of the core financial system.
The age of the system directly affects the capability to expand the capacity of the system in a
cost-effective manner and in some cases, there may be technical limitations on any further
expansions regardless of cost. Additionally, since the operating systems are no longer
supported by the vendor, the FSA does not have access to security patches and hot fixes to
remediate any flaws and vulnerabilities within the operating system, which potentially exposes
system resources to intentional or unintentional loss, impairment, destruction or damage.
In FY 2011, CCC continued the implementation of corrective actions migrating certain financial
management and reporting systems to more scalable, web-enabled platforms. Accordingly, we
will not repeat previous year recommendation in this report.
3. Strengthen Control Over Child Agency Financial Reporting (Repeat Finding)
The CCC is a party to allocation transfers with the U.S. Agency for International Development
(USAID) as the transferring entity (parent). In accordance with OMB Circular A-136, Financial
Reporting Requirements, “The parent is accountable for and maintains the responsibility for
reporting while the child performs on behalf of the parent and controls how the funds are
expended. The parent is responsible for the program’s overall performance and may decide to



                                              2-1
	
                                                 

                          U.S. DEPARTMENT OF AGRICULTURE

                           COMMODITY CREDIT CORPORATION

                       INDEPENDENT AUDITOR’S REPORT EXHIBIT 2

                                  September 30, 2011


reallocate funds if the parent is not satisfied with the child’s performance.” It further states that
“The key to timely and accurate quarterly reporting by the child agency is the communication
between the parent and child. It is strongly recommended that issues such as formats, abnormal
balances, capitalization thresholds, useful lives, depreciation methodologies, transfer of trading
partner information, etc., be discussed and resolutions reached at a date required by the parent
to meet its reporting and auditing deadlines.”

During fiscal year 2011, CCC allocated funds of approximately $1 billion to USAID (the child) to
fund P.L. 480 Title II, transportation and other administrative costs in connection with foreign
donations.

CCC plans to continue its efforts to work with USAID to develop and implement processes and
controls that will substantially mitigate this deficiency. Accordingly, we did not repeat previous
years’ recommendations in this report.

Reconciliation of Unliquidated Obligation (Repeat Finding)

USAID’s unliquidated obligation is approximately $1.2 billion as of September 30, 2011. We
requested but did not receive any audit evidence that USAID performed periodic and timely
reconciliations between unliquidated obligations in the general ledger (GL) and subsidiary
records and ensured that expired obligations were deobligated on a timely basis. USAID
indicated that they do not have an established process for reviewing unliquidated obligation
balances.

GAO Standards for Internal Control in the Federal Government states that internal control
should generally be designed to assure that ongoing monitoring occurs in the course of normal
operations. It is performed continually and is ingrained in the agency’s operations. It includes
regular management and supervisory activities, comparisons, reconciliations, and other actions
people take in performing their duties.

Recording of Accruals (Modified Repeat Finding)

USAID records transportation awards accrual on a quarterly basis. Accruals are calculated to
provide an accurate picture of an award’s true status. Accruals also help the Agency anticipate
future funding and spending. The Cognizant Technical Officer (CTO) evaluates the system
calculation and decides if an adjustment is necessary. The CTO uses a worksheet to calculate
estimated quarterly expenses. The worksheet has historical monthly expenses beginning with
the time the obligation/contract was made. The worksheet is used to calculate an estimate of a
month’s expenses by using a “burn rate” and a weighted quarterly average.

During our test of sample transactions, we identified an accrual transaction calculated correctly
but posted to the general ledger incorrectly. This resulted in a combined overstatement of
approximately $8 million for the accrual and the expenses balance reported as of June 30,
2011. USAID management noted the error and concurred. However, these errors were
identified during the audit process and were not prevented, or detected and corrected timely by
the USAID’s internal control process.




                                                2


                         U.S. DEPARTMENT OF AGRICULTURE

                          COMMODITY CREDIT CORPORATION

                      INDEPENDENT AUDITOR’S REPORT EXHIBIT 2

                                 September 30, 2011



GAO Standards for Internal Control in the Federal Government states that internal control
should generally be designed to assure that ongoing monitoring occurs in the course of normal
operations. It is performed continually and is ingrained in the agency’s operations. It includes
regular management and supervisory activities, comparisons, reconciliations, and other actions
people take in performing their duties.

Single Audit Act Monitoring and Oversight (Modified Repeat Finding)
USAID does not have an adequate system in place to ensure that all award recipients
(grantees) subject to single audits have a single audit performed and have submitted their audit
reports in a timely manner. The office responsible for monitoring the audit findings could not
provide complete or sufficient documentation to show how many audit reports were received or
reviewed, the management decisions issued on audit findings, or that the grantee took
appropriate and timely corrective actions. Specifically, our test of a sample of 14 recipients
identified the following:

   •	 Thirteen of the 14 grantees had findings based on the latest SF-SAC data collection
      form submitted to the Federal Audit Clearinghouse. However, only two of the 13
      grantees were listed in the Open Audit Recommendation (OAR) listing as requiring
      management decision. There was no other documentation from USAID to indicate that
      the audit findings of the other 11 grantees were closed and/or required a management
      decision.
   •	 USAID did not provide any audit evidence to indicate that they received a corrective
      action plan (CAP) from the grantees with findings. USAID could not provide
      documentation that the CAP was reviewed by management in a timely manner.

Monitoring and oversight of the grantees is a management responsibility. Not having a clear
policy and a system for Single Audit Act monitoring and oversight responsibilities may lead to
difficulty in providing sufficient appropriate evidence supporting the agency’s monitoring and
oversight performance. Moreover, the risk that USAID may continue to provide grants to
organizations that do not deserve to receive the federal grants increases when there is
inadequate monitoring and oversight performed by management. Also, potential fraud, waste, or
abuse may not have been timely followed up.

OMB Bulletin A-133, Audits of States, Local Government, and Non-Profit (Single Audit Act),
Subpart D, Section .400 (c) states that the Federal awarding agency shall (3) ensure that audits
are completed and reports are received in a timely manner and in accordance with the
requirements of this part; (5) issue a management decision on audit findings within six months
after receipt of the audit report and ensure that the recipient takes appropriate and timely
corrective action.




                                              2-


                        U.S. DEPARTMENT OF AGRICULTURE

                         COMMODITY CREDIT CORPORATION

                     INDEPENDENT AUDITOR’S REPORT EXHIBIT 3

                                September 30, 2011





COMPLIANCE AND OTHER MATTERS

FFMIA (Repeat Finding)

The results of our test of FFMIA disclosed instances, as summarized below, where CCC’s
financial management systems did not substantially comply with the federal financial
management systems requirements and USSGL at the transaction level.

   •	 The CCC’s financial management system’s functionality does not record certain
      payment obligations (budgetary entries) at the transaction level.

   •	 The CCC’s mission critical financial applications are currently supported by aging and
      outdated technology, and are in need of improvement to address performance, flexibility,
      and system interface issues. The CCC currently hosts some of its County Office
      applications on IBM AS/400 platforms that have been configured to emulate the IBM
      System 36 System. Both the AS/400 V4-R4 and the System 36 operating systems are
      no longer supported by the vendor, which may render it difficult for CCC to have access
      to security patches and hot fixes to remediate any flaws and vulnerabilities within the
      operating system.




                                             3-1
	
                                                

                         U.S. DEPARTMENT OF AGRICULTURE

                          COMMODITY CREDIT CORPORATION

                      INDEPENDENT AUDITOR’S REPORT EXHIBIT 4

                                 September 30, 2011


STATUS OF PRIOR YEAR’S FINDINGS AND RECOMMENDATIONS

As required by Government Auditing Standards and OMB Bulletin No. 07-04 Audit
Requirements for Federal Financial Statements, as amended, we have reviewed the status of
CCC corrective actions with respect to the findings and recommendations included in CCC
internal control report for FY 2011 dated November 7, 2010. The following analysis provides our
assessment of the progress CCC has made through September 30, 2011 in correcting the
noted deficiencies.


                 FY 2010 Findings               Years Reported          FY 2011 Status

        Improvement needed in financial       2002 – 2010                    Open
        system functionality and funds        Material Weakness       Finding Reported in
        control                               (MW)                         MW No. 1

        Strengthen Information Security       2002 – 2008 MW               Modified
        Controls                              2009-2010 /           Finding Reported in SD
                                              Significant                    No. 2
                                              Deficiency (SD)
        Strengthen Control Over Child         2008 - 2010 SD               Modified
        Agency Financial Reporting                                  Finding Reported in SD
                                                                             No. 3

        Anti-Deficiency Act (ADA)             2010 Compliance               Closed
                                              with Laws and
                                              Regulations




                                             4-1
	
                                                

                    USDA
                    -

                    Exhibit 5




United States
Department of
Agriculture

Farm and
Foreign
                    TO: 	            Lynette Cockrell
Agricu ltural                        Regional Inspector General
Services
                                     Office of the Inspector General
Commodity
Credit
Corporation                          Mia Leswing 

1400 Independence                    Partner-in-Charge 

Avenue, SW                           Clifton Gunderson, LLP 

Stop 0581


                                                             "" /t-n()          PftfFet'
Washington, DC
20250·0581          ]fIlO: 	        Glenn D. Pfeffer                      j).
                                     Controller 

                                                                                            NOV   - 4 2011
                                      Commodity Credit Corporation 



                    SUBJECT: 	 Response to the Draft Combined Independent Auditor's Report on the
                                     Commodity Credit Corporation's (CCC) Fiscal Years            2011 and 2010
                                     Comparative Financial Statements



                    We have reviewed Clifton Gunderson (CG)'s Draft Combined Independent Auditor's
                    Report dated November 4,           2011, and concur with its contents. CCC will continue to
                    implement the corrective actions to address the findings identified during the audit. We
                    will continue to work with the Office of the Inspector General and CG in ensuring that the
                    specific actions will successfully mitigate the deficiencies reported.


                    If you have any questions or require additional information, please contact
                    Elizabeth Russell at      (202) 772-6031.




                    USDA is an equal opportunity provider and employer.




                                                                     5-1
    Lynette Cockrell
   Mia Leswing
    Page 2




   cc: 	     Elizabeth Russell, FMDIPARLC
             Cbron. File
             Subj File


   FSAlFMDIPARLClElizabeth Russell/202 772-6031111-02-111
    S:\Elizabeth\FYl l CCC Audit\FYl l Initial Resp to Audit report.l 1021 l.docx


                   TYPISTI         WRITER              CHIEF          CONTROLLER
                 REVIEWER                          ACCOUNTAN
                                                          T
                 Santha Davis      Elizabeth        Sherry Laws       Glenn D. Pfeffer
Full Name                           Russell
                                                                                         I




                                         5-2
U.S. DEPARTMENT OF

   AGRICULTURE

COMMODITY CREDIT 

  CORPORATION





2011 ANNUAL REPORT

U.S. Department of Agriculture

Commodity Credit Corporation

   1400 Independence Avenue, SW
       Washington, DC 20250

   2011 Annual Report
                                                   PREFACE


This Annual Report shows the results of the Commodity Credit Corporation’s (CCC) operations for fiscal year 2011.
This report replaces the former Annual Report of the Commodity Credit Corporation and meets the requirements of
the CCC Charter Act, as amended, and the Government Corporation Control Act, as amended.

CCC worked closely with Clifton Gunderson LLP and the Office of Inspector General (OIG) for the United States
Department of Agriculture (USDA) in the development of this report.

The Management’s Discussion and Analysis section of the report contains the purpose, authority, mission, and goals
of the Corporation, financial, program summaries, and performance measures. This information is followed by the
audit opinion letter, financial statements, and accompanying notes.




The U.S. Department of Agriculture (USDA) prohibits discrimination in all its program and activities on the basis of
race, color, national origin, age, disability, and where applicable, sex, marital status, familial status, parental status,
religion, sexual orientation, genetic information, political beliefs, reprisal, or because all or part of an individual’s
income is derived from any public assistance program. (Not all prohibited bases apply to all programs.) Persons
with disabilities who require alternative means for communication of program information (Braille, large print,
audiotape, etc.) should contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD). To file a complaint
of discrimination, write to USDA, Director, Office of Civil Rights, 1400 Independence Avenue, SW., Washington,
DC 20250-9410, or call (800) 795-3272 (voice) or (202) 720-6382 (TDD). USDA is an equal opportunity provider
and employer.
                                                           Table of Contents

Message From the Controller ........................................................................................................................................1

Part I: Management’s Discussion and Analysis (Unaudited) ......................................................... 4

History of the Commodity Credit Corporation..............................................................................................................5

Structure of the Commodity Credit Corporation ...........................................................................................................7

CCC Board of Directors ................................................................................................................................................8

CCC Program Areas ......................................................................................................................................................9

Future Effects of Demands, Events, and Conditions ...................................................................................................10

2011 Performance Highlights Summary .....................................................................................................................12

Financial Highlights ....................................................................................................................................................13

Management Controls, Systems, and Compliance with Laws and Regulations ..........................................................19

Federal Managers’ Financial Integrity Act (FMFIA) ..................................................................................................23

Federal Financial Management Improvement Act (FFMIA).......................................................................................25

Anti-deficiency Act (ADA) .........................................................................................................................................26

Limitations of the Financial Statements ......................................................................................................................27

Part II: Performance Section (Unaudited)..................................................................................... 28

Income Support and Disaster Assistance Program Area .............................................................................................30

Conservation Program Area ........................................................................................................................................35

Commodity Operations and Food Aid Program Area .................................................................................................38

Market Development Program Area............................................................................................................................41

Export Program Area...................................................................................................................................................43

Part III: Financial Section ............................................................................................................ 45

Notes to the Financial Statements................................................................................................................................50

Required Supplementary Information (Unaudited) .....................................................................................................96

Part IV: Other Accompanying Information (Unaudited)............................................................ 101

Glossary of Acronyms ...............................................................................................................................................110

                              Message from the Controller


The Commodity Credit Corporation (CCC) is committed to the principles and mandates of the President’s
government-wide management agenda that includes information technology, financial management, procurement
and program performance management. In fiscal year (FY) 2011, CCC continued to move aggressively towards
making improvements in the area of financial management while continuing to carry out its mission to provide high
quality services to the Nation’s agricultural community, and to proactively respond to worldwide agricultural needs.

Excellence in financial management is a key to the success of any organization. CCC has demonstrated this
excellence by successfully earning an unqualified audit opinion on its financial statements for the ninth consecutive
year. This indicates that CCC has been a successful steward of the resources entrusted to us and managed our
people, business processes and financial systems, efficiently and effectively.

CCC’s financial condition was significantly impacted by various programs as well as events in the global
marketplace:

    •	   Improved Access to Capital—During FY 2009–2011 FSA provided 103,000 loans to family farmers,
         totaling $14.6 billion in total credit. Over 50 percent of the loans went to beginning and socially
         disadvantaged farmers and ranchers (44,600 loans went beginning farmers and 17,300 went to socially
         disadvantaged farmers.)

    •	   Effective Food Aid Distribution—FSA procurements for domestic and international food aid
         commodities for FY2011 totaled more than $1.38 billion for food insecure recipients in the U.S. and
         abroad.

         USDA initiated the Acreage Crop Reporting Streamlining Initiative (ACRSI), a system allowing producers
         to report their common acreage data once for sharing with various USDA programs; simplifying producer
         reporting requirements. USDA anticipates piloting this effort in four Kansas counties in the late fall of
         2011 for the 2012 crop wheat plantings. The initiative was developed based on feedback during field
         hearings with producers concerned by the necessity of reporting separate acreage and production data to
         multiple USDA Agencies.
    •	   For calendar year 2011, USDA is permitting farmers and ranchers in drought-stricken States who have
         been approved for emergency grazing to extend the emergency grazing period for an additional month to
         October 31, 2011, without any additional payment reduction. USDA is also allowing producers nationwide
         to utilize harvested hay from expiring Conservation Reserve Program (CRP) acres when these acres are
         being prepared for fall-seeded crops enabling livestock producers to feed the hay that is mechanically
         harvested to their own livestock, sell it, or donate it.

    •	   USDA completed the consolidation of geo-spatial assets into a single centralized repository thereby
         eliminating dependency on outmoded servers in the USDA Service Center offices. This will allow the
         integration of geospatial data with Modernize and Innovate the Delivery of Agricultural Systems (MIDAS)
         and other enterprise business operations.

In FY 2011, the GSM-102 Program provided credit guarantees which facilitated sales of $4.12 billion, a significant
increase of 33 percent, from the previous year’s sales of $3.09 billion. Increased demand for credit amidst a risky
financial environment and rising commodity prices are among the factors causing the rise in the GSM-102 program
usage in FY 2011. Program accomplishments for FY 2011 include:

    •	   The GSM-102 Programs supported increased exports to South Korea, Mexico, Central America and the
         Caribbean.

                                                          1
    •	   Through August 2011, the Program supported 17 percent of total U.S. agricultural exports to South Korea
         and 21 percent of total U.S. agricultural exports to Turkey.

    •	   After declining to $195 million in FY 2010, program usage for U.S. agricultural exports to the South
         America Region rebounded by 200 percent in FY 2011 to $588 million. Total U.S. agricultural exports to
         these same countries were $4.0 billion for the period October 2010 - August 2011. As of August 2011, the
         GSM-102 Program had supported nearly 10 percent of U.S. agricultural exports to these countries. The
         commodities exported to South America under the Program in FY 2011 include wheat, corn, corn gluten
         meal, corn oil, distilled dry grain, soybeans, soybean meal, and soybean oil.

    •	   Sales of corn, wheat, and cotton all showed dramatic increases in FY 2011.

During FY 2011, CCC continued to emphasize improvements in its financial management practices, program
effectiveness and public accountability. Demonstrated improvements were reported with respect to the following
Federal initiatives:

1.	 Office of Management and Budget (OMB) Circular A-123, “Management’s Responsibility for Internal
    Control,” Appendix A, “Internal Control over Financial Reporting,”. CCC annually evaluates its internal
    controls over financial reporting in accordance with the Federal Managers Financial Integrity Act (FMFIA), and
    OMB Circular A-127, “Financial Management Systems.”

    •	   There were three control deficiencies reported in FY 2010 and during FY 2011 two were upgraded to
         significant deficiencies, Funds Status Report and Farm Storage Facility Loans (FSFL) Reconciliations (the
         Price Support for FSFL’s obligations, disbursements, and repayments are not reconciled by Cohort to the
         general ledger), and one was upgraded to a material weakness - Unliquidated Obligation (ULO)
         Certifications (a system non-compliance that has a design issue).

2.	 Audit Report – CCC’s Financial Statements (also reported under FMFIA).

    •	   In FY 2010, management’s assessment of internal controls over financial reporting as of September 30,
         2010, identified two material weaknesses (MW) in CCC’s audit report: Management’s analysis of
         obligations and liabilities for the Direct and Countercyclical Payment Programs (mitigated in FY 2009) and
         Funds Control Management (repeat). There were six significant deficiencies reported in the 2010 audit
         report under FMFIA: U.S. Agency for International Development (USAID) – Child Agency Financial
         Information (completion date revised to       FY 2012 2nd quarter), Strengthen Internal Control over Intra­
         governmental Balances (mitigated in FY 2011), Strengthen Control over the FSFL (mitigated in FY 2011),
         Strengthen Internal Control over Accounts Receivable and Revenue (mitigated in FY 2011), Strengthen
         Internal Control over USAID Financial Reporting (completion dated FY 2012 2nd quarter), and Strengthen
         Information Security Controls (potential reduction to a control deficiency in FY 2011). Conclusively there
         is one significant deficiency and one material weakness remaining from prior years.

    •	   In FY 2011, CCC is reporting the one repeat material weakness for system non-conformances, one repeat
         significant deficiency for USAID, and one revised significant deficiency regarding antiquated systems that
         will also be reported under both FMFIA and the Federal Financial Management Improvement Act.

3.	 Federal Financial Management Improvement Act (FFMIA).

    •	   During FY 2011, CCC evaluated its financial management systems to assess substantial compliance with
         the Act and there are two system non-compliances – ULO certifications and Funds Control System
         Requirements. As of the completion of the annual report and according to the independent auditors, CCC
         has demonstrated substantial compliance with Sections 2 - applicable Federal accounting standards; and 4 ­
         Information security policies, procedures, and practices meet the reporting requirements of the Federal
         Information Security Management Act. CCC is not substantially compliant with Section 1 – Federal
         financial management system requirements and Section 3 – the U.S. Standard General Ledger at the


                                                         2
         transaction level. As part of the financial systems strategy of the migration to the Financial Management
         Modernization Initiative solution, CCC continues to progress in its corrective actions to meet FFMIA
         objectives to be completed in FY 2012.

4.	 In FY 2011, as a result of the Improper Payment Elimination and Recovery Act, CCC took a proactive approach
    in measuring programs currently designated as High Risk by the OMB. In briefing both the USDA Office of
    the Chief Financial Officer and the OMB, significant changes were proposed and accepted regarding the
    Review Cycle Methodology. The methodology presented was based on program activity, past performance,
    and projected future levels of performance. Presented were the following:

    •	   Traditional (Based on Outlays and Fiscal Year): Marketing Assistance Loans and Noninsured Crop
         Disaster Assistance Program.
    •	   Proactive (Includes at least 85% of outlays, allows for earlier implementation of corrective actions and
         impacts county offices sooner): Conservation Reserve Program and Direct & Counter Cyclical Program
    •	   Program Focused (Focus is on the “Disaster Driver” in a review cycle period, includes at least 80% of
         outlays, provides for best opportunity for Return on Investment: Disaster Programs
    •	   Performance Based (Performance based, assessment from National Office, judgmental sample of
         transactions, allows for maximum utilization of County Office Reviewers): Loan Deficiency Program and
         Milk Income Loss Program.

CCC’s financial statements, included herein, report the Corporation’s FY 2011 financial position, results of
operations, and status of budgetary resources as required by the Chief Financial Officers Act of 1990, as amended.
These statements are in compliance with the format prescribed by OMB in the form and content of Federal financial
statements and are in accordance with Generally Accepted Accounting Principles for Federal entities.

Financial management performance measures also accompany the financial results. These performance measures
demonstrate areas of efficiency, accomplishments, and highlight areas for improvement within CCC's financial
management. CCC will continue to identify meaningful performance measures for ensuring public accountability
and the stewardship of the Government’s assets. In the coming year, we look forward to working with CCC’s
constituent agencies and the USDA, Office of the Chief Financial Officer in the continued improvement of services
and business operations, consistent with the objectives and requirements of the Government Performance and
Results Act of 1993.



                                                      Controller




                                                         3
   Part I: Management’s
   Discussion and Analysis
   (Unaudited)
Mission Statement
The Commodity Credit Corporation is a Government-owned and
operated entity dedicated to:

   Stabilizing, supporting, and protecting farm income and
    prices.

   Maintaining balanced and adequate supplies of agricultural
    commodities and aiding in their orderly distribution.

   Conservation of soil, air, and water resources and

    protection and improvement of wildlife habitats.


   Developing new domestic and foreign markets and 

    marketing facilities for agricultural commodities.





                               4
                                 COMMODITY CREDIT CORPORATION
                                        Management Discussion and Analysis


            History of the Commodity Credit Corporation


  T         he Commodity Credit Corporation (hereinafter CCC, Agency, or Corporation) is a government-owned
            corporation within the United States Department of Agriculture (USDA). It was created by Congress in
            1933 to stabilize, support, and protect farm income and prices, assist in the maintenance of balanced and
adequate supplies of agricultural commodities, and facilitate the orderly distribution of those commodities. The
Corporation is a primary financing arm of the Federal government for many domestic and international agricultural
programs. CCC helps maintain balanced and adequate supplies of agricultural commodities and aids in their orderly
distribution.

The statutory authority for Corporation operations is found in the CCC Charter Act, 15 U.S.C. 714, and et seq. The
Corporation is managed by a Board of Directors subject to the general supervision and direction of the Secretary of
Agriculture who is an ex-officio director and chairperson of the Board. The members of the Board and the
Corporation officers are officials of USDA. CCC has no employees or facilities. Its programs are administered
through various agencies including the USDA Farm Service Agency (FSA), Agricultural Marketing Service (AMS),
Natural Resources Conservation Service (NRCS), and Foreign Agricultural Service (FAS), as well as the United
States Agency for International Development (USAID).

CCC helps America’s agricultural producers through commodity and farm storage facility loans, purchases, income
support payments, and disaster assistance programs. CCC also works to make available materials and facilities
required in the production and marketing of agricultural commodities. In addition, CCC provides incentives and
payments to landowners to establish conservation practices on their land.

CCC provides agricultural commodities to other Federal agencies and foreign governments. CCC also donates
commodities to domestic and international relief agencies as well as foreign countries. CCC assists in the
development of new domestic and foreign markets and marketing facilities for American agricultural commodities.
It also extends direct credit and guarantees commodity sales to foreign countries throughout the world.

CCC has its own disbursing authority and utilizes the Federal Reserve Bank system and United States Treasury to
make payments. This disbursing authority allows CCC to make payments quickly and to provide financial support
to America’s producers and farmers immediately. CCC has multiple funding mechanisms. Most of the domestic
programs are operated out of a revolving fund, in which the CCC has a permanent indefinite borrowing authority, as
defined by OMB Circular A-11, Preparation, Submission, and Execution of the Budget. Borrowing authority
permits the Corporation to incur obligations and authorizes it to borrow funds to liquidate the obligations. This fund
also receives money from appropriated funding for costs incurred (i.e., realized losses), loan repayments, inventory
sales, interest income, and fees. Additionally, CCC receives direct appropriations for specific programs such as its
Credit Reform programs, foreign grant and donation programs, and disaster relief.




                                                          5
                         COMMODITY CREDIT CORPORATION
                               Management Discussion and Analysis



Certain information contained in this discussion is considered “forward-looking information” as
defined by the Federal Accounting Standards Advisory Board’s (FASAB) Statement of Federal
Financial Accounting Standards (SFFAS) No. 15, Management’s Discussion and Analysis, and
Statement of Federal Financial Accounting Concepts (SFFAC) No. 3, Management’s Discussion
and Risk Analysis Concepts. Such forward-looking information includes estimates and is subject
to risks and uncertainties that could cause actual results to differ materially from this discussion.




                                                  6
                                  COMMODITY CREDIT CORPORATION
                                        Management Discussion and Analysis



           Structure of the Commodity Credit Corporation
A Board of Directors manages CCC and is subject to the general supervision and direction of the Secretary of
Agriculture who is an ex officio director and chairperson of the Board. The Board consists of seven members in
addition to the Secretary. The President of the United States, with the advice and consent of the Senate, appoints the
board members to office. The members of the Board and the Corporation’s officers are officials of USDA. CCC
officers, directly or through officials of designated USDA agencies, maintain liaison with numerous other
governmental and private trade operations.

The CCC has no actual employees; it carries out the majority of its programs through the personnel and facilities of
the Farm Service Agency (FSA), Agricultural Marketing Service (AMS), Natural Resources Conservation Service
(NRCS), Foreign Agricultural Service (FAS), and the United States Agency for International Development
(USAID). Most of the CCC’s programs are delivered through an extensive nationwide network of FSA field offices,
including approximately 2,400 USDA Service Centers and 51 state offices (including Puerto Rico). This network
enables CCC to maintain a close relationship with customers, successfully addressing their needs and continually
improving program delivery. FSA implements CCC funded programs for income support, disaster assistance,
conservation programs, and international food procurement.

Though FSA provides the staff for CCC, several CCC funded programs fall under purview of the Foreign
Agricultural Service (FAS) or Natural Resources Conservation Service (NRCS). FAS has the primary responsibility
for USDA’s international activities—market development, trade agreements and negotiations, and the collection and
analysis of statistics and market information. It also administers the USDA’s export credit guarantee and food aid
programs and helps increase income and food availability in developing nations by mobilizing expertise for
agriculturally led economic growth.

The NRCS provides leadership in a partnership effort to help America’s private landowners and managers conserve
their soil, water, and other natural resources. It also provides financial assistance for many conservation activities.
CCC reaches out to all segments of the agricultural community, including underserved and socially disadvantaged
farmers and ranchers to ensure that CCC’s programs and services are accessible to everyone.




                                                           7
                              COMMODITY CREDIT CORPORATION
                                    Management Discussion and Analysis



                               CCC Board of Directors
                      Chairperson, Thomas James Vilsack, Secretary of Agriculture

                Vice Chairperson, Kathleen Ann Merrigan, Deputy Secretary of Agriculture

            Member, Vacant, Under Secretary, Farm and Foreign Agricultural Services (FFAS)

                Member, Dallas Paul Tonsager, Under Secretary, Rural Development (RD)

       Member, Kevin W. Concannon, Under Secretary, Food, Nutrition, and Consumer Services (FNCS)

               Member, Vacant, Chief Financial Officer and Chief Information Officer, USDA

         Member, Edward M. Avalos, Under Secretary, Marketing and Regulatory Programs (MRP)

         Member, Harris D. Sherman, Under Secretary, Natural Resources and Environment (NRE)



                                         CCC Officers
                              President, Michael T. Scuse, Under Secretary, FFAS

              Executive Vice President, Bruce Nelson, Administrator, Farm Service Agency (FSA)

         Vice President, Carolyn Cooksie, Associate Administrator, Operations and Management, FSA

               Vice President, Rayne Pegg, Administrator, Agricultural Marketing Service (AMS)

           Vice President, Suzanne Heinen, Acting Administrator, Foreign Agricultural Service (FAS)

                         Vice President, Suzanne Heinen, General Sales Manager, FAS

                Vice President, Audrey Rowe, Administrator, Food and Nutrition Service (FNS)

             Vice President, David White, Chief, Natural Resources Conservation Service (NRCS)

        Deputy Vice President, James W. Monahan, Deputy Administrator, Commodity Operations, FSA

               Deputy Vice President, Philip G. Short, Deputy Administrator, Management, FSA

              Deputy Vice President, Juan M. Garcia, Deputy Administrator, Farm Programs, FSA

            Deputy Vice President, Michael Wooden, Deputy Administrator, Field Operations, FSA

            Deputy Vice President, Joy Harwood, Director, Economic & Policy Analysis Staff, FSA

                     Deputy Vice President, Homer Wilkes, Acting Associate Chief, NRCS

Deputy Vice President, Anthony Kramer, Deputy Chief, Financial Assistance and Community Development, NRCS

        Deputy Vice President, Diane Gelburd, Deputy Chief, Easement and Landscape Planning, NRCS

                  Deputy Vice President, Garry Lee, Acting Deputy Chief, Management, NRCS

             Secretary, Steven N. Mikkelsen, Acting Executive Assistant to the Administrator, FSA

                             Deputy Secretary, Vacant, Farm Service Agency (FSA)

                        Assistant Secretary, Monique B. Randolph, Staff Assistant, FSA

               Controller, Glen D. Pfeffer, Acting Director, Financial Management Division, FSA

                   Treasurer, Vacant, Deputy Director, Financial Management Division, FSA

      Chief Accountant, Sherry A. Laws, Center Director, Policy, Accounting, Reporting, and Loan Center,

                                     Financial Management Division, FSA



                                              Advisors
                    General Counsel, Ramona Emilia Romero, Office of the General Counsel

  Associate General Counsel, Ralph A. Linden, International Affairs, Commodity Programs and Food Assistance

                                                   Programs





                                                      8
                                 COMMODITY CREDIT CORPORATION
                                        Management Discussion and Analysis


                                      CCC Program Areas

The CCC funds many programs that fall under multiple agencies within the USDA. Each CCC funded program
helps achieve parts of both the CCC mission and the strategic plan of the agency under which the program falls.
The CCC mission and agency strategic goals are achieved through the successful implementation of the following
key programs areas:

Income Support and Disaster Assistance – Income support and disaster assistance programs provide financial
assistance to protect farmers and ranchers from fluctuations in market conditions and unexpected natural or man-
made disasters. Assistance is provided through income support programs, disaster assistance programs, and the
Noninsured Crop Disaster Assistance Program (NAP). FSA is responsible for administering income support and
disaster assistance. The Agency is expanding the way it collaborates with farmers and producers in its traditional
“safety net” programs by adding on-line options while maintaining more traditional approaches.

Conservation – Supported by the Food, Conservation, and Energy Act of 2008 (2008 Farm Bill), conservation
programs offer farmers and ranchers a variety of financial and economic incentives to conserve natural resources on
the nation’s privately owned farmlands. These programs focus on reducing erosion, protecting streams and rivers,
restoring and establishing fish and wildlife habitats, and improving air quality through several conservation
incentive payments, technical assistance, and cost-share programs. FSA and NRCS administer the CCC
conservation programs.

Commodity Operations and Food Aid – FSA personnel handle the procurement, acquisition, storage, disposition,
and distribution of commodities, and the administration of the United States Warehouse Act (USWA). These
programs help achieve domestic farm program price support objectives, produce a uniform regulatory system for
storing agricultural products, and ensure the timely provision of food products for domestic and international food
assistance programs and market development programs.

Foreign Market Development – Expanding markets for agricultural products is critical to the long-term health and
prosperity of the U.S. agricultural sector. With 96 percent of the world’s population living outside the United States,
future growth in demand for food and agricultural products will occur primarily in overseas markets. The CCC
funds used in the market development programs play a critical role in helping to open new markets and in
facilitating U.S. competitiveness and by doing so, help to secure a more prosperous future for American agriculture.
Support for economic development and trade capacity building reinforces these efforts by helping developing
countries to become economically stable and improve their prospects to participate in and benefit from expanding
global trade in agricultural products. FAS administers the CCC foreign market development programs.

Export Credit – The CCC export credit guarantee and direct loan programs, administered by FAS in conjunction
with FSA, provide payment guarantees for third party commercial financing and direct financing of U.S. agricultural
exports. These programs facilitate exports to buyers in countries where credit is necessary to maintain or increase
U.S. sales but where financing may not be available without CCC credit facilities.




                                                          9
                                  COMMODITY CREDIT CORPORATION
                                         Management Discussion and Analysis


       Future Effects of Demands, Events, and Conditions
Economic Fluctuation and Volatility
High commodity prices underlie record projected levels of U.S. agricultural exports and U.S. net farm income in
2011. Although grain, oilseed, cotton prices, export value, and farm income will retreat somewhat in the next
several years, a return to steady domestic and international economic growth supports demand for U.S. agricultural
products over the next decade. In addition, rising global demand for agricultural commodities for the production of
bio-fuels continues. Thus, after the near-term declines, the value of U.S. agricultural exports and net-farm income
should rise through the rest of the decade. U.S. retail food prices will increase faster than the overall rate of inflation
in 2011 and 2012, reflecting higher food commodity prices and energy costs and improved demand as the economic
recovery continues. Net farm income rises to record levels in 2011, largely reflecting the recent run-up in prices for
many agricultural commodities. While income declines in 2012-14, it grows over the rest of the decade and remains
well above the average of the previous decade (2001-10) throughout the projection period. A concern that farmers
continue to face is the increase in expenses for key inputs, including feed, fertilizer, and fuel. Additionally, after a
strong recovery in 2010, USDA projects a revenue decline for livestock farm businesses in 2011 and continued
income and loan repayment concerns for dairy farmers. Higher feed costs are a primary factor. Sustained higher
crop prices make the use of land for production more valuable, causing rental rates for land in the Conservation
Reserve Program (CRP) to rise. CRP is expected to be fully enrolled at the statutory cap of 32 million acres from
2011 through 2019. Therefore, the increase in CRP payments from about $1.8 billion in 2010 to $2.3 billion in 2019
is solely due to rising rental rates.

Lower government payments and rising farm production expenses offset some of the anticipated gains in cash
receipts and other sources of farm income. Government payments to farmers are projected to fall from a projected
$12.4 billion in 2010 to an average of less than $10 billion annually in 2011 to 2019. Price-dependent program
benefits account for a declining share of payments. Strengthening domestic and international demand holds prices
for most crops above levels that would result in marketing loan benefits or counter-cyclical payments. For example,
even with stochastic considerations (included here to capture potential variation in farm program benefits due to
variability in production yields and the impacts on prices), payments for marketing loan benefits and counter­
cyclical payments for feed grains are minimal, and likely to total less than $100 million from 2011 through 2019.
While the outlays are high for upland cotton marketing loan disbursements, it is unlikely that there will be market
gain benefits because of the prices above the levels for such benefits.

With high prices, Government payments have a smaller role in the agricultural sector’s income. Government
payments, which represented more than eight percent of gross cash income in 2005, fall to about two percent by the
end of the projection period. Conversely, the sector relies on the market for more of its income.


Portions of the above came from: “USDA Agricultural Projections to 2019” OCE-2010-1, issued February 2010,
and USDA Agricultural Projections to 2020”OCE-2011-1 issued February 2011 , Office of the Chief Economist,
World Agricultural Outlook Board, Interagency Agricultural Projections Committee.




                                                            10
                                 COMMODITY CREDIT CORPORATION
                                        Management Discussion and Analysis


Administrative Resource Constraints and Challenges
Although most CCC program outlays are mandatory, the salaries and administrative expenses (S&E) for the
agencies responsible for administering CCC programs are subject to a continuously constrained discretionary
spending environment. The agencies are under significant pressure to modernize the service delivery environment
in order to provide more flexibility in responding to fluctuations in program demand. A number of CCC programs
authorized by the Food, Conservation and Energy Act of 2008 rely on price and yield data to determine program
eligibility and payment rates. Some of these programs are scheduled to expire at the end of FY 2011. Spending
reductions determined by the Congressional super committee in charge of deficit reduction most likely will impact
CCC programs, the staffing needed to implement them, and the 2012 farm bill negotiations. As budgets are
squeezed across the Department, statistical agencies are cutting back on their data collections and the resulting lack
of data could jeopardize program intent.

Natural Disasters and Weather Conditions
Extreme climate and weather events often cause extensive flooding and sustained droughts that profoundly affect
our society in general and agriculture in particular. Agriculture is vulnerable to variations and fluctuations in
weather and climate because existing agricultural practices were developed for average weather and climate
conditions. Furthermore, global climate change is acknowledged as a reality which will affect farming and ranching
practices and conservation measures. Agencies are in the process of developing plans to review programs and
operations to help mitigate global climate change while ensuring efficient and abundant agricultural production.




                                                          11
                                COMMODITY CREDIT CORPORATION
                                       Management Discussion and Analysis




                  2011 Performance Highlights Summary
The Commodity Credit Corporation (CCC) was successful in meeting and exceeding its performance expectations
for Fiscal Year (FY) 2011. CCC funds many programs that fall under multiple agencies within the USDA. Each
Corporation funded program helps achieve parts of both the CCC mission and the strategic plan of the agency under
which the program falls. The CCC mission and agency strategic goals are achieved through the successful
implementation of the key programs.

The Direct Crop and Counter-Cyclical Programs (DCP) authorized under the Food, Conservation, and Energy Act of
2008, (Public Law 110-234), is a key program that mitigates market losses. CCC provides direct payments (cash) to
eligible crop producers. The intent is to allow planting flexibility while providing a safety net for producers. The
Average Crop Revenue Election (ACRE) Program, added under the 2008 Act, is a revenue-based farm safety net
program offered as an alternative program to the price-based safety net provided by counter-cyclical payments under
DCP for crop years 2009 through 2012. The FY 2011 performance target of 95 percent for the measurement of
these programs, maintain the percent of eligible base acres participating in DCP and ACRE programs, was met
achieving a participation rate of 95.30 percent.

Another significant CCC function is executed through the Warehouse Examination Program that performs
examinations of licensed and contracted warehouse facilities that store or handle commodities for CCC. The more
frequently warehouses are examined for compliance with CCC storage agreements and United States Warehouse
Act (USWA) licensing agreements by FSA warehouse examiners, the sooner any potential pest infestation or quality
deterioration of commodities in store will be discovered. The CCC FY 2011 performance target of 380 days
between warehouse examinations was exceeded with an actual performance of 355 days between examinations.
Although there was an increase in days between examinations from 345 days in FY 2010 to 355 days in FY 2011,
this decrease in performance does indicate a need for more field-based examiners. Another contributor to
decreasing performance was the increase in USWA licensed storage capacity. During the last fiscal year USWA
licensed storage capacity has increased from 4.59 billion to 4.81 billion bushels.

The CCC conservation programs help agricultural producers enhance and restore production and conservation
capabilities as well as enhance energy sustainability. The Conservation Reserve Program (CRP) acres annually
reduce nitrogen, phosphorus, sediment, and soil leaving participating fields by over 85 percent before they reach
surface waters. Additionally, CRP acres sequester over 44 million metric tons of carbon dioxide as compared to the
pre-CRP condition. An important measure of conservation performance is the monitoring of agricultural land
acreage enrolled as riparian and grass buffer zones under CRP. CRP met its FY 2011 performance target of 2.01
million acres of riparian and grass buffers enrolled by enrolling exactly 2.01 million acres. The program exceeded
its FY 2011 performance target of 2.05 million acres of restored wetlands with an enrollment of 2.22 million acres.
As of September 30, 2011, total enrollment in CRP was 31.1 million acres.




                                                        12
                                  COMMODITY CREDIT CORPORATION
                                         Management Discussion and Analysis


                                       Financial Highlights
As part of its mission to stabilize, support, and protect farm income and prices, CCC is also responsible for
providing accurate, timely, and useful financial management information to all Agency stakeholders. These
statements have been prepared from the accounting records of the Agency as of September 30, 2011 and September
30, 2010 in accordance with generally accepted accounting principles for Federal entities and policies prescribed in
the Office of Management and Budget (OMB) Circular A-136, Financial Reporting Requirement (Revised).

Assets: The Balance Sheet shows the Agency had total assets of $12.4 billion as of September 30, 2011, an increase
of $587 million (5 percent) above the previous year’s total assets of $11.8 billion. The increase is attributed to an
increase in Fund Balance with Treasury offset by decreases in Accounts Receivable, Loans and Credit Receivables,
Net.

The increase in Fund Balance with Treasury is attributed to increase in cash collections in Price Support (PS)/Loans
Repaid (LRD) account. The increase represents the cash repayment for marketing assistance loans repaid by
producers during FY 2011. CCC marketing assistance loan program is available to producers of commodities
eligible for direct and counter-cyclical payments, and provides interim financing to the eligible producers.

The decrease in Accounts Receivable is attributed to reduction of the calculation of net present value of accruals for
the future collection from FY 2010 to FY 2011 in Tobacco Transition Payment Program (TTPP). The decrease in
Loan and Credit Receivables, Net is attributed to decrease in actual loan principal and interest collections during FY
2011.


   Assets                                                                                Dollars in Millions
   As of September 30                                                   2011     2010 Variance Variance %
   Fund Balance with Treasury                                       $ 4,394 $ 1,797 $ 2,597           145%
   Accounts Receivable, Loans and Credit Receivables, Net              7,782    9,834   (2,052)       -21%
   Commodity Inventories, Net                                             51       46        5         11%
   General Property and Equipment, Net                                    48       57       (9)       -16%
   Other                                                                 127       81       46         57%
   Total Assets                                                     $ 12,402 $ 11,815 $    587           5%


Liabilities: The Balance Sheet shows the Agency had total liabilities of $16.1 billion as of September 30, 2011.
This represents a decrease of $2.4 billion (13 percent) below the previous year’s total liabilities of $18.5 billion.
The decrease is primarily due to a decrease in Other Liabilities.

The decrease in Other Liabilities is attributed to the calculations of net present value of future accruals within TTPP.
Prior year net present value reversal was more than current year net present value due to number of payments left to
be paid in the program.




                                                           13
                                                   COMMODITY CREDIT CORPORATION
                                                        Management Discussion and Analysis


   Liabilities                                                                                          Dollars in Millions
   Dollars in Millions                                                                 2011     2010 Variance Variance %
   Accounts Payable                                                                $    435 $    386 $     49         13%
   Debt to the Treasury                                                               2,865    3,274     (409)       -12%
   Loan Guarantee Liabilities                                                           114      184      (70)       -38%
   Environmental and Disposal Liabilities                                                 8        8        -           0%
   Other                                                                             12,695   14,633   (1,938)       -13%
   Total Liabilities                                                               $ 16,117 $ 18,485 $ (2,368)       -13%



                           Assets and Liabilities

                          $30,000
                                                                                          $23,283           $23,210
                          $25,000                                        $22,542
    Dollars in Millions




                                                          $18,485
                          $20,000        $16,117
                                                                                     $14,529
                          $15,000   $12,402          $11,815        $12,465                           $12,647

                          $10,000
                           $5,000
                              $0
                                        2011             2010           2009             2008              2007
                                                                     Fiscal Year

                              Assets   Liabilities



Ending Net Position: As of September 30, 2011 and September 30, 2010, the Agency’s net position was $3.7 billion
and $6.7 billion, respectively. Net Position is the sum of the Unexpended Appropriations, Cumulative Results of
Operations, and Capital Stock.


     Unexpended Appropriations and Cumulative Results of Operations




                           Unexpended Appropriations                                           Cumulative Results of Operations



                                                                         14
                                 COMMODITY CREDIT CORPORATION
                                        Management Discussion and Analysis


Results of Operations: The Commodity Credit Corporation categorizes the net cost of operations based on the
Agency’s strategic goals. Net cost of operations was $11.3 billion and $11.1 billion for the fiscal years ended
September 30, 2011 and September 30, 2010, respectively. Overall total net cost of operations increased 2 percent
from the prior year. As shown in the table below, Supporting Productive Farms and Ranches expenses comprise a
majority of the costs for the fiscal years ended September 30, 2011 and September 30, 2010. The activity that caused
the fluctuation in the Statement of Net Cost for the fiscal year ended September 30, 2011 relates to the following
strategic goals:


       •	   Supporting Productive Farms and Ranches – For the fiscal year ended September 30, 2011, there was
            one main contributing factor to the increase from prior year. The variance is due to a reversal in FY 2011
            of a $25 million contingent liability of a court-ordered payment, which then was apportioned to
            implementation costs associated with the settlement agreement.


       •	   Supporting Secure and Affordable Food and Fiber – The increase in net cost is primarily due to
            increase in cost associated with the Local and Regional Procurement Pilot Program.


       •	   Conserving Natural Resources and Enhancing the Environment – The decrease in net cost is
            primarily due to the increase in earned revenue with the Other Agency Conservation Program.


       •	   Supporting International Economic and Trade Capacity – The increase in net cost is primarily due to
            the increase in cost associated with P.L. 480 Direct Loans.




   Summary of Net Cost of Operations by Strategic Goals                                      Dollars in Millions
   For the Fiscal Year Ended                                               2011       2010 Variance Variance %
   Supporting Productive Farms and Ranches                       $        6,144 $    5,982 $   162           3%
   Supporting Secure and Affordable Food and Fiber                          296        243      53         22%
   Conserving Natural Resources and Enhancing the
    Environment                                                           2,334      2,425       (91)         -4%
   Supporting International Economic Development and
    Trade Capacity Building                                           2,536          2,401       135          6%
   Total Net Cost of Operations                                  $   11,310       $ 11,051   $   259          2%




                                                          15
                    COMMODITY CREDIT CORPORATION
                         Management Discussion and Analysis




Supporting Productive Farms and Ranches




Supporting Secure and Affordable Food and Fiber




                                        16
                    COMMODITY CREDIT CORPORATION
                         Management Discussion and Analysis




Conserving Natural Resources and Enhancing the Environment




Supporting International Economic Development and Trade Capacity Building




                                        17
                                               COMMODITY CREDIT CORPORATION
                                                       Management Discussion and Analysis

Obligations and Outlays: Between FY 2011 and FY 2010, Obligations Incurred decreased by $2.7 billion, and Net
Outlays decreased by $1.1 billion. The decrease was primarily due to an accounting practice change with the
Conservation Reserve Program (CRP) in FY2010. The change of practice was to record obligations of funds
according to budgetary accounting principles and legal requirements. An accrual with both budgetary and
proprietary impact was recorded in FY 2010 so the expense would be reflected in the year incurred. This accrual
was then reversed at the beginning of FY 2011, thus resulted in a significant decrease in Reimbursable Obligations
and Gross Outlays.


   Summary of Obligations                                                                                          Dollars in Millions
   For the Fiscal Years Ended                                                             2011         2010      Variance Variance %
   Obligations Incurred:
     Direct                                                                        $  3,821      $  4,355        $   (534)        -12%
     Reimbursable                                                                    20,244        22,438          (2,194)        -10%
   Total Obligations                                                               $ 24,065      $ 26,793        $ (2,728)        -10%




   Summary of Net Outlays                                                                                          Dollars in Millions
   For the Fiscal Years Ended                                                             2011         2010      Variance Variance %
   Net Outlays:
     Gross Outlays                                                                 $ 23,196 $ 24,996 $ (1,800)                     -7%
     Offsetting Collections                                                          (12,782) (13,115)    333                      -3%
     Less: Distributed Offsetting Receipts                                              (225)    (576)    351                     -61%
   Net Outlays                                                                     $ 10,189 $ 11,305 $ (1,116)                    -10%




  Budgetary Resources


                         $40,000
   Dollars in Millions




                                                                                                                      $34,898
                                                         $30,192              $31,643            $31,446                    $31,153
                                                                                    $28,652
                         $30,000     $26,592                   $26,793                                 $26,832
                                           $24,065

                         $20,000

                         $10,000

                              $0
                                        2011                2010                 2009                2008                2007
                                                                          Fiscal Years

                         Budgetary Resources         Obligations Incurred




                                                                         18
                     COMMODITY CREDIT CORPORATION
                          Management Discussion and Analysis


Management Controls, Systems, and Compliance with

             Laws and Regulations
  FMFIA and FFMIA Assurance Statement




                                         19
COMMODITY CREDIT CORPORATION
   Management Discussion and Analysis




                  20
COMMODITY CREDIT CORPORATION
   Management Discussion and Analysis




                  21
                                 COMMODITY CREDIT CORPORATION
                                       Management Discussion and Analysis




NOTE: The Management Assurance Statement (assurance statement) is due to the Department by August 30, 2011,
which is almost three months before the final independent auditor’s report is provided to CCC on November 7,
2011. Therefore, in order to prepare the assurance statement and send it through the chain of command for
signatures, CCC must assess reportable internal control weaknesses and non-conformances based on available
information. If the FY 2011 final audit report contains any new unexpected reportable conditions, a revised
assurance statement will be submitted in January 2012.


On November 2, 2011, CCC was made aware of an inconsistency in the reporting of FFMIA in the assurance
statement, the independent auditor’s report, and the MD&A. The assurance statement on FFMIA stated that CCC is
in substantial compliance with Section 1, Federal Financial Management System Requirements where the
independent auditor’s report and MD&A reported substantial non-compliance. The difference in reporting is due to
CCC’s assessment when preparing the assurance statement that the substantial non-compliance is corrected by the
implementation of the Electronic Financial Management System (eFMS) in the last quarter of FY 2011.




                                                         22
                                 COMMODITY CREDIT CORPORATION
                                        Management Discussion and Analysis


        Federal Managers’ Financial Integrity Act (FMFIA)
Overview
The Federal Managers’ Financial Integrity Act of 1982 (FMFIA) requires Federal agencies to submit an annual
report to the President and Congress reflecting the status of management controls for program, financial, and
administrative operations. The Commodity Credit Corporation’s (CCC) FMFIA Annual Report contains CCC’s
material weaknesses, significant deficiencies, and related corrective action plans including material deficiencies
identified through the Office of Management and Budget (OMB) Circular A-123, Management’s Responsibility for
Internal Control, Appendix A, implementation and assessment process conducted during Fiscal Year (FY) 2011.
The CCC Controller provides an annual statement of assurance to the Department of Agriculture’s (USDA) Office
of the Chief Financial Officer certifying that CCC is compliant with FMFIA and is fulfilling requirements to
perform ongoing evaluations of internal control. The assurance statement also includes a certification from the
Controller that:


        Obligations and costs comply with applicable laws and regulations;
        Federal assets are safeguarded against fraud, waste, and mismanagement;
        Transactions are accounted for and properly recorded; and
        Financial management systems conform to standards, principles, and other requirements to ensure that
         Federal managers have timely, relevant, and consistent financial information for decision-making purposes.


Fiscal Year 2011 and 2010 Results
In compliance with the requirements of FMFIA, CCC evaluated, assessed, and tested its management controls for
program, financial, and administrative operations through the OMB Circular A-123, Appendix A, assessment for
FY 2011.


In FY 2010, management’s assessment of internal controls over financial reporting as of September 30, 2010,
identified two material weaknesses (MW) in CCC’s audit report: “Management’s analysis of obligations and
liabilities for the Direct and Countercyclical Payment Programs (DCP)” reported under FMFIA Section 2, Material
Weaknesses in Internal Controls and “Funds Control Management” reported in Section 4, Material Non-
conformances in Financial Systems. There were six significant deficiencies reported in the 2010 audit report under
FMFIA: U.S. Agency for International Development (USAID) – Child Agency Financial Information, Strengthen
Internal Control over Intra-governmental Balances, Strengthen Control over the Farm Storage Facility
Loans (FSFL), Strengthen Internal Control over Accounts Receivable and Revenue, Strengthen Internal Control
over USAID Financial Reporting, and Strengthen Information Security Controls.



                                                          23
                                 COMMODITY CREDIT CORPORATION
                                       Management Discussion and Analysis

For the audit recommendations that gave CCC a material weakness in FYs 2008-2010 for “Management’s Analysis
of Obligations and Liabilities for DCP”, CCC has mitigated this deficiency and closed the audit recommendation
one month earlier than the estimated completion date.


Regarding the significant deficiencies for the lack of financial and monitoring controls over USAID, CCC has
addressed this deficiency with the implementation of additional financial analytics, improved communication, and a
revised Memorandum of Understanding (MOU) with USAID that was completed in FY 2011. CCC will collect two
periods of reconciliations and oversight documentation in FY 2012 to submit and request closure.


The estimated completion date for the deficiency of internal controls over Intra-governmental balances and
reconciliations was revised to be completed the second quarter of FY 2012. Two periods of documentation will be
submitted to request closure although the MOU was completed in FY 2011 Q4.


CCC closed several audit recommendations during FY 2011 and 2010 reducing the significant deficiencies for
Information Security Controls to a potential control deficiency in FY 2011 and completely eliminated the deficiency
of internal controls over Accounts Receivable and Revenue.


CCC continues to report a material weakness for a system nonconformance based on the fact that the system cannot
record an obligation at the time a contract is executed by the county offices. The Funds Control Management
material weaknesses will be mitigated through the Financial Management Modernization Initiative (FMMI) which
continues to be on track and fully implemented by FY 2012. CCC anticipates reducing this material weakness to a
significant deficiency in FY 2012. Additional information is contained in the next section under the Federal
Financial Management Improvement Act (FFMIA).


Under the Office of Management and Budget (OMB) Circular A-123, Management’s Responsibility for Internal
Control, Appendix A, there were six significant deficiencies reported for FY 2010 which were all resolved during
the same year. There were three control deficiencies reported in FY 2010 and during FY 2011 two were upgraded to
significant deficiencies, Funds Status Report and FSFL Reconciliations (the Price Support for FSFL’s obligations,
disbursements, and repayments are not reconciled by Cohort to the general ledger), and one was upgraded to a
material weakness - Unliquidated Obligation (ULO) Certifications (a system non-compliance that has a design
issue). CCC is taking the position that the ULO weakness is not material for CCC; however, the Department is
reporting a material weakness for this item and has mandated all Agencies/Entities to report in their assurance
certification a material weakness.




                                                         24
                                  COMMODITY CREDIT CORPORATION
                                       Management Discussion and Analysis


        Federal Financial Management Improvement Act
                           (FFMIA)
FFMIA is designed to improve financial and program managers’ accountability, provide better information for
decision-making, and improve the efficiency and effectiveness of Federal programs. FFMIA requires that financial
management systems provide reliable, consistent disclosure of financial data in accordance with generally accepted
accounting principles and standards. These systems must also comply substantially with the following 4 sections:
(1) Federal financial management system requirements; (2) applicable Federal accounting standards; (3) the United
States Standard General Ledger (USSGL) at the transaction level; and (4) Information security policies, procedures,
and practices meet the reporting requirements of the Federal Information Security Management Act (FISMA).


During FY 2011, CCC evaluated its financial management systems to assess substantial compliance with the Act.
As of the completion of the annual report and according to the independent auditors, CCC has demonstrated
substantial compliance with Sections 2 and 4. CCC is not substantially compliant with Section 1 – Federal financial
management system requirements and Section 3 – the USSGL at the transaction level. As part of the financial
systems strategy, CCC continues to progress in its corrective actions to meet FFMIA objectives to be completed in
FY 2012.

CCC has completed the development of a fully integrated funds control system, eFMS, within the FSA/CCC core
financial management system. This system is integrated with CCC’s general ledger system at the transaction level.
The eFMS system provides management with timely information to monitor and control the status of budgetary
resources recorded in the general ledger. CCC continues to implement programs into eFMS for full funds control at
a transaction level. CCC anticipates that when the material programs are implemented, the MWs for both system
non-conformance, i.e. funds control and ULO reconciliations, will be downgraded in FY 2012.


CCC FY 2011 accomplishments include the following:

        •	   Posting $9.3 billion out of a total of $18.2 billion in obligations at the transaction level through eFMS,
             which is a little over 50 percent of all the program activity for CCC. The $9.3 billion represented 22
             programs of which 15 were new.
Those new programs included the following:
        •	   Advances from AMS Section 32
        •	   Biomass Crop Assistance Program
        •	   Conservation Reserve Program (CRP)
        •	   Food for Progress
        •	   Food for Education



                                                          25
                                 COMMODITY CREDIT CORPORATION
                                        Management Discussion and Analysis

        •	   Food Nutrition Service
        •	   Vessel Loading Observation
        •	   Public Law 480, Title II


In FY 2012, CCC will work on:
        •	   Converting more programs into eFMS for transaction level obligations;
        •	   Continue development of the FMMI project and make certain that the financial requirements needed to
             ensure compliance with FMFIA are captured in the software design;

        •	   Transaction level obligations for CRP, Annual Rental Program as well as additional Farm Programs
             that were completed in August 2011;
        •	   Web Based Supply Chain Management (WBSCM) programs that were incorporated into eFMS as
             those programs were moved from the Processed Commodities Inventory Management System to
             WBSCM in August 2011, PCIMS is presently being decommissioned; and
        •	   Continue to develop the Modernize and Innovate the Delivery of Agricultural Systems (MIDAS)
             project and we are making sure financial requirements are clearly captured in the design of this system.


        NOTE: Marketing Assistance Loans (MALs) represent approximately $7 billion of the $8.9 billion in
        obligations posted in FY 2011 that is left to be converted to reporting obligations at the transaction level.
        MALs will be developed as part of MIDAS.


For FY 2013, CCC will perform complete software modifications to program applications to send obligation
transactions as of September 2011; only a few low-volume programs remain and continue to select and implement
software, while migrating to the Department’s enterprise solution under FMMI.




                              Anti-deficiency Act (ADA)
In FY 2011, CCC had no new ADA violations; however CCC submitted a letter to the President of the United States
for ADA violations that occurred in FY 2010. The violations occurred between November 19, 2009, and
February 3, 2010, in connection with the Biomass Crop Assistance Program.


CCC incurred obligations at the time the agreements were signed. Although no deliveries were made after
March 31, 2010, and those agreements subsequently were cancelled, CCC was contractually obligated to pay
producers for deliveries after March 31 based on the signed agreements, which constitutes a violation of the ADA.




                                                          26
                                 COMMODITY CREDIT CORPORATION
                                        Management Discussion and Analysis


                   Limitations of the Financial Statements

The principal financial statements have been prepared to report the financial position and results of operations of the
entity pursuant to the requirements of 31 U.S.C. 3515 (b). While the statements have been prepared from the books
and records of the entity in accordance with Generally Accepted Accounting Principles (GAAP) for Federal entities
and the formats prescribed by OMB, the statements are in addition to the financial reports used to monitor and
control budgetary resources which are prepared from the same books and records. The statements should be read
with the realization that they are for a component of the U.S. Government, a sovereign entity.




                                                          27
       COMMODITY CREDIT CORPORATION
               Performance Section




Part II: Performance Section
(Unaudited)




                       28

COMMODITY CREDIT CORPORATION
        Performance Section


    Performance Section





                29

                                 COMMODITY CREDIT CORPORATION
                                                  Performance Section




     Income Support and Disaster Assistance Program Area
                                       M ISS IO N          E L E M ENT
                           Stabilizing, supporting, and protecting farm income and prices.



Program Overview
CCC is the financial instrument for millions of dollars in income support and disaster assistance payments each year
to agricultural commodity producers. These payments stabilize, support, and protect farm income. CCC payments
for these programs are driven by commodity market prices, payment eligibility rules established in public policy,
and natural or human-caused disasters. CCC payments are best explained in the context of a commodity crop year
which does not directly correspond to financial statement reporting.


The Direct Crop and Counter-Cyclical Program (DCP) is a key program in the CCC effort to mitigate market losses.
The Food, Conservation, and Energy Act of 2008, (Public Law 110-234), authorized DCP for FY 2008 through FY
2012. FSA provides direct cash payments to eligible crop producers. The intent is to allow planting flexibility
while providing a safety net for producers. For crop years 2008 through 2012, eligible crop producers will receive
counter-cyclical payments if the effective price for the covered commodity is less than the target price for the
covered commodity. Counter-cyclical payments vary as market prices change relative to statutory income support
levels.


The electronic Direct and Counter-cyclical Payment Program (eDCP) service allows agricultural producers to enroll
in DCP online. Producers can choose DCP payment options, assign crop shares, and sign, view, print, and submit
their DCP contracts from any computer with internet access at any time. This service is available to all eligible
producers for the 2008-2012 DCP program years and helps maintain participation rates for this program. While
producers still have the option to sign up for the program in person at their local USDA Service Center, offering
sign-up options through the Internet helps meet performance objectives, in accordance with the USDA mandate to
expand E-Gov options for program participants.


The optional Average Crop Revenue Election Program (ACRE), added under the 2008 Act, is an alternative
revenue-based safety net to the price-based safety net provided by counter-cyclical payments. For crop years 2009
through 2012, farms with covered commodity or peanut base acres may participate in ACRE. Under ACRE,
producers may receive revenue-based payments as an alternative to receiving price-based counter-cyclical payments.
ACRE provides producers an option to protect against declines in market revenue. ACRE involves State and farm
revenue changes from guarantee revenue levels that are based on national prices, State planted yields, and farm
planted yields. A decision to elect ACRE may be made in any of the crop years 2009-2012; however, the ACRE


                                                          30
                                          COMMODITY CREDIT CORPORATION
                                                                 Performance Section

election is irrevocable and cannot be changed from the time of election through the 2012 crop year. Producers on
farms that have elected ACRE must decide annually whether to enroll in ACRE. Failing to re-enroll the farm will
render the farm ineligible for program year benefits even though the ACRE election is in effect. Producers may
elect the ACRE alternative on a farm-by-farm basis. Producers who elect and enroll a farm in ACRE agree to: (1)
forgo counter-cyclical payments, (2) a 20 percent reduction in their direct payments, and (3) a 30 percent reduction
in the marketing assistance loan rates for all commodities produced on the farm.


ACRE payments are tied to current plantings on the farm as opposed to counter-cyclical payments, which are tied to
the farm’s base acres. ACRE payments are issued when two conditions are met for a commodity. The first
condition is met when the Actual State Revenue falls below the State ACRE Guarantee. The second condition is
met when the Actual Farm Revenue falls below the Farm ACRE Guarantee. Producers on participating ACRE
Program farms can receive both direct and ACRE payments, but the direct payment will undergo a 20 percent
reduction. Land used for non-agricultural purposes or land enrolled in the Conservation Reserve Program,
Grassland Reserve Program and the Wetlands Reserve Program is not eligible for ACRE, counter-cyclical , or direct
payments.


Direct payments are limited to $40,000 per person or entity minus the amount that direct payments are reduced
under ACRE. Total counter-cyclical and ACRE payments are limited to $65,000 plus the amount that direct
payments are reduced. The limitation is attributed to entities and individuals, including indirect amounts received
through entities. Persons or legal entities whose average nonfarm Adjusted Gross Income (AGI) exceeds $500,000
are not eligible for direct, counter-cyclical or ACRE payments. Also, persons or legal entities whose average farm
AGI exceeds $750,000 are not eligible for direct payments under the DCP and ACRE Programs.


Analysis of Results
CCC helps farmers manage financial and market risks primarily through income support and disaster assistance
programs. These programs help farmers and ranchers address major fluctuations in market conditions and
unexpected natural or man-made disasters. These programs provide a safety net to Farmers and Ranchers and
supports productive farms and ranches, thriving agricultural communities, market-based agriculture and secure and
affordable food and fiber.
                                                                                                        Fis c a l Ye a r 2011
             An n u a l P e rfo rm a n c e Go a ls a n d In d ic a to rs               2011 Ta rg e t   2011 Es tim a te        Re s u lt

         Maintain the percent of eligible base acres participating in
         Direct and Counter-cyclical Payment Program (DCP) and
         Average Crop Revenue Election (ACRE) program
         Threshold range: +-1.0 percent                                                  95.00%             95.30%                Met
         Rationale for Met Range: Management determination.
         Data source: Direct and Counter-cyclical Program Enrollment
         Report (DCP-01).




                                                                           31
                                  COMMODITY CREDIT CORPORATION
                                                   Performance Section

CCC met its performance target for 2011 to maintain the percent of eligible base acres participating in the DCP and
ACRE programs. Maintaining a high participation rate in the DCP and ACRE programs is important because the
associated program payments provide incentives for good land stewardship and acreage reporting


Other CCC Income Support and Disaster Assistance accomplishments during the year include:


•	   The Non-Insured Crop Disaster Assistance Program (NAP) provided a risk management tool for producers of
     non-insurable crops that are unable to obtain crop insurance through an insurance product. NAP enrollment has
     been up, in part, because of the passage of the 2008 Act which requires participation in NAP and/or purchase of
     crop insurance in order to gain eligibility for other disaster programs authorized under the 2008 Act. NAP
     benefits paid decreased from $82.2 million in FY 2010 to $68.8 million to date in FY 2011.


•	   Supplemental Agricultural Disaster Assistance authorized under the Food, Conservation and Energy Act of
     2008 (2008 Act) provides five standing disaster programs for losses that occur on or before September 30,
     2011. These programs provide assistance for crop, livestock, tree, and grazing losses that occur due to natural
     disasters and related conditions. Benefits received for 2008 crop year losses total $2.3 billion. Benefits paid for
     2009 crop year losses total $862.9 million. Due to the lag in being able to implement the Supplemental
     Revenue Assistance Payments Program, final totals cannot be provided at this time for 2010 and 2011 crop year
     losses.


•	   Over 28,500 Farm Storage Facility Loans (FSFLs) were disbursed from FY 2000 through 2011. The Food,
     Conservation and Energy Act of 2008 added hay and renewable biomass as eligible commodities. In August
     2009, through the discretionary authority given to the Secretary of Agriculture, cold storage facilities for fruits
     and vegetables were also added to the program. The FSFL Program has provided financing for on-farm storage
     for over 810 million bushels of eligible FSFL commodities since FY 2000. As of September 30, 2011, FSFL
     applications have increased from 1,717 in FY 2005 to 2,925 in FY 2011, an increase of 1,208. Of the 2,925 FY
     2011 FSFLs, a total of $290 million has been approved and obligated.


•	   The Marketing Assistance Loan Program (MAL) disburses non- recourse commodity loans during a crop year.
     Likewise, the Loan Deficiency Payment (LDP) program issues approximately 99 percent of crop year LDP
     benefits electronically, when LDPs are in effect. In crop year 2010, 25,544 LDPs were disbursed for a total of
     $110.5 million and 66,519 MALs were disbursed for a total of $7.4 billion. To date in crop year 2011,
     approximately 2,683 LDPs have been disbursed totaling $1.1 million and 1,319 MALs have been disbursed
     totaling $145.6 million.


•	   The Milk Income Loss Contract Program (MILC) program compensates dairy producers when domestic milk
     prices fall below a specified level, serving as a safety net to U.S. dairy producers. Approximately 97 percent of

                                                           32
                                 COMMODITY CREDIT CORPORATION
                                                  Performance Section

     MILC payments issued to eligible milk producers were in the form of electronic payments. FSA expects to
     again meet this 97 percent mark for FY 2012. As of September 2011, approximately $831 million has been
     disbursed for FY 2009 and $107 million has been issued for FY 2010 MILC payments using this software.


•	   The Reimbursement Transportation Cost Payment (RTCP) Program for Geographically Disadvantaged Farmers
     and Ranchers provides assistance to farmers and ranchers in Hawaii, Alaska, and insular areas that paid to
     transport either an agricultural commodity or an input used to produce an agricultural commodity. RTCP
     payments issued under the FY 2010 program as of September 2011, total $2.2 million to 1,277 eligible
     applicants. Participation under RTCP program for the FY 2011 program is expected to increase as more
     producers become aware of the opportunity.


•	   The Dairy Economic Loss Assistance Program (DELAP) payments began within 60 days of the President
     signing the FY 2010 Agricultural Appropriations Act on October 21, 2009, authorizing this program to assist
     U.S. dairy producers. As of September 2011, a total of $289.9 million has been disbursed for all DELAP
     phases.


•	   The Asparagus Loss Assistance Program (ALAP) provides up to $15 million in direct payments to compensate
     domestic asparagus producers for marketing losses resulting from imports during the 2004 through 2007 crop
     years. As of September 2011, a total of $7.4 million has been disbursed to 342 fresh-market asparagus
     producers and a total of $7.4 million has been disbursed to 236 processed-market asparagus producers.


•	   The American Recovery and Reinvestment Act of 2009 reauthorized and modified the Trade Adjustment
     Assistance for Farmers (TAAF) Program. Under the program, USDA provides technical assistance and cash
     benefits to eligible producers of raw agricultural commodities and fishermen who have been hurt by import
     competition. There were 4,974 FY 2010 applications received for TAAF for producers of catfish, asparagus,
     and shrimp. FY 2010 payments disbursed as of September 2011 totaled $22.0 million. For FY 2011 the TAAF
     Program accepted one petition on behalf of blueberry producers, one on behalf of lobster producers, and one on
     behalf of shrimp producers. A total of 6,017 applications were received for FY 2011, with payments disbursed
     as of September 2011, totaling $2.5 million to 3,115 applicants.


Program Area Performance Summary
CCC hopes to expand protection opportunities for producers through the ACRE program through which producers
may receive revenue-based payments as an alternative to price-based Counter-Cyclical payments.




                                                          33
                                   COMMODITY CREDIT CORPORATION
                                                    Performance Section

             Performance Measure               2007          2008        2009        2010       2011         2012
                                              Actual        Actual      Actual      Actual    Estimate      Target



         Maintain the percent of eligible     96.91%        96.31%      95.99%      95.65%     95.30%       95.00%
         base acres participating in
         Direct and Counter-cyclical
         Payment Program (DCP) and
         Average Crop Revenue Election
         (ACRE) program.
Data source: Direct and Counter-cyclical and ACRE Program Enrollment Report (DCP-01) for the respective crop year.


Participation in the DCP and ACRE programs has declined gradually since 2007. Producer participation is
voluntary and there are a variety of reasons as to why producers might choose to not participate in the programs.
High market prices and strong market conditions for DCP and ACRE eligible commodities have caused program
payments to be a smaller share of farm income, reducing the attractiveness of enrolling in the programs. Due to
relatively high prices and strong market conditions for most of the eligible loan commodities, lower than average
producer participation is also expected for the MAL and LDP programs. With the mid-point of the all-milk price
forecast to average a record of $20.40 per hundred weight (Cwt), in calendar year 2011, no MILC payments are
expected during the remainder of the FY 2011. The combination of record high feed costs and declining milk prices
could push producer margins much lower by the fourth quarter of 2011. During the first seven months of 2011,
producer margins relative to feed prices averaged slightly below the historical average of nearly $8 per Cwt.
However, feed costs have moved even higher following the release of the USDA August crop report. If feed costs
remain at current levels and milk prices decline, producer margins could average below $6 per Cwt during the fourth
quarter of 2011 and under $5 by early 2012. The combination of high feed costs and declining milk prices could
lead to MILC payments early in 2012. The Farm Storage Facility Loans (FSFLs) have been increasing in number
each of the last four years and are expected to continue increasing.




                                                             34
                                  COMMODITY CREDIT CORPORATION
                                                    Performance Section


                                Conservation Program Area
                                        M ISS IO N           E L E M ENT
          Conservation of soil, air, and water resources and protection and improvement of wildlife habitats


Program Overview
Under the USDA Conservation Reserve Program (CRP), producers plant long-term, resource-conserving covers to
improve the quality of water, control soil erosion and enhance wildlife habitat. In return, USDA provides
participants with rental payments and cost-share assistance. Contract duration is between 10 and 15 years. The
program is designed to restore and enhance wetland areas, increase sediment trapping efficiencies, improve water
quality, prevent soil erosion and provide habitat for waterfowl and other wildlife.


The CRP includes several initiatives for wetland restoration and enhancement. CRP wetland initiatives include a
500,000 acre Flood-plain Restoration Initiative, a 250,000 acre Bottomland Hardwood Timber Initiative, a 250,000
acre Non-floodplain and Playa Wetland Restoration Initiative, and a 150,000 acre Prairie Pothole Duck Nesting
Habitat Initiative.


Analysis of Results & 2011 Accomplishments
CCC met or exceeded its targets established for Fiscal Year (FY) 2011 and has made substantial progress in
protecting watershed health and enhancing soil quality. Total enrollment in CRP on September 30, 2011, was 31.1
million acres. CRP acres annually reduce soil erosion, and reduce nitrogen, phosphorus, and sediment leaving
participating fields by over 85 percent. Additionally, CRP acres sequester over 44 million metric tons of carbon
dioxide as compared to the pre-CRP condition. On June 13th, 2011, the Secretary of Agriculture announced
acceptance of 2.8 million acres in the 41st CRP signup held in March and April of 2011. These lands provide
benefits for wildlife, soil, water, and air quality, and recreation. Of the accepted acres, producers offered to set aside
22,000 acres to be devoted to pollinator habitat.


Also, CRP contributes to increased wildlife populations, protects Sage Grouse populations in Eastern Washington,
Lesser Prairie Chicken populations in the Great Plains, and increases waterfowl, ring-necked pheasant, and
grassland bird populations.




                                                            35
                                  COMMODITY CREDIT CORPORATION
                                                   Performance Section

                                                                                             Fiscal Year 2011
               Annual Performance Goals and Indicators                   2011 Ta rg e t       2011 Ac tu a l     Re s u lt

 Increase Conservation Reserve Program (CRP) acres of
 riparian and grass buffers (cumulative and in million acres).
 Thresholds range: +-.5                                                      2.01                 2.01            Met
 Rationale for Met Range: Management determination.


 CRP: restored wetland acreage (million acres)
 Thresholds range: +-.05
                                                                             2.05                 2.22          Exceeded
 Rationale for Met Range: Management determination.



During FY 2011, CCC met the enrollment target for CRP acres consisting of riparian and grass buffers. To measure
performance in achieving its strategy, FSA monitors acreage of agricultural lands enrolled as buffers in CRP. For
FY 2011, producers set aside approximately 67,000 acres of buffers, for a cumulative total of 2.01 million buffer
acres. In 2010, it is estimated that riparian and grass buffers intercepted 356 million pounds of nitrogen and 72
million pounds of phosphorus before they entered surface waters.


Restored wetlands in CRP reached 2.22 million acres, exceeding the target by 160,000 acres. These restored
wetlands are the result of several initiatives, including the 250,000-acre Bottomland Hardwood Timber Initiative, a
250,000-acre Non-floodplain Wetland Restoration Initiative, and a 150,000-acre Prairie Pothole Duck Nesting
Habitat Initiative. Incentives for certain wetland practices and the expansion of the Prairie Pothole Duck Nesting
Habitat Initiative contributed to the increased wetland acres.


Program Area Performance Summary, Challenges for the Future
Wetlands and buffers have increased prime wildlife habitat and water storage capacity, and have contributed to a net
increase in wetland acres on agriculture land. The CRP continues to be recognized for the environmental benefits it
generates through long-term conservation contracts protecting air, soil, water, and wildlife resources. The chart
below illustrates the long-term program performance of the CRP.
                Performance Measure                 2007     2008     2009            2010            2011       2012
                                                   Actual   Actual   Actual          Actual          Actual     Target


      Increase Conservation Reserve Program         1.90     2.00        2.01         2.02            2.01       2.00
      (CRP) acres of riparian and grass
      buffers (cumulative and in million
      acres.)
      Threshold: +-.5

      CRP: restored wetland acreage                 2.08     1.98        2.04         2.05            2.22       2.23
      (million acres)
      Threshold: +-.05



                                                            36
                                  COMMODITY CREDIT CORPORATION
                                                  Performance Section

Starting in FY 2010, enrollment authority for the CRP was decreased by the Food, Conservation and Energy Act of
2008 to no more than 32 million acres. FY 2011 enrollment was 31.1 million acres. The 6.5 million acres of CRP
expiring in FY 2012, combined with relatively high commodity prices, will present a challenge in maintaining the
conservation benefits currently generated by CRP.


USDA remains strongly committed to attaining its conservation and global change objectives. Special focus will be
placed on targeting and monitoring acreage impacts in the President’s High Priority Performance Goals (HPPG)
priority areas. In order to advance this area, USDA will be seeking new wetland contracts for 50,000 acres in FY
2012 and seeking contracts covering 40,000 acres to fulfill riparian buffer and grass filter strip goals. These acres are
offset somewhat by the loss of acres when expiring acres are not re-enrolled. To meet these goals, USDA will be
continuing several initiatives including the 350,000-acre upland bird buffer, the 150,000-acre Duck Nesting Habitat
Initiative, and the State Acres for Wildlife Enhancement initiative (an 850,000-acre initiative announced in FY 2007
to improve habitat for endangered, threatened, or high-priority fish and wildlife species).




                                                           37
                                 COMMODITY CREDIT CORPORATION
                                                  Performance Section


       Commodity Operations and Food Aid Program Area
                                       M ISS IO N          E L E M ENT
  Maintaining balanced and adequate supplies of agricultural commodities and aiding in their orderly distribution


Program Overview
FSA manages the acquisition, handling, storage, transportation, and disposition of agricultural commodities in order
to carry out Commodity Credit Corporation (CCC) program commitments and to administer the United States
Warehouse Act (USWA). Activities related to the USWA are carried out through the regulations and policies to
maintain acceptable standards for the warehouse industry. Protection for depositors is provided through the
licensing and examination activities of the USWA.


FSA is also responsible for administering storage agreements that commercial warehouse operators enter into with
CCC. The agreements are for CCC-interest commodities including commodities owned by CCC or pledged as
collateral for Marketing Assistance Loans (MAL). These programs help achieve domestic farm program price
support objectives, ensure the timely provision of various commodities for domestic and international food
assistance, and administer a uniform regulatory system for storing agricultural products. Warehouse operators issue
negotiable warehouse receipts to producers under the provisions of the USWA. Producers who use the stored
commodity as collateral for a MAL may deliver the warehouse receipts to FSA as security for a nine-month loan.
FSA also works with its many partners to provide adequate, secure storage capacity to maintain quality and improve
the purchase and delivery of food aid. Food assistance purchases support domestic programs such as the National
School Lunch Program and The Emergency Food Assistance Program, as well as international food aid through the
U.S. Agency for International Development and the United Nations World Food Program.


Analysis of Results
The performance measure “Reduce the average number of days between warehouse examinations” is on track to
achieve its target to reduce the average time between warehouse examinations. The FY 2011 target was set at 380
days between examinations. In FY 2011, the examinations were performed at an average of 355 days between
examinations. The more frequently warehouses are examined for compliance by FSA warehouse examiners, the
sooner any potential compliance issues, pest infestation, or deterioration of quality for commodities in store will be
discovered. From FY 2010 through FY 2011, staffing for the examination program has decreased due to retirements
and attrition. During the same time period, licensed capacities have increased. Since September 30, 2010, grain
capacities under USWA license have increased from 4,590,000,000 bushels to 4,809,000,000 bushels. The USWA
licensed warehouses represent more than half of all licensed grain warehouse capacity in the United States.




                                                          38
                                  COMMODITY CREDIT CORPORATION
                                                   Performance Section

                                                                                          Fiscal Year 2011
               Annual Performance Goals and Indicators                   2011 Ta rg e t         2011 Ac tu a l    Re s u lt

 Reduce average time between warehouse examinations (in
 days)                                                                       380                    355          Exceeded
 Threshold range: >102 percent
 Rationale for Met Range: Management determination.



While some new examiners were hired, on the job training may account for the additional days between exams
between FY 2010 and FY 2011, refer to actual performance data below. As the new examiners become
independent, improvements in the performance measure should be visible. Factors that will affect the examination
program in the future include new federal regulations proposed by Occupational Safety and Health Agency (OSHA)
that may limit examination processes over concerns with combustible dust, walking surfaces, and fall protection.
The warehouse industry is developing safer, more efficient measurement technology in response to the increased
regulation, but the technology will need to be tested and vetted for accuracy and dependability. Other factors
affecting the time between examinations of these warehouses include: 1) funding for the examination program; 2)
CCC policy and regulations regarding storage and oversight; 3) the length of time CCC-owned commodities are in
storage; and 4) staffing and staff losses during FY 2011. Examination staffing has declined from 91 in January 2006
to 70 in July 2011. There are only 46 warehouse examiners currently in the field throughout the United States,
based in strategic locations to perform timely examinations. Examiners have to travel farther to conduct
examinations. Some examinations that require teams pose logistic problems because of the additional travel
required to bring the teams together. Until additional staff can be hired, management anticipates the number of days
between examinations to increase in the next fiscal year.



Program Area Performance Summary, Challenges for the Future
As overall staffing has decreased, management has implemented procedures to conduct warehouse examinations at
multiple locations in a non-traditional manner designed to cut travel expenses while maintaining the integrity of the
examination. This process and continued use of electronic documents has helped the efficiency of the program.
FSA will continue to facilitate and encourage electronic commerce to reduce costs and delays associated with
marketing and delivering commodities. As additional new examiners are trained, the days between examinations
should decrease.


                                                     2007      2008       2009        2010              2011      2012
                Performance Measure                 Actual    Actual     Actual      Actual            Actual    Target

     Reduce average time between warehouse           381          387     363             345            355      375
     examinations (in days)

     Threshold range: >102%: Rationale for
     Met Range: Management determination.


                                                             39
                                COMMODITY CREDIT CORPORATION
                                                Performance Section


CCC will continue to provide food assistance purchases support to domestic and international programs. While
there is currently no CCC inventory of dairy products, FSA is currently projecting FY 2012 Dairy Product Price
Support Program purchases of 15 million pounds of non-fat dry milk, one million pounds of cheese, and .5 million
pounds of butter.




                                                        40
                                 COMMODITY CREDIT CORPORATION
                                                 Performance Section



                        Market Development Program Area
                                       M ISS IO N         E L E M ENT
         Developing new domestic and foreign markets and marketing facilities for agricultural commodities.




Program Overview
One-third of all U.S. agricultural cash receipts come from export sales, making the economic well-being of rural
America heavily dependent on international trade. U.S. farmers and ranchers are among the world’s most
productive and efficient. However, they face complex and unfair obstacles in the global marketplace, where 95
percent of the world’s consumers live. A cooperative effort with the U.S. industry is needed to ensure the U.S.
producers have fair market access, a strong understanding of key market trends, and support in overcoming
constraints such as tight credit in international markets.

CCC supports U.S. industry efforts to build, maintain, and expand overseas markets for U.S. agricultural, fish and
forest products. The Foreign Agricultural Services (FAS) manages several export development programs including
the Foreign Market Development (Cooperator) Program (FMD), Market Access Program (MAP), Technical
Assistance for Specialty Crops (TASC) Program, Quality Samples Program (QSP), and Emerging Markets Program
(EMP). These programs provide matching funds to U.S. non-profit organizations to conduct a wide range of
activities including market research, consumer promotion, trade servicing, capacity building, and market access
support. Working with the State Regional Trade Groups (SRTGs) and other industry organizations, CCC programs
also provide funding to encourage small to medium-sized enterprises (SMEs) to become active in international
markets. FAS foreign offices, in 75 countries around the world, support industry efforts by providing market
intelligence and helping introduce U.S. exporters to potential foreign customers. In addition, FAS facilitates U.S.
industry partner participation in a wide-range of international trade shows.


Analysis of Results & 2011 Accomplishments
An external cost-benefit analysis of Market Development Programs found that U.S. food and agricultural exports
increased by $35 for every dollar expended by government and industry, up from $25 in 2007. The study used
multivariate econometric models for bulk commodities and high value products that isolated the unique long-run
trade impacts of foreign market development. The report also showed that agricultural exports in 2009 were $6.1
billion higher than they would have been without increased investment in market development. Export gains
associated with these programs increased the average annual level of U.S. farm cash receipts by $4.4 billion.

There are over 70 non-profit associations that participate in CCC Market Development Programs. They are
promoting U.S. products around the world and have an economic impact on virtually every state in the union.
Below are a few examples of their success demonstrating the wide range of participants, activities, and target
markets:

    •	   The U.S. Hide, Skin and Leather Association reported that EMP was instrumental in supporting a reverse
         trade mission sponsoring Chinese industry representatives’ visit to large and small hide processing plants
         and tanneries in Minnesota, Texas, and California. One week after the trip, a $70,000-trial order was
         placed by team members and future sales are projected at $1.5 million.

    •	   The National Renderers Association used MAP and FMD to bring Egyptian government delegations to the
         United States, as well as host in country seminars to address Egypt’s long-standing ban on imported
         processed poultry proteins due to concerns over avian influenza (AI). In 2011, Egypt re-opened the market


                                                         41
                                   COMMODITY CREDIT CORPORATION
                                                   Performance Section

           for sales of U.S. feather meal and poultry, which were estimated at $10 million and $45 million,
           respectively.

    •	     The Hawaii Papaya Industry Association used TASC to address the Japanese government’s protracted
           concerns regarding genetically modified fruit, a longstanding barrier to imports of U.S. papaya. In 2011,
           the Japanese Government approved the import of commercial GMO papaya estimated at $1 million dollars
           annually.

    •	     U.S. Wheat Associates used FMD funds to conduct baking seminars in Peru that demonstrated excellent
           bread can be produced more economically by blending U.S. wheat varieties. U.S. wheat exports to Peru in
           2011 reached 1 MMT, valued at $274 million, about double the previous marketing year.

    •	     The Alaska Seafood Marketing Institute (ASMI) used MAP to partner with one of Germany’s top salmon
           smokers. MAP funds supported retail promotions and sales staff education, and ASMI has helped create a
           “revival” of smoked wild Alaska salmon across Europe. Today, the smoker imports about $25 million or
           about six times it initially imported in 1995.

    •	     The Almond Board of California, which represents 6,000 growers and 100 processors, used MAP funds to
           carry out consumer promotions and media outreach resulting in record exports to India. California almond
           exports to India exceeded 106 million pounds in 2011, making India the second country outside Europe to
           break through the 100 million pound export shipment threshold.

    •	     The Kansas State Department of Agriculture received MAP funding through U.S. Livestock Genetics
           Export, Inc. to conduct two trade missions to Russia to market beef cattle genetics, which resulted in a sale
           of 12 Red Angus bulls valued at approximately $30,000.

CCC Market Development Programs support the National Export Initiative (NEI). NEI is an acknowledgment of
the growing importance of exports to the economic well-being of the United States. NEI also identifies the need to
focus government resources to help exporters succeed, particularly small to medium-sized enterprises that have the
largest potential to expand internationally. SMEs benefit substantially from the FAS market development programs
and can access MAP funding, on a cost-shared basis, from SRTGs and other industry organizations. SMEs
primarily use these funds to facilitate trade show participation and participate in trade teams. FAS tracks total SME
sales that result from participating in the branded programs of SRTGs and other non-profit industry program
participants.


               Annual Performance Goals and Indicators                                    Fiscal Year 2011
                                                                         2011 Ta rg e t      2011 Es tim a te       Re s u lts


 Actual sales for small companies (million $) participating in              2,600                2,600                Met
 branded programs




                  Performance Measure               2007     2008      2009          2010         2011           2012
                                                   Actual   Actual    Actual        Actual      Estimate        Target



         Actual sales for small companies          1,005    1,400     2,122         2,580        2,600          2,700
         (million $) participating in branded
         programs




                                                            42
                                    COMMODITY CREDIT CORPORATION
                                                    Performance Section




                                        Export Program Area
                                        M ISS IO N E L E M ENT
            Developing new domestic and foreign markets and marketing facilities for agricultural commodities.




Program Overview
The primary objective of the CCC Export Credit Guarantee Programs is to increase sales of U.S. agricultural
commodities to international markets by facilitating the extension of export credits to countries that may not have
access to adequate commercial credit. These CCC Programs encourage U.S. lenders and exporters to extend credit
terms on sales of agricultural commodities and products to overseas customers. The CCC Export Credit Guarantee
Programs support the involvement of foreign private sector banks and private sector importers in commercial trade
transactions with the United States. The Export Credit Guarantee (GSM-102) Program provides guarantees for
export sales with repayment terms up to 2.5 years.


Analysis of Results & 2011 Accomplishments
In FY 2011, the GSM-102 Program provided credit guarantees which facilitated sales of $4.12 billion, a significant
increase of 33 percent, from the previous year’s sales of $3.09 billion. Increased demand for credit amidst a risky
financial environment and rising commodity prices are among the factors causing the rise in the GSM-102 program
usage in FY 2011. Program accomplishments for FY 2011 include:

       •	   The GSM-102 Programs supported increased exports to South Korea, Mexico, Central America and the
            Caribbean.

       •	   Through August 2011 1, the Program supported 17 percent of total U.S. agricultural exports to South Korea
            and 21 percent of total U.S. agricultural exports to Turkey.

       •	   After declining to $195 million in FY 2010, program usage for U.S. agricultural exports to the South
            America Region rebounded by 200 percent in FY 2011 to $588 million. Total U.S. agricultural exports to
            these same countries were $4.0 billion for the period October 2010 - August 2011. As of August 2011, the
            GSM-102 Program had supported nearly 10 percent of U.S. agricultural exports to these countries. The
            commodities exported to South America under the Program in FY 2011 include wheat, corn, corn gluten
            meal, corn oil, distilled dry grain, soybeans, soybean meal, and soybean oil.

       •	   Sales of corn, wheat, and cotton all showed dramatic increases in FY 2011.


            -    Program use for corn exports increased by 70 percent to $1.2 billion, including sales to South Korea,
                 Indonesia, Saudi Arabia, and Central America.

            -    Program use for wheat exports increased by 93 percent to $1.0 billion, including sales to South Korea,
                 Thailand, South America, and Egypt.

            -	   Program use for cotton exports increased by 126 percent to $389 million, primarily to Turkey.

1
    Full FY 2011 trade data is not yet available.

                                                            43
                                COMMODITY CREDIT CORPORATION
                                                Performance Section


  •    In FY 2011, the program facilitated sales of many non-bulk commodities including oranges and walnuts to
       South Korea and leather, cattle hides, linerboard, wood pulp, and wood chips to Turkey.



            Annual Performance Goals and Indicators                                       Fiscal Year 2011
                                                                      2011 Ta rg e t         2011 Ac tu a l          Re s u lts


Estimated trade value resulting from USDA GSM export credit                  3.5                 4.12            Exceeded
guarantee programs (dollars in billions)



Economic Return Ratio                                                 $100/$1.00            $107.56/$1.00              Met
(New Measure)

(Trade plus Trade multiplier ($1.31 of additional economic
activity per dollar of trade ) divided by program costs)




               Performance Measure               2007     2008     2009             2010         2011          2012
                                                Actual   Actual   Actual           Actual       Actual        Target



      Estimated trade value resulting from      1.45      3.11        5.32         3.09          4.12          3.5
      USDA GSM export credit guarantee
      programs (dollars in billions)



      Economic Return Ratio                     N/A       N/A         N/A          N/A         $107.56        $100/
      (New Measure)                                                                             /$1.00        $1.00
      (Trade plus Trade multiplier ($1.31 of
      additional economic activity per dollar
      of trade ) divided by program costs)




                                                         44
      COMMODITY CREDIT CORPORATION
          Consolidated Financial Statements




Part III: Financial Section




                         45

                                     COMMODITY CREDIT CORPORATION
                                                  Consolidated Financial Statements

                                               Commodity Credit Corporation
                                       CONSOLIDATED BALANCE SHEETS

                                             As of September 30, 2011 and 2010

                                                    (Dollars in Millions)


                                                                            2011                 2010
Assets:
 Intragovernmental:

   Fund Balance with Treasury (Note 2)
                            $                4,394    $           1,797
   Accounts Receivable, Net (Note 4)
                                                  55                  116
   Other
                                                                               -                    1
 Total Intragovernmental Assets
                                   $                4,449    $           1,914
 Cash and Other Monetary Assets (Note 3)
                                               -                    -
 Accounts Receivable, Net (Note 4)
                                                 3,341                4,247
 Direct Loans and Loans Guarantees, Net:

   Commodity Loans, Net (Note 5)                                                      338                  673
   Credit Program Receivables, Net (Note 6)                                         4,048                4,798
 Subtotal                                                          $                4,386    $           5,471
 Commodity Inventories and Related Property, Net (Note 7)                              51                   46
 General Property and Equipment, Net (Note 8)                                          48                   57
 Other                                                                                127                   80
Total Assets                                                       $               12,402    $          11,815

  Stewardship Land (Note 1)

Liabilities:
  Intragovernmental:

    Debt to the Treasury (Note 10)
                                $                2,865    $           3,274
    Other:

      Resources Payable to Treasury(Note 12)
                                       1,988                2,447
      Deposit and Trust Liabilities (Note 11)
                                      1,269                1,356
      Other (Note 12)
                                                                 86                  203
    Subtotal
                                                      $                3,343    $           4,006
  Total Intragovernmental Liabilities
                             $                6,208    $           7,280
  Accounts Payable
                                                                   435                  386
  Loan Guarantee Liability (Note 6)
                                                  114                  184
  Environmental and Disposal Liabilities (Note 13)
                                     8                    8
  Other Liabilities:

    Accrued Liabilities (Note 14)
                                                  9,109               10,227
    Deposit and Trust Liabilities (Note 11)
                                            7                    7
    Other (Note 12)
                                                                  236                  393
  Subtotal                                                         $                9,352    $          10,627
Total Liabilities (Note 9)                                         $               16,117    $          18,485

Commitments and Contingencies (Note 15)

Net Position:
 Unexpended Appropriations
                                        $                1,167    $           1,853
 Capital Stock
                                                                       100                  100
 Cumulative Results of Operations
                                                 (4,982)              (8,623)
Total Net Position                                                 $               (3,715)   $          (6,670)
Total Liabilities and Net Position                                 $               12,402    $          11,815

The accompanying notes are an integral part of these statements.




                                                                       46
                                     COMMODITY CREDIT CORPORATION
                                                  Consolidated Financial Statements


                                                      Commodity Credit Corporation
                                       CONSOLIDATED STATEMENTS OF NET COST
                                        For the Fiscal Years Ended September 30, 2011 and 2010
                                                          (Dollars in Millions)

                                                                                      2011                   2010
Strategic Goals:

Supporting Productive Farms and Ranches:
    Gross Cost
                                                                $                 6,249   $           6,141
    Less: Earned Revenue
                                                                          105                 159
    Net Goal Cost
                                                             $                 6,144   $           5,982

Supporting Secure and Affordable Food and Fiber:
    Gross Cost
                                                                $                  326    $            279
    Less: Earned Revenue
                                                                          30                  36
    Net Goal Cost
                                                             $                  296    $            243

Conserving Natural Resources and Enhancing the Environment:
    Gross Cost
                                                                $                 2,374   $           2,426
    Less: Earned Revenue
                                                                           40                   1
    Net Goal Cost
                                                             $                 2,334   $           2,425

Supporting International Economic Development and Trade Capacity Building:
    Gross Cost
                                                            $                     2,894   $           2,726
    Less: Earned Revenue
                                                                          358                 325
    Net Goal Cost
                                                         $                     2,536   $           2,401

Total Gross Cost                                                              $              11,843      $          11,572
Less: Total Earned Revenue                                                                      533                    521
Net Cost of Operations                                                         $             11,310      $          11,051

The accompanying notes are an integral part of these statements.




                                                                     47
                                 COMMODITY CREDIT CORPORATION
                                             Consolidated Financial Statements

                                           Commodity Credit Corporation
                CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION
                             For the Fiscal Years Ended September 30, 2011 and 2010
                                               (Dollars in Millions)

                                                                        2011                  2010

Capital Stock                                                  $                  100     $             100

Cumulative Results of Operations:
 Beginning Balance                                             $                (8,623)   $          (12,205)

Budgetary Financing Sources:
 Appropriations Used                                                           17,124                17,252
 Non-exchange Revenue                                                              19                     3
 Transfers in/out without Reimbursement, Net                                   (3,497)               (3,756)

Other Financing Sources (Non-Exchange):
 Transfers in/out without Reimbursement, Net                                        (3)                   18
 Imputed Financing                                                               1,417                 1,378
 Other                                                                            (109)                 (262)
Total Financing Sources                                        $                14,951    $           14,633
Net Cost of Operations                                                         (11,310)              (11,051)
Net Change                                                     $                 3,641    $            3,582
Cumulative Results of Operations                               $                (4,982)   $           (8,623)

Unexpended Appropriations:
 Beginning Balance                                             $                1,852     $           2,028

Budgetary Financing Sources:
 Appropriations Received
                                                       16,801                17,077
 Appropriations Transferred in/out
                                                (28)                    -
 Other Adjustments
                                                               (334)                    -
 Appropriations Used
                                                          (17,124)              (17,252)
Total Budgetary Financing Sources                              $                  (685)   $             (175)
Total Unexpended Appropriations                                $                 1,167    $            1,853

Net Position                                                   $                (3,715)   $           (6,670)

The accompanying notes are an integral part of these statements.




                                                                   48
                                          COMMODITY CREDIT CORPORATION
                                                      Consolidated Financial Statements

                                                             Commodity Credit Corporation
                                      COMBINED STATEMENTS OF BUDGETARY RESOURCES
                                               For the Fiscal Years Ended September 30, 2011 and 2010
                                                                 (Dollars in Millions)

                                                                                             2011                                        2010

                                                                                                  Non-Budgetary
                              Non-Budgetary
                                                                                                  Credit Program
                             Credit Program
                                                                               Budgetary        Financing Accounts
        Budgetary        Financing Accounts
Budgetary Resources:
 Unobligated balance, brought forward, October 1:
                         $         2,288      $          1,111      $          2,019      $            972
 Recoveries of prior year unpaid obligations
                                          828                    38                 1,332                    34
 Budget authority:

   Appropriation
                                                                  17,733                      -               18,014                     -
   Borrowing authority (Note 17)
                                                  30,969                    743               39,064                 1,199
   Spending authority from offsetting collections:

      Earned:

       Collected
                                                                  11,323                    569               11,295                    501
       Change in receivables from Federal sources
                                   (193)                     -                   13                      -
      Change in unfilled customer orders:

       Advance received
                                                              (42)                     -                  382                     -
       Without advance from Federal sources
                                            -                      -                    -                   (19)
      Expenditure transfers from trust funds                                          932                      -                  937                     -
   Subtotal
                                                               $       60,722       $          1,312      $        69,705       $         1,681
 Nonexpenditure transfers, net, actual
                                            (3,588)                     -               (3,617)                    -
 Permanently not available
                                                       (35,149)                  (970)             (41,586)                 (348)
Total Budgetary Resources                                                  $       25,101       $          1,491      $        27,853       $         2,339

Status of Budgetary Resources:
  Obligations incurred:

    Direct
                                                                $        2,987       $            834      $         3,127       $         1,228
    Reimbursable
                                                                  20,244                      -               22,438                     -
  Subtotal                                                                 $       23,231       $	           834      $        25,565       $         1,228
  Unobligated balance:

    Apportioned
                                                           $          526       $            537      $	          305       $           861
    Exempt from apportionment
                                                      1,136                      9                1,188                     5
  Subtotal
                                                                $        1,662       $            546      $         1,493       $           866
  Unobligated balance not available
                                                  208                    111                  795                   245
Total Status of Budgetary Resources                                        $       25,101       $          1,491      $        27,853       $         2,339

Change in Obligated Balance:
 Obligated balance, net
   Unpaid obligations, brought forward, October 1                          $         9,894      $	           238      $          9,542      $	           159
   Less: Uncollected customer payments from Federal sources, brought
   forward, October 1                                                                (246)                  (158)                (233)                  (177)
 Total unpaid obligated balance, net
                                      $        9,648       $	            80      $         9,309       $            (18)
 Obligations incurred, net 
                                                       23,231                    834               25,565                  1,228
 Less: Gross outlays
                                                             (22,373)                  (823)             (23,881)                (1,115)
 Less: Recoveries of prior year unpaid obligations, actual
                          (828)                   (38)              (1,332)                   (34)
 Change in uncollected customer payments from Federal sources
                        193                      -                  (13)                    19
 Total Change in Obligated Balance, net                                    $        9,871       $             53      $         9,648       $             80
 Obligated balance, net, end of period:

   Unpaid obligations
                                                     $         9,924      $            210      $          9,894      $	           238
   Less: Uncollected customer payments from Federal sources
                           (53)                 (157)                 (246)                 (158)
Total, unpaid obligated balance, net, end of period                        $         9,871      $             53      $          9,648      $             80

Net Outlays:
 Gross outlays
                                                            $       22,373       $            823      $        23,881       $         1,115
 Offsetting collections
                                                          (12,213)                  (569)             (12,614)                 (501)
 Less: Distributed Offsetting receipts
                                                 -                   (225)                   -                  (576)
Total Net Outlays                                                          $       10,160       $             29      $        11,267       $            38

The accompanying notes are an integral part of these statements.




                                                                         49
Notes to the Financial
Statements




               50

                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 1 - Significant Accounting Policies
Reporting Entity
The Commodity Credit Corporation (CCC or the Corporation) is a Federal corporation operating within and through
the United States Department of Agriculture (USDA). It was established to stabilize, support, and protect farm
income and prices; assist in the maintenance of balanced and adequate supplies of agricultural commodities; and
facilitate the orderly distribution of those commodities.

CCC’s statutory authority for its operations is found in the CCC Charter Act, 15 U.S.C. 714, and et seq. The
Corporation is managed by a Board of Directors subject to the general supervision and direction of the Secretary of
Agriculture who is an ex-officio director and chairperson of the Board. The members of the Board and the
Corporation's officers are officials of USDA.

CCC operations are financed through appropriated funds as well as an authority to borrow from the U.S. Treasury
(Treasury). The Treasury also holds capital stock in the amount of $100 million with no obligation to repay, on
which the Corporation pays interest. CCC receives direct appropriations for several of its foreign assistance
programs and special activities, such as disaster aid. Permanent indefinite borrowing authority exists for programs
subject to the Federal Credit Reform Act of 1990, as amended (Credit Reform). Receipts flowing through CCC's
related revolving fund include proceeds from the sale of CCC commodities, loan repayments, interest income, and
various program fees.

CCC has no employees or facilities. Its programs are administered through various agencies including USDA’s
Farm Service Agency (FSA), Agricultural Marketing Service (AMS), Natural Resources Conservation Service
(NRCS), Foreign Agricultural Service (FAS), and the United States Agency for International Development
(USAID). The accompanying financial statements include an allocation, as appropriate, of salaries and expenses
(e.g., facility costs) incurred by these agencies. In other instances, CCC reimburses the other agencies for their
administrative costs.

Basis of Presentation
The Corporation’s financial statements report the financial position and results of operations of CCC pursuant to the
requirements of 31 U.S.C. 3515 (b). These statements have been prepared from the accounting records of the
Agency as of September 30, 2011 and September 30, 2010 in accordance with generally accepted accounting
principles for Federal entities and policies prescribed in the Office of Management and Budget (OMB) Circular A­
136, Financial Reporting Requirements. OMB financial reporting guidelines require the presentation of
comparative financial statements for all principal financial statements. The statements are in addition to the external
financial reports used to monitor and control budgetary resources, which are also prepared from CCC’s general
ledger. These financial statements have been prepared for the Corporation which is a component of the U.S.
Government, a sovereign entity.

Basis of Accounting
The accounting structure of Federal agencies is designed to reflect both accrual and budgetary accounting
transactions. Under the accrual method, revenues are recognized when earned, and expenses are recognized when a
liability is incurred without regard to receipt or payment of cash. The budgetary accounting principles, on the other
hand, are designed to recognize the obligation of funds according to legal requirements, which in many cases is prior
to the occurrence of an accrual-based transaction. The recognition of budgetary accounting transactions is essential
for compliance with legal constraints and controls over the use of Federal funds. The financial statements include
all Treasury funds of CCC, which encompass its domestic and foreign activities. CCC consolidates all costs related
to its child activities for the allocated funds transfers and shared appropriations. In consolidation, intra-agency
activities and balances have been eliminated except for the Statement of Budgetary Resources (SBR), which is
presented on a combined basis as required by OMB guidance.

In FY 2011, CCC implemented the Treasury General Funds Receipt (GFR) Account Guide, Scenario 6, which
illustrates the accounting and reporting requirements for the Non-Custodial collections and liability related to the
downward reestimate for credit reform programs. The GFR accounts are reported as Non-Entity in the CCC’s



                                                          51
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 1 - Significant Accounting Policies, continued
Financial Statements. Certain reclassifications have been made to prior year amounts to conform to the current year
presentation.

Fund Balance with Treasury
CCC disbursements are made by checks or electronic funds transfers that are deducted from CCC’s account at
Treasury. Generally, receipts and disbursements for CCC are processed by the Federal Reserve Banking system.

Cash
Treasury requires that the Fund Balance with Treasury amounts reported via Federal Agencies' Centralized Trial-
Balance System II (FACTS II) be in agreement with Treasury’s records. To comply with these requirements, cash
timing differences due to deposits in-transit or outstanding checks are reported as “in-transit”. The cash balance
consists of these timing differences as a result of varying processing times and cut-off dates between CCC, Treasury,
and other USDA entities.

CCC does not maintain cash in commercial bank accounts.

Accounts Receivable
Accounts receivable arise from claims to cash or other assets against other entities, either based on legal provisions,
such as payment due date or goods or services provided.

Accounts receivable are adjusted by a valuation allowance based on historical collection, write-off information, and
other analysis which reduces the receivables to their estimated net realizable value.

Commodity Loans
CCC makes both recourse and nonrecourse loans to producers of designated agricultural commodities. In the case
of nonrecourse loans, producers have the option to: (a) repay the principal plus interest; (b) for certain designated
commodities repay the loan at the market rate; or (c) at maturity, forfeit the commodity in satisfaction of the loan.
These loans are not subject to the accounting and reporting requirements of Credit Reform (Note 6) because these
loans are less than 12 months in duration.

Interest is accrued on the unpaid principal balance of commodity loans and is included in the reported net
commodity loans receivable balances.

Commodity loans are reported net of an allowance for doubtful accounts which reduces the loans to their estimated
net realizable value. The allowance is based on the estimated loss on ultimate disposition when it is more likely than
not that the loans will not be fully collected. When CCC disposes of forfeited commodities, depending on the type
of disposition, any loss on the disposition is realized as either a cost of sales or donation.

Tobacco Transition Payment Program (TTPP)
The American Jobs Creation Act of 2004, which included the Fair and Equitable Tobacco Reform Act (the Law),
effectively ended the tobacco loan program for CCC, which provided recourse loans to tobacco producers or quota
holders. The quota holders are the landowners of the farm where a tobacco quota was assigned. Quota was the
quantity of tobacco required to meet the national domestic needs during the year. That national amount was
allocated among all the prior year quota holders to establish the quantity of tobacco that each individual quota holder
could market during the program year.

The Law required CCC to dispose of its outstanding tobacco loan portfolio and establish contracts with and make
payments to tobacco producers and quota holders to transition from the previous price support program to a free
market. This transition period encompasses ten years and began in fiscal year (FY) 2005. The Law authorized a




                                                          52
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 1 - Significant Accounting Policies, continued
total maximum of $10.14 billion over the period to cover the realized losses of $292 million related to the
disposition of the tobacco loan collateral in FY 2005, making payments to producers and quota holders, and other
eligible expenses. CCC estimates that payments made over the 10-year period will be approximately $6.7 billion to
quota holders and $2.9 billion to tobacco producers. The total source of revenue or other financing for the program
is intended to be derived from assessments levied upon manufacturers and importers of tobacco products and
collected quarterly. Manufacturers and importers are expected to pass these costs on to consumers of tobacco
products through increased sales prices. All collections from the tobacco industry are deposited into the Tobacco
Trust Fund.

Generally, payments are made to quota holders and producers in January, which is prior to the quarterly collection
of assessments from the tobacco manufacturers and importers. Because of the difference in timing of the collections
and assessments, collections will not match disbursements on an annual basis. The Law allows CCC’s revolving
fund to make payments to the quota holders and producers, and allows for reimbursement from the Tobacco Trust
Fund. The assessments collected from the tobacco industry are subsequently transferred to CCC’s revolving fund,
reimbursing that fund for the payments made to quota holders and producers based on approved contracts.

In FY 2005, CCC recognized a public receivable for the present value of the expected future collections from the
manufacturers and importers over the 10-year period ending in 2014. In addition, CCC recognized an accrued
liability for the present value of the remaining pay-out amount to the quota holders and producers. Because the trust
fund collections from the tobacco manufacturers and importers are intended to fund the payments to quota holders
and producers, the present value of the public receivable and the liability were reported in equal amounts on the
balance sheet in FY 2005. As actual activity occurs each fiscal year, the receivable and accrued liability estimates
are adjusted to reflect the expected cash flows for the remaining period of the contracts, as well as the historical
collection and disbursement activity.

Credit Reform Accounting
Purposes of The Federal Credit Reform Act of 1990 (FCRA) include measuring more accurately the costs of Federal
credit programs and placing the cost of credit programs on a budgetary basis equivalent to other Federal spending.
The FCRA applies to direct loans and loan guarantees made on or after October 1, 1991.

Direct loans are a disbursement of funds by the Government to non-Federal borrowers under contracts that require
the repayment of such funds within a certain time with or without interest. It includes the purchase of, or
participation in, a loan made by another lender and financing arrangements that defer payment for more than 90
days. Loan guarantees represent insurance that the payment of all or part of the principal or interest on any debt
obligation of a non-Federal borrower to a non-Federal lender will be received by the non-Federal lender. A
defaulted loan guarantee occurs if the borrower fails to make a payment pursuant to the terms of the obligation.

The cost of direct loans is accounted for on a net present value basis at the time when the direct loan is disbursed. It
includes the cash flows of loan disbursements; repayments of principal; payments of interest; recoveries or proceeds
of asset sales; and other payments by or to the Government over the life of the loan. The present value computation
also contains effects for estimated defaults, prepayments, fees, penalties, and any expected actions, such as the
exercise by the borrower of an option included in the loan contract.

The cost of loan guarantees is also accounted for on a net present value basis at the time when the guaranteed loan is
disbursed. The cost includes the estimated cash flows of payments by CCC to cover defaults and delinquencies,
interest subsidies, and other requirements, payments to CCC including origination and other fees, penalties, and
recoveries, including the effects of any expected actions by CCC and the exercise by the guaranteed lender or the
borrower of an option included in the loan guarantee contract.




                                                           53
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 1 - Significant Accounting Policies, continued
In estimating net present values, the discount rate is the average interest rate on marketable Treasury securities of
similar maturity cash flows of the direct loan or loan guarantee for which the estimate is being made. When funds
are obligated for a direct loan or loan guarantee, the estimated cost is based on the current assumptions adjusted to
incorporate the terms of the loan contract.

The credit program account is the budget account into which an appropriation to cover the cost of a direct loan or
loan guarantee program is made and from which such cost is disbursed to the financing account. The financing
account is the non-budget account or accounts associated with each credit program account that holds balances,
receives the cost payment from the credit program account, and also includes all other cash flows to and from CCC
resulting from direct loan obligations or loan guarantee commitments made on or after October 1, 1991. The
liquidating account is the budget account that includes all cash flows to and from CCC resulting from direct loan
obligations or loan guarantee commitments made prior to October 1, 1991. These accounts are shown in the Federal
budget on a cash basis.

Collections resulting from direct loans obligated or loan guarantees committed prior to October 1, 1991, are credited
to the liquidating accounts. The amounts credited are available to the same extent that they were available to
liquidate obligations arising from such direct loans obligated or loan guarantees committed prior to October 1, 1991,
including repayment of any obligations held by the Department of Treasury. The unobligated cash balances of such
accounts that are in excess of current needs must be transferred at least annually to the general fund of the Treasury.

Credit Program Receivables
CCC has several credit programs subject to Credit Reform requirements (Refer to Note 6). Credit program
receivables consist of:

        direct loans extended under Public Law 83-480 (P.L. 480) programs;
        receivables in the Debt Reduction Fund;
        receivables for the General Sales Manager program in the form of reschedule agreements;
        loans made to producers to build or upgrade farm storage and handling facilities;
        loans made to apple producers who incurred losses due to low market prices; and
        loans made to the Texas Boll Weevil Eradication Foundation.

These receivables (including related interest), for post-Credit Reform, are recognized as assets at the present value
of their estimated net cash inflows. The difference between the outstanding principal of these receivables and the
present value of their net cash inflows is recognized as an allowance. CCC uses the Credit Subsidy Calculator 2
(CSC2) for computing the subsidy re-estimates for its Credit Reform programs. The CSC2 is an OMB tool for
performing credit calculations, incorporating both financing account interest and dollar re-estimates functionality.
CCC also uses the Treasury Credit Reform Certificate Program guidelines, Statement of Federal Financial
Accounting Standards (SFFAS) No. 2, Accounting for Direct Loans and Loan Guarantees, SFFAS No. 18,
Amendments to Accounting for Direct Loans and Loan Guarantees, and SFFAS No. 19, Technical Amendments to
Accounting for Direct Loans and Loan Guarantees for the accounting and reporting of its loan subsidy cost re-
estimation and amortization.

Capitalized Interest
Rescheduling agreements frequently allow CCC to add uncollected interest to the principal balance of foreign credit
and other foreign receivables (capitalized interest). In such circumstances, CCC records an allowance to reduce the
receivable, including the capitalized interest, to the present value of future cash flows. Interest income is recognized
only when, in management's judgment, debtors have demonstrated the ability to repay the debt in the normal course
of business.




                                                          54
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 1 - Significant Accounting Policies, continued
Commodity Inventories
Commodity inventories, referred to as goods held under price support and stabilization programs in the SFFAS No.
3, Accounting for Inventory and Related Property, issued by the Federal Accounting Standards Advisory Board,
represent commodities acquired by the Corporation for donation or price support purposes. They are eventually sold
or otherwise disposed of to help satisfy economic goals.

Inventories are initially recorded at acquisition cost plus processing and packaging costs incurred after acquisition.
Acquisition cost is the amount of the loan settlement, excluding interest, or the amount of the purchase settlement
price. Since loan rates and income support levels are established by statute, inventory acquisitions are usually
recorded at a cost higher than market value.

Generally, disposition costs are based on the average cost of the commodity in inventory at the end of the previous
month. In other cases, the cost is computed on the basis of actual (historical) cost of the commodity. Actual cost is
used with: (a) simultaneous acquisition and disposition for commodity export programs; and (b) dispositions of
commodities previously pledged as price support loan collateral, which are acquired and simultaneously disposed of
by CCC during the exchange of commodity certificates. Commodity certificates are issued electronically by CCC
and must be immediately exchanged for a commodity owned by the Corporation.

In accordance with SFFAS No. 3, the cost of commodity inventories sold to other Federal entities is classified as an
expense with the public since the commodities being sold are originally purchased or otherwise acquired from a
public source.

Commodity inventories are valued at net realizable value in accordance with SFFAS No. 3. Ending inventory
balances are examined at period end to determine each commodity’s market value. A valuation allowance is
recorded if the book value of a commodity exceeds its market value.

In FY 2008, CCC entered into an agreement with The Seam, a private company, to facilitate the exchange of CCC-
owned commodities for food products to be utilized in domestic and export food programs. CCC receives Barter
Delivery Obligations (BDOs) in exchange for CCC-owned commodities. The BDOs represent the net sales
proceeds (gross proceeds minus a sales commission percentage) from The Seam’s sale of the CCC-owned
commodities and; The Seam uses the BDOs to acquire food products on behalf of CCC.

For financial statement purposes, the BDOs are valued at the net sales proceeds and are presented as part of CCC’s
Commodity Inventories and Related Property. CCC recognizes gain or loss on each exchange transaction
determined by the difference between CCC’s book value of the commodity and the BDO value received in the
exchange.

General Property and Equipment
General property and equipment purchases are recorded at the acquisition cost plus expenditures related to placing
the asset into service such as freight, installation, and testing. Purchases of property valued at $25,000 or more and
a useful life of 2 years or greater are capitalized. Property and equipment is depreciated on a straight-line basis.
Automated Data Processing (ADP) computer equipment has a service life of 5 years. There is no salvage value
associated with general property and equipment.

In addition, internal use software valued at $100,000 or more and a useful life of 2 years or greater is capitalized.
Internal use software development costs are accumulated and capitalized upon completion. In accordance with
SFFAS No. 10, Accounting for Internal Use Software, capitalized software development costs include contractor
developed software, purchased software, and internally developed software. Capitalized internal use software costs
are amortized over a period of 5 years beginning with the first year the software is fully operational. Also included
are costs incurred by FSA which are transferred to CCC without reimbursement and are reflected as software-in­
development on CCC’s financial statements until such time as the software is completed and put into operation.
Once the software is put into operation, amortization begins.


                                                          55
                               COMMODITY CREDIT CORPORATION
                                          Notes to the Financial Statements

Note 1 - Significant Accounting Policies, continued
Producer Assistance Advances
Public Law 107-25 (commonly referred to as the Agricultural Economic Assistance Act) authorized three grant
programs whereby the Corporation disbursed funds to State governments for various purposes, such as promoting
agriculture and supporting activities for specialty crops. The three grant programs are Specialty Crops - Base State
Grant, Specialty Crops - Grants for Value of Production, and Commodity Assistance Program. Disbursements are
accounted for as advances on the Other Assets line of the Balance Sheet and are recognized as expenses based on
the States’ reporting of their use of the funds.

Non-Entity Assets
Non-entity assets are assets held by CCC that are not available for use in its operations.

Liabilities
Depending on the type of transaction, CCC recognizes a liability in one of two ways. If an exchange transaction
occurs (i.e., receipt of goods or services in return for a promise to provide money or other resources in the future), a
liability is recognized in the period in which the exchange occurred. If a nonexchange transaction occurs (i.e.,
government programs where there is a one-way flow of resources or promises), a liability is recognized for any
unpaid amounts due as of the reporting date. Liabilities not covered by budgetary resources, disclosed in Note 9,
result from the accrual of unpaid amounts due for various CCC programs. Budgetary resources for the programs
will not be made available until the subsequent fiscal year until congressional action is completed.

Resources Payable to Treasury
Liquidating Funds: Resources payable to Treasury represent the Pre-credit reform funds’ assets that are in excess of
the funds’ liabilities. After liquidating all the liabilities of these Pre-credit reform funds, unobligated funds are then
returned to Treasury annually.

Financing Funds: Downward reestimates/subsidies are paid to Treasury in the year of funding. The downward
reestimate is recorded as an unfunded payable.

Custodial Collections: As a normal part of its business practices CCC collects penalties, fines, fees and other funds
which are forwarded to Treasury. These are not part of CCC budget authority.

Downward Reestimates Payable to Treasury General Fund
During FY 2011, CCC implemented the Treasury General Funds Receipt (GFR) Account Guide, Scenario 6, which
illustrates the accounting and reporting requirements for the Non-Custodial collections and liability related to the
downward reestimate for credit reform programs. When direct and guaranteed loan financing funds collect more
subsidy than necessary to fund future net cash outflows, the applicable financing account transfers the excess
subsidy, with interest, to a GFR Account. The GFR account is shown in the trial balance and financial statements as
non-entity. As a result of implementing this guide in FY 2011, the downward reestimate costs are shown on
different lines of the Statement of Changes in Net Position.


Loan Guarantee Liabilities
CCC’s Export Credit Guarantee program provides guarantees to buyers in countries where credit is necessary to
maintain or increase U.S. sales of agricultural products. CCC underwrites credit extended by the private banking
sector under the Export Credit Guarantee Program (GSM-102) and Facilities Guarantee Program (FGP). Credit
guarantee liabilities represent the estimated net cash outflows of the guarantees on a present value basis. CCC
records a liability and an allowance expense to the extent that CCC will be unable to recover claim payments under
the Credit Reform Export Credit Guarantee programs. The allowance is based on management’s estimate.

Imputed Costs
Imputed costs represent costs incurred from other USDA agencies for the benefit of CCC. The majority of CCC’s
programs and related expenses are delivered through the personnel and facilities of FSA. The imputed costs consist


                                                            56
                               COMMODITY CREDIT CORPORATION
                                          Notes to the Financial Statements

Note 1 - Significant Accounting Policies, continued
of the costs of hired labor, opportunity costs of unpaid labor, capital recovery of machinery and equipment,
opportunity costs of land, general farm overhead, payroll taxes, and insurance.

Tax Status
CCC, as a Federal agency, is not subject to Federal, State, or local income taxes, and accordingly, no provision for
income tax is necessary.

Use of Estimates
The preparation of financial statements requires management to make estimates and assumptions that affect the
reported amounts of assets, liabilities and disclosure of contingent assets and liabilities at the date of the financial
statements, and the reported amounts of revenues and expenses during the reporting period. Actual results will
invariably differ from those estimates.

Allocation Transfers and Shared Appropriations
CCC is a party to allocation transfers with other Federal agencies as both a transferring (parent) entity and a
receiving (child) entity. Allocation transfers are legal delegations by one department of its authority to obligate
budget authority and outlay funds to another department. A separate fund account (allocation account) is created in
the U.S. Treasury as a subset of the parent fund account for tracking and reporting purposes. All allocation transfers
of balances are credited to this account, and subsequent obligations and outlays incurred by the child entity are
charged to this allocation account as they execute the delegated activity on behalf of the parent entity.

CCC allocates funds, as the parent, to United States Agency for International Development (USAID) to fund P.L.
480 Title II transportation and other administrative costs in connection with foreign donations. CCC receives
allocation transfers, as the child, from FSA. CCC reports USAID’s budgetary and proprietary transactions for which
it is the parent and excludes FSA’s budgetary and proprietary transactions, for which it is the child.

SFFAS No. 29 – Heritage Assets and Stewardship Land
Federal Accounting Standards Advisory Board (FASAB) Statement of Federal Financial Accounting Standard
(SFFAS) No. 29, Heritage Assets and Stewardship Land, was issued on July 7, 2005. The primary purpose of the
standard was to reclassify heritage asset and stewardship land information from the Required Supplementary
Stewardship Information (RSSI) to basic financial statement information with the exception of condition reporting,
which is considered Required Supplementary Information (RSI). SFFAS No. 29 requires this reclassification
through a phased-in approach beginning in reporting periods after September 30, 2005 with full implementation for
reporting periods beginning after September 30, 2008.

Easements purchased for the Wetlands Reserve Program (WRP) are considered stewardship land. The WRP
provides technical and financial assistance to eligible landowners to restore, enhance, and protect wetlands. This
voluntary program offers landowners an opportunity to establish, at minimal cost, long-term conservation and
wildlife habitat enhancement practices and protection.

Although the funding source for the purchase of easements has changed over the life of the program, the authority
for administering and managing the program has resided with NRCS since the 1994 USDA Reorganization Act.
NRCS holds the accountability for the management, monitoring, and enforcement for all easements purchased under
the WRP.

Based on agreements, NRCS remains responsible to disclose required information for all WRP easements as
stewardship land in FY 2011 and future years as long as NRCS maintains the administration, management
responsibilities, and accountability for the WRP easements.




                                                            57
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 2 – Fund Balance with Treasury
Fund balances with Treasury, by type of fund, as of September 30 are as follows:

                                                                                              (In Millions)

                                                                                     2011                     2010

Revolving Funds                                                                $            2,598       $             (389)
General Funds                                                                               1,793                    2,186
Other Fund Types                                                                                3                        -
Total Fund Balance with Treasury                                               $            4,394       $            1,797


The status of fund balances with Treasury as of September 30 is as follows:
                                                                                              (In Millions)

                                                                                     2011                     2010

Unobligated Balance
  Available                                                                    $          2,208         $         2,359
  Unavailable                                                                               319                   1,039
Obligated Balance not yet Disbursed                                                       9,924                   9,727
Subtotal                                                                       $         12,451         $        13,125

Less: Borrowing Authority not yet Converted to Fund Balance                              (8,060)                (11,328)
Non-Budgetary Fund Balance with Treasury                                                      3                     -

Total Fund Balance with Treasury                                               $            4,394       $            1,797


Unobligated Balance, Unavailable represents unobligated resources not yet apportioned by OMB and unobligated
appropriations from prior years that are no longer available for new obligations. Borrowing authority not yet
converted to fund balance represents unobligated and obligated amounts recorded at September 30, 2011 and 2010,
which will be funded by future borrowings.

CCC has a permanent indefinite borrowing authority, as defined by OMB Circular A-11, Preparation, Submission,
and Execution of the Budget. Borrowing authority permits the Corporation to incur obligations and authorizes it to
borrow funds to liquidate the obligations. See Note 17.




Note 3 – Cash and Other Monetary Assets
As of September 30, 2011 and 2010, CCC did not have balances classified as Cash and Other Monetary Assets.




                                                              58
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 4 – Accounts Receivable, Net
Accounts receivable as of September 30 are as follows:
                                                                                      (In Millions)

                                                                             2011                     2010
Intragovernmental:
  Due from the Department of Treasury                                 $                3        $                  8
  Due from the Department of Transportation                                           32                          80
  Due from Other Federal Agencies                                                     20                          28

Total Intragovernmental Accounts Receivable, Net                      $               55        $             116

Public:
  Notes Receivable                                                                     20                       18
  Interest Receivable                                                                  35                        6
  TTPP Receivable                                                                   3,218                    4,125
  Other                                                                                79                      108
Subtotal                                                              $             3,352       $            4,257

Less: Allowances for Doubtful Accounts                                                (11)                     (10)

Total Public Accounts Receivable, Net                                 $             3,341       $            4,247



CCC records a receivable due from the Department of Treasury. The receivable is related to the collection of credit
subsidy for the Debt Reduction Fund. Since this program is pre-credit reform, it does not have a program fund
account, and CCC records a separate receivable to capture the transaction with Treasury.

The Cargo Preference provisions of the Food Security Act of 1985 mandated a gradual increase in the share of
particular exports, mostly food aid that must be carried on U.S. flagged vessels. The Food Security Act and Section
901d (b) of the Merchant Marine Act, 1938 (the Act), provide for the reimbursement of certain transportation costs
the Corporation incurs. In accordance with these Acts, CCC establishes a receivable from the Department of
Transportation for freight costs paid to U.S. flagged vessels exceeding 20 percent of the total cost related to the
donated commodities and freight costs if CCC were to use a commercial vessel.

Other public receivables consist of amounts due as a result of program overpayments or dishonored checks.
Examples of CCC programs include Crop Disaster Assistance and Conservation Reserve Program.

As of September 30, 2011, the Accounts Receivable, Net: Public balance for the Tobacco Transition Payment
Program (TTPP) is $3,218 million and includes $352 million as a short-term receivable. TTPP comprises $13
million of the Notes Receivable balance; and, $8 million in Interest Receivable balance.

As of September 30, 2010, the Accounts Receivable, Net: Public balance for the Tobacco Transition Payment
Program (TTPP) was $4,125 million and included $345 million as a short-term receivable, and comprising $11
million of the Notes Receivable balance; and, $6 million in Interest Receivable balance. Refer to Note 1, under
Tobacco Transition Payment Program, for additional information.




                                                         59
                                COMMODITY CREDIT CORPORATION
                                            Notes to the Financial Statements

Note 5 – Commodity Loans, Net
Commodity loans receivable, by commodity, as of September 30 are as follows:

                                                                             (In Millions)

                                                                     2011                    2010
Cotton                                                          $            89        $            126
Dry Whole Peas                                                                2                       3
Feed Grains:
  Barley                                                                      1                       8
  Corn                                                                       45                     175
  Grain Sorghum                                                               -                       1
  Oats                                                                        -                       1
Honey                                                                         2                       2
Oilseeds                                                                      1                       2
Peanuts                                                                      20                      46
Rice                                                                        107                     143
Soybeans                                                                     12                      21
Sugar                                                                         -                       -
Wheat                                                                        56                     143

Total Commodity Loans                                           $           335        $            671

Accrued Interest Receivable                                                     1                     2

Penalties, Fines, and Administrative Fees                                       2                     -


Total Commodity Loans, Net                                      $           338        $            673



As of September 30, 2011, total commodity loans decreased by $335 million and is attributed to repayments of
outstanding loans. Thus a higher amount of repayments as well as earlier repayments contributed to this change.
Major commodities following this pattern consist of corn, wheat, upland cotton, rough rice, peanuts, and soybeans.




                                                           60
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net
Direct credit and loan obligations and credit guarantee commitments made after FY 1991 and the resulting direct
credits and loans or credit guarantees are governed by the Federal Credit Reform Act of 1990, as amended. The
Credit Reform Act requires agencies to estimate for the President’s Budget the cost of direct credits and loans and
credit guarantees at the present value of future cash flows. Additionally, the present value of the subsidy costs (i.e.,
interest rate differentials, interest subsidies, delinquencies and defaults, fee offsets and other cash flows) associated
with direct credits and loans and credit guarantees are recognized as a cost in the year the direct credit and loan or
credit guarantee is disbursed. The net present value of loans or defaulted guaranteed loans receivable at any point in
time is the amount of the gross loan or defaulted guaranteed loans receivable less the present value of the subsidy at
that time.

The net present value of Direct Loan and Loan Guarantees, Net is not necessarily representative of the proceeds that
might be expected if these loans were sold on the open market.

Credit Program Discussion and Descriptions
Guaranteed Loans, Credit Guarantee Programs – Export
CCC’s Export Credit Guarantee (GSM) programs encourage exports of U.S. agricultural products to buyers in
countries where credit is necessary to maintain or increase U.S. sales, but where financing may not be available
without such credit guarantees. The Corporation underwrites credit extended by the private banking sector in the
U.S. (or, less commonly, by the exporter) under the GSM-102 program for terms of 3 years or less. CCC does not
provide financing, but guarantees payments due from foreign banks and obligors. Typically, 98 percent of principal
and a portion of interest at an adjustable rate are covered. All guarantees under these programs are denominated in
U.S. dollars. In the event that CCC pays a claim under the guarantee programs, CCC assumes the debt and treats it
as a credit receivable for accounting and collection purposes.

Under Section 3101 of the Food, Conservation, and Energy Act of 2008 (2008 Farm Bill), authority for the GSM
103 and Supplier Credit programs was specifically repealed. Remaining liability under these programs is still
subject to annual reestimate.

Guaranteed loans outstanding at the end of FY 2011 were $6,115 million in outstanding principal, of which $5,992
million is outstanding guaranteed principal. Guaranteed loans outstanding at the end of FY 2010 were $6,645
million in outstanding principal, of which $6,513 million was outstanding guaranteed principal. (See table 5.)

During the fiscal year, the value of the guaranteed loans is adjusted by the value of the loan guarantee liability held
against those loans. Current year subsidy expense and reestimates contributed to the change of the loan guarantee
liability through the year. The loan guarantee liability represents CCC’s liability for guarantees in the GSM
program. Table 6 shows that total loan guarantee liability moved from $184 million to $114 million during FY
2011, a decrease of $70 million.

Total guaranteed loan subsidy expense in FY 2011 was $63 million compared to ($57) million in FY 2010. Table 8
illustrates the breakdown of total subsidy expense for FY 2011 and FY 2010. Guaranteed loan volume increased to
$3,497 million in FY 2011, compared to $2,891 million in FY 2010. (See table 9.)




                                                           61
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
Direct Loans
Total direct loan subsidy expense is a combination of subsidy expense for new direct loans disbursed in the current
year, modifications to existing loans, and interest rate and technical reestimates to existing loans. The total direct
loan subsidy expense for FY 2011 was ($2) million compared to ($60) million in FY 2010. For P.L. 480, subsidy
expense in FY 2011 was $13 million compared to $74 million in FY 2010. For FSFL, total direct loan subsidy
expense for FY 2011 was ($10) million compared to ($14) million in FY 2010. For Boll Weevil loans, subsidy
expense for FY 2011 was ($5) million, compared to $0 million in FY 2010. Table 3 illustrates the breakdown of
total subsidy expense for FY 2011 and FY 2010. There was no additional direct food aid loans disbursed in either
2010 or 2011. Disbursements for FSFL loans increased from $228 million in FY 2010 to $247 million in FY 2011
as shown in Table 4.

Direct Credit Programs – Food Aid
Under the P.L. 480 Title I Program, CCC finances the sales of U.S. agricultural commodities to countries in need of
food assistance on favorable credit terms (at low rates of interest for up to 30 years with grace periods of up to 7
years). P.L. 480 Title I provides for government-to-government (and some government-to-private entity) sales of
U.S. agricultural commodities to developing countries on credit terms or for local currencies. Priority is given to
countries with the greatest need for food that are undertaking economic development to improve food security and
agricultural development, alleviate poverty, and promote broad based, equitable and sustainable development. All
credits under this program are denominated in U.S. dollars. Although legislative authority for the P.L. 480 Title I
Program still exists, there have been no new loans extended under the program since FY 2006.

Direct Credit Programs – Export
Under the GSM program, several cohorts have had defaults that resulted in rescheduled loans which are now direct
loans owed to CCC. Other than the fact that these are now direct loans, the programmatic purpose does not differ
from the original guaranteed loans under GSM.

Direct Credit Programs – Domestic
The FSFL Program was implemented to provide low cost financing for producers to build or upgrade on-farm
commodity storage and handling facilities. The loans have a term of 7, 10 or 12 years with a requirement of annual
repayment installments. Interest on these loans is accrued monthly from the date of disbursement. The borrower’s
rate is established to be equivalent to the rate of interest charged on the Treasury securities of comparable maturity.

The Boll Weevil Program made available to the Texas Boll Weevil Eradication Foundation in FY 2001 an interest-
free $10 million loan to be repaid over 10 years.

The Apple Loan Program in FY 2001 provided loans to apple producers who suffered hardships due to low prices
following the 1998 - 1999 growing season when apple prices fell to their lowest levels in nearly 10 years. Eligible
applicants obtained loans up to $300 per acre of apple trees in production in 1999 or 2000, up to a maximum
indebtedness of $500,000.

Administrative Expenses
Consistent with the Federal Credit Reform Act of 1990 as amended, subsidy cash flows exclude direct Federal
administrative expenses. Administrative expenses on direct credit and loan programs were $3 million for each of
the fiscal years ended September 30, 2011 and 2010. Administrative expenses for the credit guarantee programs
were $7 million for each of the fiscal years ended September 30, 2011 and 2010.




                                                          62
                              COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements



Note 6 – Credit Program Receivables, Net, Continued
Subsidy Rates
Subsidy rates are used to compute each year’s subsidy expenses as disclosed above. The subsidy rates disclosed in
Tables 11 and 12 pertain only to the FY 2011 and FY 2010 cohorts. These rates cannot be applied to the direct and
guaranteed loans disbursed during the current reporting year to yield the subsidy expense. The subsidy expense for
new loans reported in the current year could result from disbursements of loans from both current year cohorts and
prior-year cohorts. The subsidy expense reported in the current year also includes reestimates.

Events and Changes Having a Significant and Measurable Effect upon Subsidy Rates, Subsidy Expense, and
Reestimates
During FY 2011, Foreign Agriculture Service’s Credit Program Division performed an analysis of the expected
recoveries on rescheduled debt for Kazakhstan and Ukraine. The analysis was based on a number of factors,
including CCC’s position with respect to seniority or subordination of the notes, assessment of the banks, and
market price ranges for each note. This resulted in a substantial decrease in the projected recovery percentage for
these particular rescheduled agreements.

For the Boll Weevil loan program, new promissory notes with a revised payment schedule through FY 2012 were
signed in May 2011. The associations that received these loans had repaid only nominal amounts through the first
ten years of the loans. We anticipate that they will begin repaying in accordance with the revised notes, as was
evidenced by the first repayment at the end of FY 2011.

Other than as stated above, CCC is unaware of any measurable events or pending legislation at this time that may
affect subsidy rates and reestimates in the future.

Loan Modifications and Reschedulings
A modification is any Government action different from the baseline assumptions that affects the subsidy cost such
as a change in the terms of the loan contract. The cost of a modification is the difference between the present value
of the cash flows before and after the modification.

The Debt Reduction Fund is used to account for CCC’s modified debt. Debt is considered to be modified if the
original debt has been reduced or the interest rate of the agreement changed. In contrast, when debt is
"rescheduled," only the date of payment is changed. Rescheduled debt is carried in the original fund until paid.
With one exception, all outstanding CCC modified debt is carried in the Debt Reduction Fund and is governed by
the Federal Credit Reform Act of 1990 as amended. There were no new debt reduction agreements in FY 2011.

Interest Credit
Interest is accrued monthly on both performing and non-performing direct credits and credit guarantee receivables as
it is earned using simple interest calculations based upon a 365-day year. A non-performing direct credit or credit
guarantee receivable is defined as a repayment scheduled under a credit agreement, with an installment payment in
arrears more than 90 days. For those non-performing receivables, interest is not recognized as income; rather, it is
deferred until the interest is received or the receivable is returned to performing status.

Based on the Federal Credit Reform Act of 1990 and SFFAS No. 2, Accounting for Direct Loans and Loan
Guarantees, all credit reform loans initiated after September 30, 1991 need to be presented on a present value basis.
For loans initiated before FY 1992 (Pre-1992), restatement of loan value on a present value basis is permitted but
not required. Since CCC elected to restate the Pre-1992 loan receivables from nominal value to net present value
starting in 2001, the accounting treatment, including revenue recognition and allowance calculation, has been
applied consistently to Pre-1992 and Post-1991 Direct Loan and Loan Guarantee programs. For Pre-1992 and Post­
1991 loan interest receivable, the portion related to non-performing loans is deferred and presented net of the loan
receivable line item in the balance sheet.



                                                          63
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements



Note 6 – Credit Program Receivables, Net, Continued
P.L. 480 Title I Direct Credit Reestimate Trend Analysis
The P.L. 480 program had a net reestimate for FY 2011 of $13 million, of which $5 million was the technical
reestimate and $8 million was interest on the reestimate. The upward reestimate totals $29.2 million, of which $12.4
million was technical and $16.8 million was interest on the reestimate. The downward reestimate totals $16.6
million, of which $7.4 million is technical and $9.2 million is interest on the reestimate. The reestimate for PL 480
program is not significant in light of the amount disbursed in these cohorts.

Farm Storage Facility Loans Reestimate Trend Analysis
The FSFL program had a total reestimate of $8 million. The upward reestimate was $7.3 million, of which $4.1
million was the technical reestimate and $3.2 million was interest on the reestimate. The downward reestimate was
$15.2 million, of which $11.1 million was the technical reestimate and $4.1 million was the interest on the
reestimate. Almost half of the downward technical reestimate was in the 2010 cohort, due mainly to the fact that
borrower repayments during FY 2011 were higher than had been estimated at the end of FY 2010. Reestimates for
other cohorts were not significant.

Export Credit Guarantees (GSM) Reestimate Trend Analysis
The GSM-102 program had a total reestimate of $63 million for FY 2011. The upward reestimate total is $64
million, of which $48 million is the technical portion and $14 million is interest on the reestimate. The upward
reestimate is largely attributable to four cohorts, 1996, 1997, 2008 and 2009. The reestimate for the 2008 and 2009
cohorts reflects a downward revision to the projected recoveries on the Kazakhstan and Ukraine defaulted debt that
was rescheduled in FY 2010. Recoveries for these rescheduled agreements were assigned a rate between 0% and
85% of the scheduled amount, with an un-weighted average recovery rate of 42%. This is more conservative than
would normally be estimated based on the extrapolation of historical programmatic experience (99%). Also
contributing to the upward reestimate were the 1996 and 1997 cohorts. Both of these cohorts had large downward
reestimates at the end of FY 2010 based on NPV of future cashflows (which is not the norm for loan guarantee
programs). We had to borrow to pay those downward reestimates as well as to pay substantial financing account
interest. Because we had to borrow, this resulted in a larger negative net debt and cash position with Treasury
compared to the NPV of future cashflows. Borrower repayments during FY 2011 were almost exactly expected.
The downward reestimate was not significant. The GSM 103 and Supplier Credit reestimates were not significant.
GSM 103 will be entirely closed out effective with the FY 2012 apportionment of the current reestimate.

P.L. 480, Title I direct credits outstanding that were obligated prior to FY 1992 and P.L. 480 direct credits and direct
loans for FSFL, Boll Weevil, and Apple loans that were obligated after FY 1991 and related interest receivable
outstanding are as follows. Defaults on credit guarantees made prior to FY 1992 and related interest receivable are
also listed below. This information is current as of September 30, 2011 and 2010.




                                                          64
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements



Note 6 – Credit Program Receivables, Net, Continued
 Table 1. Direct Loan and Loan Guarantees, Net

                       2011                                                   In Millions
 Direct Loans
                                                  Loans Receivable,     Interest    Present Value     Value Of Assets
 Obligated Pre-1992                                    Gross          Receivable      Allowance       Related to Loans
    PL 480 Title 1                                $          3,820    $        10   $      (2,026)    $          1,804
 Pre-1992 Total                                   $          3,820    $        10   $      (2,026)    $          1,804

 Obligated Post-1991
   PL 480 Title 1                                 $           1,140   $        1    $         (252)   $           889
   Debt Reduction Fund                                          247            -              (226)                21
   Farm Storage Facility                                        671           49               (30)               690
   Boll Weevil Program                                            9            -                (6)                 3
 Total Direct Loan Program Receivables            $           5,887   $       60    $       (2,540)   $         3,407


 Defaulted Guarantee Loans
  Pre-1992
    Export Credit Guarantee Programs              $            124    $        1    $          (75)   $            50
  Pre-1992 Total                                  $            124    $        1    $          (75)   $            50

  Post-1991
   Export Credit Guarantee Programs               $            870    $        7    $        (286)    $           591
  Post-1991 Total                                 $            870    $        7    $        (286)    $           591
 Total Defaulted Guarantee Loans                  $            994    $        8    $        (361)    $           641


 Total Direct Loan and Loan Guarantees, Net       $           6,881   $       68    $       (2,901)   $         4,048




                                                         65
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements


Note 6 – Credit Program Receivables, Net, Continued
Table 1. Direct Loan and Loan Guarantees, Net

               2010                                                                (In Millions)
Direct Loans
                                                 Loans Receivable,     Interest    Present Value    Value Of Assets
Obligated Pre-1992                                    Gross          Receivable      Allowance      Related to Loans
  P.L. 480 Title I                               $          4,149    $        43   $      (1,517)   $          2,675
Pre-1992 Total                                   $          4,149    $        43   $      (1,517)   $          2,675

Obligated Post-1991
  P.L. 480 Title I                               $           1,215   $       17    $       (285)    $           947
  Debt Reduction Fund                                          258            1            (226)                 33
  Farm Storage Facility                                        548           41             (26)                563
  Boll Weevil Program                                           10            -             (10)                  -
Post-1991 Total                                              2,031           59            (547)              1,543
Total Direct Loan Program Receivables            $           6,180   $      102    $      (2,064)   $         4,218

Defaulted Guarantee Loans
Pre-1992
  Export Credit Guarantee Programs               $            134    $        1    $         (70)   $            65
Pre-1992 Total                                   $            134    $        1    $         (70)   $            65

Post-1991
  Export Credit Guarantee Programs               $            731    $       10    $       (226)    $           515
Post-1991 Total                                               731            10            (226)                515
Total Defaulted Guarantee Loans                  $            865    $       11    $       (296)    $           580


Total Direct Loan and Loan Guarantees, Net       $           7,045   $      113    $      (2,360)   $         4,798




                                                        66
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements



Note 6 – Credit Program Receivables, Net, Continued
Table 2. Schedule for Reconciling Subsidy Cost Allowance Balances (Post-1991)
Direct Loans
                                                                              In Millions
                                                                 FY 2011                    FY 2010
 Beginning Balance of the Subsidy Cost Allowance                 $ 773                      $ 763
 Add: Subsidy expense for direct loans disbursed 

  during the year by component

  Interest Rate Differential Costs
                                    (3)	                      (2)
  Default Costs (net of recoveries)
                                    -                         8
 Total Subsidy Expense prior to Adjustements and Reestimates           (3)                  $     6

 Adjustments

  Loan Modifications
                                            $     -                    $   34
  Fees Received
                                                       4                         2
  Loans written off
                                                 (78)                     (214)
  Subsidy allowance amortization
                                    (33)	                      (6)
  Other
                                                             136                       168
 Total Subisidy Cost allowance before reestimates                $   799                    $ 753

 Add or Subtract Subsidy Reestimates by Component

  Interest rate reestimate
                                      $     5                    $    23
  Technical/Default Reestimate
                                       (4)	                       (3)
 Total Reestimates
                                                    1                         20
 Ending Balance of the Subsidy Cost Allowance
                   $   800                    $   773




Subsidy Allowance – Data in Table 2 includes subsidy for both direct loans and loans receivable derived from those
defaulted guaranteed loans which CCC rescheduled as direct loans.




                                                          67
                                        COMMODITY CREDIT CORPORATION
                                                         Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued

Table 3. Subsidy Expense for Direct Loans by Program and Component


                                    FY 2011                                                                   In Millions


                                          Interest                              Subtotal                Total             Interest Rate         Technical           Total          Total Subsidy
Direct Loan Programs                    Differential         Defaults           Subsidy              Modifications        Reestimates          Reestimates       Reestimates         Expense
 P.L 480 Title 1                    $               -    $              -   $               -    $                   -   $            8    $              5    $           13    $             13
 Farm Storage Facility                             (3)                  -                  (3)                       -                 -                 (7)               (7)                (10)
 Boll Weevil                                        -                   -                   -                        -               (3)                 (2)               (5)                 (5)
Total Direct Loan Subsidy Expense   $              (3)   $              -   $              (3)   $                   -   $            5    $             (4)   $             1   $             (2)

                                    FY 2010                                                                   In Millions

                                          Interest                              Subtotal              Total               Interest Rate       Technical             Total          Total Subsidy
Direct Loan Programs                    Differential         Defaults           Subsidy            Modifications          Reestimates        Reestimates         Reestimates         Expense
 P.L 480 Title 1                    $               -    $          -       $              -     $             34        $           23    $           17      $           40    $             74
 Farm Storage Facility                             (2)              8                      6                     -                     -              (20)                (20)                (14)
Total Direct Loan Subsidy Expense   $              (2)   $          8       $              6     $             34        $           23    $            (3)    $           20    $             60




*Subsidy reestimates are calculated on cumulative disbursements for all budget fiscal years and the respective
cohorts (direct loan/guarantee origination year) that comprise them.




                                                                                     68
                                    COMMODITY CREDIT CORPORATION
                                                Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
For the fiscal years ended September 30, 2011 and 2010, current and prior year disbursements of post-1991 direct
credits and loans are as follows:

Table 4. Total Amount of Direct Loans Disbursed (Post -1991)

                                                                                     (In Millions)
                                                                       2011                          2010
Direct Loan Programs
  Farm Storage Facility                                      $                  247         $                 228

Total
                                                       $                  247         $                 228




As of September 30, 2011 and 2010, post-1991 credit guarantees outstanding are as follows:

 Table 5. Guaranteed Loans Outstanding

                             FY 2011                                   In Millions

                                           Post - 1991                                       Post - 1991
                                          Outstanding            Total Outstanding           Outstanding             Total Outstanding
                                         Principal, Face           Principal, Face            Principal,                Principal,
 Loan Guarantee Programs                     Value                     Value                 Guaranteed                Guaranteed
  Export Credit Guarantee Program      $             6,115       $            6,115        $          5,992          $           5,992
 Tota Guarantees Disbursed             $             6,115       $            6,115        $          5,992          $           5,992

                             FY 2010                                   In Millions

                                           Post - 1991                                       Post - 1991
                                          Outstanding            Total Outstanding           Outstanding             Total Outstanding
                                         Principal, Face           Principal, Face            Principal,                Principal,
 Loan Guarantee Programs                     Value                     Value                 Guaranteed                Guaranteed
  Export Credit Guarantee Program      $             6,645       $            6,645        $          6,513          $           6,513
 Tota Guarantees Disbursed             $             6,645       $            6,645        $          6,513          $           6,513




* Outstanding principal and interest guaranteed represents a contingent liability for amounts owed by foreign banks
to exporters or assignee U.S. financial institutions participating in the program.




                                                                     69
                             COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
As of September 30, 2011 and 2010, Post - 1991 Liability for Loan Guarantees (Present Value Method) are as
follows:

Table 6. Liability for Loan Guarantees (Present Value Method for Post-1991 Guarantees)


              FY 2011                           In Millions

                                            Liabilities for Loan
                                          Guarantees on Post-1991          Total Liabilities for
 Loan Guarantee Programs                  Guarantees Present Value          Loan Guarantees
  Export Credit Guarantee Program         $                    114         $               114
 Total Liability for Loan Guarantees      $                    114         $               114

              FY 2010                           In Millions


                                            Liabilities for Loan
                                          Guarantees on Post-1991          Total Liabilities for
 Loan Guarantee Programs                  Guarantees Present Value          Loan Guarantees
  Export Credit Guarantee Program         $                    184         $               184
 Total Liability for Loan Guarantees      $                    184         $               184




                                                       70
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
The change in the liability for Post - 1991 credit guarantees as of September 30, 2011 and 2010 is as follows:

Table 7. Schedule for Reconciling Loan Guarantee Liability

                                                                                 (In Millions)
                                                                             2011             2010
Beginning balance of the loan guarantee liability                          $    184        $     221
Add: Subsidy expense for guaranteed loans disbursed during
the year by component
 Default costs (net of recoveries)                                                  -               10
 Fees and other collections                                                         1               (4)
Total of the above subsidy expense components                              $        1       $        6

Adjustments
 Fees received                                                                     31       $       19
 Claim payments to lenders                                                       (175)            (161)
 Other                                                                             11              162
Ending balance of the subsidy cost allowance before reestimates            $       52       $      247

Add or Subtract subsidy reestimates by component:
 Interest rate reestimate                                                  $       14       $      (41)
 Technical/default reestimate                                                      48              (22)
Total of the above reestimate components                                   $       62       $      (63)
Ending balance of the loan guarantee liability                             $      114       $      184




                                                         71
                                        COMMODITY CREDIT CORPORATION
                                                       Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
Subsidy expenses, net of fees and other collections, for current year disbursements related to credit guarantees made
after FY 1991, and subsidy reestimates for the fiscal years ended September 30, 2011 and 2010 are as follows:


Table 8. Subsidy Expense for Loan Guarantees by Program and Component


 FY 2011                                                                 In Millions

                                                       Fees and Other                           Interest Rate         Technical             Total        Total Subsidy
Loan Guarantee Programs                 Defaults        Collections          Subtotal           Reestimates          Reestimates         Reestimates       Expense
 Export Credit Guarantee Programs   $              -   $            1    $              1   $              14    $             48    $             62    $         63
Total Loan Guarantee Programs       $              -   $            1    $              1   $              14    $             48    $             62    $         63


 FY 2010                                                                 In Millions


                                                       Fees and Other                           Interest Rate         Technical             Total        Total Subsidy
Loan Guarantee Programs                 Defaults        Collections          Subtotal           Reestimates          Reestimates         Reestimates       Expense
 Export Credit Guarantee Programs   $          10      $           (4)   $              6   $             (41)   $            (22)   $            (63)   $         (57)
Total Loan Guarantee Programs       $          10      $           (4)   $              6   $             (41)   $            (22)   $            (63)   $         (57)

*Subsidy reestimates are calculated on cumulative disbursements for all cohorts.




                                                                              72
                                     COMMODITY CREDIT CORPORATION
                                              Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
For the fiscal years ended September 30, 2011 and 2010, current and prior year credit guarantee disbursements are
as follows:

 Table 9. Guaranteed Loans Disbursed

                                                                                   In Millions

                                                            FY 2011                                            FY 2010
                                              Principal,         Principal, Guaranteed           Principal,         Principal, Guaranteed
 Loan Guarantee Programs                Face Value Disbursed          Disbursed            Face Value Disbursed          Disbursed
  Export Credit Guarantee Programs      $                3,497   $              3,427      $                2,891   $              2,835
 Total Guaranteed Loans Disbursed       $                3,497   $              3,427      $                2,891   $              2,835




 Table 10. Administrative Expenses
                                                                  (In Millions)
                                                              2011             2010
 Direct Loan Programs                                       $       3       $       3
 Guaranteed Loan Programs                                           7               7
 Total Administative Expenses                               $     10        $      10




                                                                  73
                                     COMMODITY CREDIT CORPORATION
                                                   Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
FY 2011 and 2010 subsidy rates (percentage) for direct credits and loans are as follows:


Table 11. Subsidy Rates for Direct Loans (percentage)

                          FY 2011

                                         Interest                           Fees and Other
 Direct Loan Programs                  Differential        Defaults          Collections          Other            Total
  Farm Storage Facility                         (1.66)             0.03               (0.27)              (0.11)           (2.01)
  Sugar Storage Storage Facility                (0.22)             0.83                 -                   -               0.61

                          FY 2010

                                         Interest                           Fees and Other
 Direct Loan Programs                  Differential        Defaults          Collections          Other            Total
  Farm Storage Facility                         (0.88)             0.02               (0.14)              (0.01)           (1.01)

For the fiscal years ended 2011 and 2010, there were no new loans for P.L. 480, and thus, no subsidy rate was
provided. The Apple Loan Program is a one year program, cohort 2001.


FY 2011 and 2010 subsidy rates (percentage) for credit guarantee programs are as follows:

Table 12. Subsidy Rates for Loan Guarantees (percentage)

                               FY 2011

                                                               Fees and Other
 Guaranteed Loan Programs                       Defaults        Collections               Other       Total
  Export Guarantee Programs                       (0.27)                    (0.59)           -         (0.86)


                               FY 2010

                                                               Fees and Other
 Guaranteed Loan Programs                       Defaults        Collections               Other       Total
  Export Guarantee Programs                       (0.58)                    (0.63)           -         (1.21)



Subsidy rates are used to compute each year’s subsidy expenses as disclosed above. The subsidy rates disclosed
pertain only to the current year’s cohort. These rates cannot be applied to the direct credits and loans and credit
guarantees disbursed during the current reporting year to yield the subsidy expense. The subsidy expense for new
direct credits and loans and credit guarantees reported in the current year could result from disbursements from both
current year and prior year(s) cohorts. The subsidy expense reported in the current year also includes modifications
and reestimates.




                                                                     74
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 7 – Commodity Inventories and Related Property, Net
Inventory and related property activity as of September 30 are as follows:
                                                                                      (In Millions)

                                                                             2011                     2010
Commodity Inventories - Beginning of Fiscal Year                      $               22        $               202
Acquisitions                                                                         742                        946
Cost of Sales                                                                        -                          (47)
Donations                                                                           (742)                    (1,058)
Other Dispositions, Additions and Deductions                                          28                        (21)

Commodity Inventories - End of Fiscal Year                            $              50         $               22

Less: Allowance for losses                                                            (2)                        (2)

Barter Delivery Obligations (BDO)                                                      3                        26
Commodity Inventories and Related Property, Net                       $              51         $               46


Commodity loan forfeitures included in the Acquisitions line item were $23,801 and $2.7 million for the fiscal years
ended September 30, 2011 and 2010, respectively.

BDOs were received by CCC in exchange for CCC-owned commodities. The BDOs may only be exchanged for
food products to be utilized in domestic and export food programs. Refer to Note 1 for additional information.

Prepositioned inventory is commodities purchased by USDA, with CCC funds, to meet humanitarian food needs in
foreign countries. USAID administers this program. The inventory is procured and made readily available as needed
for foreign countries in need. This is done in advance because the process from procurement to delivery can be
lengthy and by having the inventory available these food needs can be met more timely. CCC is currently recording
prepositioned inventory on CCCs financial statements. Prior to March 2011, CCC was only recording domestic
prepositioned inventory (located in the US, prior to being shipped overseas). With the conversion to the Web Based
Supply Chain Management System (WBSCM), CCC is now recording both domestic and foreign.

Restrictions on Commodity Inventory
In accordance with the Bill Emerson Humanitarian Trust (BEHT) Act of 1998, CCC maintains a reserve of
commodities and funds for use when domestic supplies are so limited that quantities cannot meet the availability
criteria under P.L. 480. BEHT stocks can be exchanged for other U.S. agricultural commodities of equal value or
for an equivalent amount of funds from the market to meet emergency food needs. The 2008 Farm Bill extended the
authorization to replenish the trust through fiscal year 2012.




                                                         75
                             COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements

Note 8 – General Property and Equipment, Net

General property and equipment as of September 30 is as follows:

                                                                           (In Millions)

2011:                                                                      Accumulated

                                               Acquisition Value           Depreciation
            Net Book Value

Equipment                                      $              37       $               (37)      $                -
Capitalized Software Costs                                   128                       (80)                      48

Total General Property and Equipment           $             165       $             (117)       $               48


                                                                           (In Millions)


2010:                                                                      Accumulated

                                               Acquisition Value           Depreciation
            Net Book Value

Equipment                                      $              37       $               (37)
     $                ­
Capitalized Software Costs                                   134                       (77)                      57

Total General Property and Equipment           $             171       $             (114)       $               57




Note 9 – Liabilities Not Covered by Budgetary Resources
                                                                                      (In Millions)

                                                                             2011                      2010

Accrued Liabilities (Note 14)
  Tobacco Transition Payment Program                                  $             2,857       $             3,797
Environmental and Disposal Liabilities (Note 13)                                        8                         8
Pigford II Contingency Liabilities-Court Ordered Payment                               75                       100
Total Liabilities Not Covered by Budgetary Resources                  $             2,940       $             3,905

Total Liabilities Covered by Budgetary Resources                      $          13,177         $          14,580

Total Liabilities                                                     $          16,117         $          18,485


Liabilities not covered by budgetary resources are liabilities for which Congressional action or OMB apportionment
is needed before budgetary resources can be provided.




                                                        76
                               COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 10 – Debt to the Treasury
Debt to the Treasury, categorized as interest bearing and non-interest bearing notes, as of September 30 is as
follows:

                                                                                       (In Millions)

                                                                              2011                      2010
Debt - Beginning of Fiscal Year
 Principal: Interest Bearing                                            $            3,274        $              4,874
 Accrued Interest Payable                                                              -                             3
Total Debt Outstanding - Beginning of Fiscal Year                       $            3,274        $              4,877

New Debt
 Principal: Interest Bearing                                            $          25,604         $          32,793
 Accrued Interest Payable                                                               6                         6
Total New Debt                                                          $          25,610         $          32,799

Repayments
 Principal: Interest Bearing                                            $         (26,014)        $         (34,394)
 Accrued Interest Payable                                                              (6)                       (8)
Total Repayments                                                        $         (26,020)        $         (34,402)

Debt - End of Fiscal Year
 Principal: Interest Bearing                                            $            2,865        $              3,274
Total Debt Outstanding - End of Fiscal Year                             $            2,865        $              3,274


CCC may borrow interest-free up to the amount of its unreimbursed realized losses. Monthly interest rates ranged
from 0.125 percent to 0.250 percent during FY 2011 and from 0.250 percent to 4.375 percent during FY 2010.

There was no debt principal and interest refinanced for the period ended September 30, 2011. There was no
outstanding principal rolled over for the periods ended September 30, 2011 and 2010. There was no accrued interest
rolled into notes payable for the fiscal years ended September 30, 2011 and 2010. Interest expense incurred on
Treasury borrowings was $137 million and $126 million for the fiscal years ended September 30, 2011 and 2010,
respectively.

The FY 2011 and 2010 interest rates on long-term borrowings under the permanent indefinite borrowing authority
for the Credit Reform programs are calculated using the OMB Credit Subsidy Calculator 2. For FY 2001 and future
cohorts, the single effective interest rate produced from the calculator, along with budget assumptions, is used to
calculate interest expense.




                                                          77
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 10 – Debt to the Treasury, Continued
The repayment terms for borrowings made for the Export Credit Guarantee programs range from under
3 years up to 10 years. Currently, maximum loan terms do not exceed 7 years, while the repayment term for P.L.
480 direct credits program borrowing is 30 years. The repayment term is 7 years for direct loans under the Farm
Storage Facility Loans program, 3 years for direct loans under the Apple Loan Program, and 10 years for the direct
loans made under the Boll Weevil program. For all Credit Reform programs, principal repayments are required only
at maturity but are permitted at any time during the term of the loan.

CCC has a separate permanent indefinite borrowing authority for the Credit Reform programs to finance
disbursements on post-1991 Credit Reform direct credit and loan obligations and credit guarantees. On October 1,
CCC borrows from Treasury for the entire fiscal year based on annual estimates of the difference between the
amount appropriated (subsidy) and the amount to be disbursed to the borrower. CCC may repay the loan agreement,
in whole or in part, prior to maturity by paying the principal amount of the borrowings plus accrued interest up to
the date of repayment. Interest is paid on these borrowings based on weighted average interest rates for the cohort to
which the borrowings are associated. Interest expense incurred on borrowings associated with the Credit Reform
programs was $133 million and $123 million for the fiscal years ended September 30, 2011 and 2010, respectively.

CCC has an authorized capital stock of $100 million held by the Treasury and has permanent indefinite
appropriation authority to finance disbursements made under the liquidating accounts related to the pre-Credit
Reform program activities, which are not covered by available working capital. Interest on borrowings from the
Treasury (and on capital stock) is paid at a rate based upon the average interest rate of all outstanding marketable
obligations (of comparable maturity date) of the U.S. government as of the preceding month. CCC incurred $2
million and $3 million in interest expense on capital stock for fiscal years ended September 30, 2011 and 2010.




                                                          78
                             COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements

Note 10 – Debt to the Treasury, Continued
Total debt outstanding, by program and maturity date, as of September 30, 2011, is as follows:

                 Program                        Debt (In Millions)           Maturity Date
  Export Credit Guarantees                  $                        -       September 30, 2012
                                                                     1       September 30, 2013
                                                                    59       September 30, 2015
                                                                    45       September 30, 2018
                                                                     2       September 30, 2019
                                                                   109       September 30, 2020
                                                                   200       September 30, 2021
                                                                   129       September 30, 2022
                                                                    31       September 30, 2023
                                                                   120       September 30, 2024
                                                                     9       September 30, 2025
  P.L. 480 Direct Credits                                          162       September 30, 2018
                                                                   111       September 30, 2019
                                                                    87       September 30, 2020
                                                                    65       September 30, 2021
                                                                    85       September 30, 2022
                                                                    68       September 30, 2023
                                                                    90       September 30, 2024
                                                                    91       September 30, 2025
                                                                    56       September 30, 2026
                                                                    59       September 30, 2027
                                                                    58       September 30, 2031
                                                                    36       September 30, 2032
                                                                    30       September 30, 2033
                                                                    26       September 30, 2034
                                                                    19       September 30, 2035
  Debt Reduction                                                    10       September 30, 2012
                                                                     4       September 30, 2013
                                                                     6       September 30, 2018
                                                                     1       September 30, 2020
                                                                     9       September 30, 2021
                                                                    40       September 30, 2022
                                                                    12       September 30, 2023
                                                                    21       September 30, 2024
                                                                    14       September 30, 2026
                                                                     3       September 30, 2028
  Farm Storarge Facility Loans                                       4       September 30, 2012
                                                                    12       September 30, 2013
                                                                    30       September 30, 2014
                                                                    62       September 30, 2015
                                                                    87       September 30, 2016
                                                                   146       September 30, 2017
                                                                   350       September 30, 2018
                                                                   306       September 30, 2019
  Total Debt Outstanding                    $                    2,865




                                                        79
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 11 – Deposit and Trust Liabilities
Deposit and trust liabilities are amounts advanced to or deposited with CCC, on behalf of other entities. Refer to
Note 18 – Disclosures Not Related to a Specific Statement for additional information. The balances, categorized as
intragovernmental and public, as of September 30 are as follows:

                                                                                       (In Millions)

                                                                              2011                     2010
Intragovernmental (Note 18):
Agricultural Marketing Service                                         $              290        $             486
Food and Nutrition Service                                                            403                      485
Foreign Agricultural Service                                                          360                      193
Natural Resources Conservation Service                                                216                      192

Total Intragovernmental Deposit and Trust Liabilities                  $             1,269       $            1,356

Public                                                                 $                7        $               7

Total Public Deposit and Trust Liabilities                             $                7        $               7

Within USDA, Agricultural Marketing Service (AMS) and Food and Nutrition Service (FNS) coordinate with
FSA/CCC to purchase certain commodities for domestic feeding programs. AMS funds the purchase of
commodities for the purpose of facilitating additional sales in world markets at competitive prices. FNS funds the
purchase of commodities for the National School Lunch and many other domestic feeding programs administrated
by voluntary organizations which help to fight hunger worldwide. The commodities purchased are meats, poultry,
fish, fruit, vegetables, egg products, dry beans, and tree nuts. FNS coordinates the purchase through competitive
bids or negotiated contracts to assure the quantity, quality, and variety of commodities purchased meet the needs of
schools and institutions participating in the domestic nutrition programs. These purchases also assist farmers,
commodity producers, and processors by helping to maintain stable commodity prices.

The public liability was $7 million as of September 30, 2011 and 2010, respectively. The public liability consists of
unapplied collections for warehouse user fees, claims for disaster programs, and other miscellaneous collections that
are temporarily held in suspense until appropriately identified and applied.




                                                         80
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 12 – Other Liabilities
Other liabilities as of September 30 are as follows:

                                                                                      (In Millions)

                                                                             2011                     2010
Intragovernmental:
  Resources Payable to Treasury:
   P.L.480 Direct Credit Liquidating Fund                             $             1,948       $            2,402
   Export Credit Guarantee Direct Loans Liquidating Fund                               40                       45

  Resources Payable to Treasury                                       $             1,988       $            2,447

  Accrued Reimbursements to CCC from Tobacco Trust Fund                                1                      -
  Excess Subsidy Payable to Treasury                                                  10                      179
  Accrued Conservation Reserve Program Technical Assistance                           49                        6
  Other                                                                               26                       18

Total Intragovernmental Other Liabilities                             $               86        $             203

Public                                                                $              236        $             393

Total Public Other Liabilities                                        $              236        $             393


Resources Payable to Treasury represents CCC’s liquidating fund assets (cash and loans receivable, net of an
allowance) less any liabilities that may be held as working capital. Loans made in 1991 and before (pre-credit
reform direct loans and assigned loan guarantees) are accounted for in liquidating funds. These funds collect loan
payments and pay any related expenses or default claims. At the end of each year, any unobligated cash balance is
transferred to Treasury.

As of September 30, 2011, the Public Liability included $146 million related to Brazilian Cotton Industry and $75
million related to Pigford II claim litigation.




                                                        81
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 13 – Environmental and Disposal Liabilities
The Corporation formerly operated approximately 4,500 grain storage facilities in the U.S. To date, at
approximately 120 of these facilities, Carbon Tetrachloride (a fumigant commonly used at grain storage facilities)
was discovered in groundwater. CCC recorded an estimate of the total liability for investigation and remediation of
affected sites of $8 million for both fiscal years ended September 30, 2011 and 2010 based on actual cleanup costs at
similar sites. This liability is not covered by budgetary resources.

Hazardous Waste Program
Since the first discovery of contaminated groundwater, CCC has been engaged in an active program to identify
affected sites, perform site investigations and risk assessments, and conduct cleanup actions when necessary or
otherwise directed by a regulatory authority. As of September 30, 2011 and 2010, payments for these activities
totaled $4.8 million and $4 million, respectively. At September 30, 2011, CCC estimated the range of potential
future losses to be between $8 million and $55 million.



Note 14 – Accrued Liabilities
Accrued liabilities as of September 30 are as follows:

                                                                                      (In Millions)

                                                                             2011                      2010

Conservation Reserve Program                                           $            1,717       $             1,659
Export Programs                                                                        15                        74
Income Support Programs:
  Direct and Counter-Cyclical Payments
                                             4,349                     4,684
  Milk Income Loss Contract
                                                                                      1
  Other
                                                                               44                         9
Tobacco Transition Payment Program                                                  2,857                     3,797
Other                                                                                 127                         3

Total Accrued Liabilities                                              $            9,109       $          10,227


The liabilities for Conservation Reserve Programs were considered current as of September 30, 2011 and 2010. The
liability of $2,857 million and $3,797 million, respectively, under the Tobacco Transition Payment Program (TTPP)
included a current liability of $955 as of September 30, 2011 and 2010. The remaining balance was a long term
liability as of September 30, 2011 and 2010. Refer to Note 1, under Liabilities, for additional information.




                                                         82
                              COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 15 – Commitments and Contingencies
A loss contingency is an existing condition, situation, or set of circumstances involving uncertainty as to possible
loss to an entity. The uncertainty will ultimately be resolved when one or more future events occur or fail to occur.
A loss contingency is a liability when a past event or exchange transaction has occurred, a future outflow or other
sacrifice of resources is probable, and the future outflow or sacrifice of resources is measurable.

In addition to loss contingencies, CCC also discloses (1) an estimate of obligations related to canceled
appropriations for which the reporting entity has a contractual commitment for payment and (2) amounts for
contractual arrangements that may require future financial obligations.

Commitments
Market Access Program (MAP)
The MAP was authorized by the Agriculture Trade Act of 1978, as amended, to encourage the development,
maintenance, and expansion of commercial export markets for agricultural commodities through cost-share
assistance to eligible trade organizations that implement a foreign market development program. CCC makes funds
available to reimburse program participants for authorized promotional expenses. Program expenses for the fiscal
years ended September 30, 2011 and 2010 were $210 million and $197 million, respectively. At September 30,
2011 and 2010, CCC’s undelivered orders on current contracts were $209 million and $219 million, respectively.

Noninsured Crop Disaster Assistance Program (NAP)
The NAP was authorized as a CCC program under the 1996 Act. The NAP provides financial assistance to
producers of non-insurable crops when a low yield crop, loss of inventory, or prevented planting occurs due to
natural disasters. The crops must be non-insurable commodities for which the catastrophic risk protection level of
crop insurance is not available. Program expenses for the fiscal years ended September 30, 2011 and 2010 were $71
million and $96 million, respectively. At September 30, 2011 and 2010, CCC had no undelivered orders on current
contracts.

Commodity Acquisition
Commitments to acquire commodities represent the contract value of commodities not yet delivered under CCC
purchase contracts. Such commitments amounted to $262 million and $71 million for International Title II and
$156 million and $257 million for Food for Progress at September 30, 2011 and 2010, respectively.

Commitments for the Food for Education amounted to $318 million and $173 million as of September 30, 2011 and
2010, respectively. The Price Support processing program had commitments of $0 million and $3 million as of
September 30, 2011 and 2010, respectively. As of September 30, 2011, there were no commitments for the Food
Security Reserve program.




                                                          83
                               COMMODITY CREDIT CORPORATION
                                           Notes to the Financial Statements

Note 15 – Commitments and Contingencies, Continued
Conservation Reserve Program (CRP)
Through CRP, eligible participant’s sign 10 to 15 year contracts to remove land from production in exchange for an
annual rental payment. The participants also receive cost-share assistance for establishing conservation practices on
the reserve acreage and additional incentive payments for adopting high-priority conservation measures. CCC
estimates that the future liability for CRP rental payments through FY 2017 will average $1.8 billion annually. This
estimate is based on current program levels with the assumption that expiring lands are re-enrolled and new lands
are enrolled such that enrollment ranges between 30 and 32 million acres between FY 2011 and FY 2017. At
September 30, 2010 and 2011, accrued liabilities for CRP totaled approximately $1.7 billion each year.

Leases
As of September 30, 2011, future minimum rental payments required under FSA operating leases for State office
space, for which CCC is directly liable, consisted of the following:

                                (In Millions)
       Year                    Rent Expense
       2012                $                     3
       2013                                      3
       2014                                      3
       2015                                      1
       2016                                      1
       Total               $                    11

Contingencies
Legal Disputes and Claims
In the normal course of business, CCC becomes involved in various legal disputes and claims. CCC vigorously
defends its position in such actions through the Office of the General Counsel (OGC) and the U.S. Department of
Justice. CCC’s financial statements as of September 30, 2011 included an unfunded contingent liability of $75
million for Pigford II claim litigation, a legal case for which a payment has been deemed probable.

A contingency is considered reasonably possible when the chance of the future confirming event or events occurring
is more than remote but less than probable. CCC has one ongoing case, Prime Time International Company v.
Vilsack. A payment for this case has been deemed reasonably possible, and an estimated amount of potential loss is
approximately $12 million.

No amounts have been accrued in the financial statements for claims where the amount is uncertain or where the
probability of judgment against USDA is remote.




                                                          84
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 16 – Disclosures Related to the Statement of Net Cost
Earned Revenue
Revenue and expense are recognized based on SFFAS No. 7, Accounting for Revenue and Other Financing Sources.
CCC follows the implementation guide for classifying, recognizing, and measuring inflows of resources. Earned
revenues are exchange revenues, which arise when a Federal entity provides goods and services to the public or to
another government entity for a price.


Earned revenue for the fiscal years ended September 30 is as follows:
                                                                                       (In Millions)

                                                                              2011                      2010

Intragovernmental Earned Revenue:
  Commodity Inventory Sales                                             $             488        $              788
  Interest Income                                                                      33                        26
  Other                                                                               211                       132
  Less: Intra-Agency Eliminations                                                    (488)                     (788)

Total Intragovernmental Earned Revenue                                  $             244        $             158

Earned Revenue from the Public
 Commodity Inventory Sales                                              $             ­          $              43
 Interest Income                                                                      252                      273
 Other                                                                                 37                       47

Total Earned Revenue from the Public                                    $             289        $             363

Total Earned Revenue                                                    $             533        $             521


Intragovernmental commodity inventory sales decreased to $488 in FY 2011 from $788 million in FY 2010. This
decrease is primarily due to export purchases. Beginning in April 2011, purchases made through Web Based Supply
Management System was paid directly out of the export fund. Therefore, the balance did not include a full year of
activity.


CCC’s strategic goals are as follows:

        Supporting productive farms and ranches
        Supporting secure and affordable food and fiber
        Conserving natural resources and enhancing the environment
        Supporting international economic development and trade capacity building

Under supporting productive farms and ranches, program areas include Income Support and Disaster Assistance.
CCC provides financial assistance in the form of flexible payments and short term financing to stabilize, to support,
and to protect farm income and prices due to the fluctuation of commodity market prices or income support due to
damage caused by natural disaster. Commodity Loans, Tobacco Transition Payment Program, Disaster Assistance,




                                                         85
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 16 – Disclosures Related to the Statement of Net Cost, Continued
Milk Income Loss Payments, Price Support, and Direct and Counter-Cyclical programs comprise major program
activity.

Under supporting secure and affordable food and fiber, program areas include Commodity Operations, Dairy Price
Support, and Food Security Reserve. Of these, CCC’s Dairy Price Support and Food Security Reserve programs
protect the nation’s agriculture and food supply through a uniform regulatory system for the storage of agricultural
products and ensure the timely provision of food products procured for domestic and international food assistance
programs and market development programs.

Under conserving natural resources and enhancing the environment, the Conservation Reserve Program safeguards
natural resources by paying farmers to take environmentally sensitive crop land out of production and plant long-
term resource-conserving covers (such as grasses and trees). These covers improve the quality of water and air,
control soil erosion, and enhance wildlife habitat.

Under supporting international economic development and trade capacity building, program areas include Export
Credit, Market Expansion, and Trade Building. FAS and CCC form cooperative agreements with other nonprofit
agricultural trade commodity groups to encourage development, maintenance and expansion of commercial export
markets for agricultural commodities. Major programs include Food Aid, Foreign Market Development and Export
Credit Guarantee.

Refer to the Management Discussion and Analysis, Performance Section for additional information on the CCC’s
alignment of its strategic goals to the USDA Performance and Accountability Report Goals.




                                                         86
                                                                COMMODITY CREDIT CORPORATION
                                                                              Notes to the Financial Statements

Note 16 – Disclosures Related to the Statement of Net Cost, Continued
Net cost of operations for the fiscal year ended September 30, 2011 (In Millions) is as follows:
                                                                              Commodity            Income Support and          Conservation          Foreign         Intra-entity
                                                                              Operations            Disaster Programs           Programs            Programs         Eliminations         Total

Supporting Productive Farms and Ranches
   Intragovernment Cost                                                   $            62 $                         926 $                     - $              - $                  - $             988
   Public Cost                                                                         17                         5,244                       -                -                    -             5,261
   Total Cost                                                             $            79 $                       6,170 $                     - $              - $                  - $           6,249

   Intragovernment Earned Revenue                                         $                - $                        - $                     - $              - $                  - $              -
   Public Earned Revenue                                                                   -                        105                       -                -                    -              105
   Total Earned Revenue                                                   $                - $                      105 $                     - $              - $                  - $            105

Supporting Secure and Affordable Food and Fiber
   Intragovernment Cost                                                   $            92 $                          30 $                     - $              - $                  - $            122
   Public Cost                                                                        215                           (11)                      -                -                    -              204
   Total Cost                                                             $           307 $                          19 $                     - $              - $                  - $            326

   Intragovernment Earned Revenue                                         $            -       $                        14 $                  - $              - $                  - $             14
   Public Earned Revenue                                                                   -                            16                    -                -                    -               16
   Total Earned Revenue                                                   $            -       $                        30 $                  - $              - $                  - $             30

Conserving Natural Resources and Enhancing the Environment
   Intragovernment Cost                                                   $                - $                           - $             467 $                 - $                  - $             467
   Public Cost                                                                             -                             -             1,907                   -                    -             1,907
   Total Cost                                                             $                - $                           - $           2,374 $                 - $                  - $           2,374

   Intragovernment Earned Revenue                                         $                - $                           - $              40 $                 - $                  - $             40
   Public Earned Revenue                                                                   -                             -                 -                   -                    -                -
   Total Earned Revenue                                                   $                - $                           - $              40 $                 - $                  - $             40

Support International Economic Development and Trade Capacity Buildings
   Intragovernment Cost                                                   $                - $                           - $                  - $            97 $              (17) $                80
   Public Cost                                                                             -                             - $                  -           2,814                -                  2,814
   Total Cost                                                             $                - $                           - $                  - $         2,911 $              (17) $             2,894

   Intragovernment Earned Revenue                                         $                - $                           -                 -    $          679 $              (488) $              191
   Public Earned Revenue                                                                   -                             - $               -               167                 -                   167
   Total Earned Revenue                                                   $                - $                           -                 -    $          846 $              (488) $              358
                                                                                                                                           -
Total Gross Cost                                                          $           386 $                       6,189 $              2,374    $         2,911 $              (17) $         11,843
Less: Total Earned Revenue                                                            -                             135                   40                846               (488)              533
Net Cost of Operations                                                    $           386 $                       6,054 $              2,334    $         2,065 $              471 $          11,310




                                                                                                     87
                                                                  COMMODITY CREDIT CORPORATION
                                                                               Notes to the Financial Statements

Note 16 – Disclosures Related to the Statement of Net Cost, Continued
Net cost of operations for the fiscal year ended September 30, 2010 (In Millions) is as follows:

                                                                              Commodity          Income Support and          Conservation          Foreign         Intra-entity
                                                                              Operations          Disaster Programs           Programs            Programs         Eliminations         Total

Supporting Productive Farms and Ranches
   Intragovernment Cost                                                   $             49 $                      909 $                     - $              - $                  - $             958
   Public Cost                                                                      (1,138)                     6,321                       -                -                    -             5,183
   Total Cost                                                             $         (1,089) $                   7,230 $                     - $              - $                  - $           6,141

   Intragovernment Earned Revenue                                         $                - $                     (1) $                    - $              - $                  - $             (1)
   Public Earned Revenue                                                                                          160                       -                -                    -              160
   Total Earned Revenue                                                   $                - $                    159 $                     - $              - $                  - $            159

Supporting Secure and Affordable Food and Fiber
   Intragovernment Cost                                                   $            91 $                        28 $                     - $              - $                  - $            119
   Public Cost                                                                        173                         (13)                      -                -                    -              160
   Total Cost                                                             $           264 $                        15 $                     - $              - $                  - $            279

   Intragovernment Earned Revenue                                         $                8 $                        13 $                  - $              - $                  - $             21
   Public Earned Revenue                                                                   -                          15                    -                -                    -               15
   Total Earned Revenue                                                   $                8 $                        28 $                  - $              - $                  - $             36

Conserving Natural Resources and Enhancing the Environment
   Intragovernment Cost                                                   $                - $                         - $             415 $                 - $                  - $             415
   Public Cost                                                                             -                           -             2,011                   -                    -             2,011
   Total Cost                                                             $                - $                         - $           2,426 $                 - $                  - $           2,426

   Intragovernment Earned Revenue                                         $                - $                         - $                  - $              - $                  - $              -
   Public Earned Revenue                                                                   -                           -                    1                -                    -                1
   Total Earned Revenue                                                   $                - $                         - $                  1 $              - $                  - $              1

Support International Economic Development and Trade Capacity Buildings
   Intragovernment Cost                                                   $                - $                         - $                  - $           948 $             (788) $               160
   Public Cost                                                                             -                           - $                  -           2,566                -                  2,566
   Total Cost                                                             $                - $                         - $                  - $         3,514 $             (788) $             2,726

   Intragovernment Earned Revenue                                         $                - $                         -                 -    $           925 $             (788) $              137
   Public Earned Revenue                                                                   -                           - $               -                188                -                   188
   Total Earned Revenue                                                   $                - $                         -                 -    $         1,113 $             (788) $              325
                                                                                                                                         -
Total Gross Cost                                                          $           (825) $                   7,245 $              2,426    $         3,514 $             (788) $         11,572
Less: Total Earned Revenue                                                $              8 $                      187 $                  1    $         1,113 $             (788)              521
Net Cost of Operations                                                    $           (833) $                   7,058 $              2,425    $         2,401 $                - $          11,051




                                                                                                      88
                              COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 17 – Disclosures Related to the Statement of Budgetary Resources
The SBR is a combined statement, and as such, intra-agency transactions have not been eliminated.

For the fiscal year ended September 30, 2011, there were no obligations incurred under apportionment category A,
which is funded on a quarterly basis, while obligations incurred under apportionment category B, which are funded
annually, consist of $3.8 billion direct obligations and $20.2 billion reimbursable obligations.

For the fiscal year ended September 30, 2010, there were no obligations incurred under apportionment category A,
which is funded on a quarterly basis, while obligations incurred under apportionment category B, which are funded
annually, consist of $4.4 billion direct obligations and $22.4 billion reimbursable obligations.

The majority of the amounts reported as permanently not available represent redemption of debt or the amount of
principal repayments paid to the Treasury on CCC's outstanding borrowings. The remaining balance represents
rescissions of budgetary authority. The amounts were $36.1 billion and $42.0 billion for the fiscal years ended
September 30, 2011 and 2010, respectively.

CCC has a permanent indefinite borrowing authority, as defined by OMB Circular A-11, Preparation, Submission,
and Execution of the Budget. An indefinite permanent borrowing authority becomes available pursuant to standing
provisions of law without further appropriations actions by Congress after the transmittal of the budget for the year
involved. CCC's authority is established annually to record the obligations of CCC; apportionment documents
received for some of CCC's specific programs provide spending limitations within the borrowing authority and are
subject to the Anti-Deficiency Act. The borrowing authority provides that all obligations are reported, even though
subsequent appropriations or offsetting collections will ultimately be used to liquidate the obligations of the
corporation. The Circular A-11 permits the Corporation to incur obligations which can exceed the $30 billion
ceiling and authorizes CCC to borrow funds to liquidate the obligations. An indefinite borrowing authority ceiling
limits the amount of moneys derived from borrowing from Treasury to liquidate the obligations incurred.

Per the CCC Charter Act, 15 U.S.C. 714, the Corporation’s borrowing authority is made up of both interest and non-
interest bearing notes. These notes are drawn upon on a daily basis when disbursements exceed deposits, as
reported by the Federal Reserve Banks (FRBs), their branches, the Treasury, and CCC’s financing office. CCC is
authorized to issue and have outstanding at any one time bonds, notes, debentures, and other similar obligations in
an aggregate amount not to exceed $30 billion. CCC’s notes payable under its permanent indefinite borrowing
authority have a term of one year. On January 1 of each year, CCC refinances its outstanding borrowings, including
accrued interest, at the January borrowing rate. Refer to Note 10, Debt to the Treasury, for additional information.
The amount of available borrowing authority for the fiscal year ended September 30, 2011 is $8.1 billion.
CCC receives an annual appropriation to fund subsidy costs incurred. In addition, CCC has permanent indefinite
appropriation authority to finance disbursements made under the liquidating accounts related to the pre-Credit
Reform program activities, which are not covered by available working capital.

Undelivered orders, either unpaid or prepaid, are obligations, purchase orders, or contracts awarded for which goods
or services have not yet been received. The amounts for undelivered orders are $3.6 billion and $3.2 billion for the
fiscal years ended September 30, 2011 and 2010, respectively.

Unobligated budget authority is the difference between the obligated balance and the total unexpended balance. It
represents that portion of the unexpended balance unencumbered by recorded obligations. Appropriations are
provided on an annual, multi-year, and no-year basis. An appropriation expires on the last day of its period of
availability and is no longer available for new obligations. Unobligated balances retain their fiscal-year identity in
an expired account for an additional five fiscal years. The unobligated balance remains available to make legitimate
obligation adjustments, i.e., to record previously unrecorded obligations and to make upward adjustments in
previously underestimated obligations for five years. At the end of the fifth year, the authority is canceled.
Thereafter, the authority is not available for any purpose.

No contributed capital was received during the reporting periods.


                                                          89
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 17 – Disclosures Related to the Statement of Budgetary Resources,
Continued
Any information about legal arrangements affecting the use of the unobligated balance of budget authority is
specifically stated by program and fiscal year in the appropriation language or in the alternative provisions section at
the end of the appropriations act. CCC does not have obligations from canceled appropriations.

The SF-133, Report on Budget Execution, which is used by CCC to report and certify obligation balances is also
used to populate some portions of the Program and Financing Schedules (P&F Schedules) within the Budget of the
United States Government.

Since the P&F Schedules within the Budget of the United States Government, Fiscal Year 2013 are not available for
FY 2011, the reconciliation between the President’s Budget and the SBR for FY 2011 cannot be performed. The
Budget of the United States Government, Fiscal Year 2013 is expected to be published in February 2012 and will be
available on the website of the Office of Management and Budget (www.whitehouse.gov/omb) at that time. The
SF-133 and the SBR for FY 2011 will be reconciled to the FY 2011 actuals on the P&F Schedules reported in the
Budget of the United States Government, Fiscal Year 2013, once released.

The SF-133 and the SBR for FY 2010 have been reconciled to the FY 2010 actuals on the P&F Schedules presented
in the Budget of the United States Government, Fiscal Year 2012. While Net Outlays reconcile between the P&F
Schedules and the SF-133, Gross Outlays and Offsetting Collections show variances due to reporting differences
related to advances from the Agricultural Marketing Service (AMS) and Food and Nutrition Service (FNS) by
Treasury. Currently, both AMS and FNS have agreed to change their reporting practices in order to reconcile at
Gross Outlays and Offsetting Collections.

A table presenting this comparison appears on the following page.




                                                          90
                                                                        COMMODITY CREDIT CORPORATION
                                                                                          Notes to the Financial Statements

Note 17 – Disclosures Related to the Statement of Budgetary Resources, Continued
The comparison of selected line items of the FY 2010 SBR to the actual on the FY 2010 P&F Schedules presented in the Budget of the United States
Government, Fiscal Year 2012 is as follows.
                                                                                                                                                                                                          Portion of
                                                                                                                                                                                                          Difference
                                                                                                                                                  SBR                 P&F                               Resulting from
SBR             P&F                                                                                                                              Amount              Amount                               Reporting
Line Ref        Line No.                                                                   SBR Line Description                                (Ref. Tab B)     (Ref. Tab A, pg 2/2)   Difference       Requirements         Note
1               1000                                         Unobligated Balance - Beginning of Year                                                   2,991                2,990                 1
2               1021                                         Recoveries of Prior Year Obligations                                                      1,366                1,474              (108)                           b
3A              1100/1160/1200/1202                          Appropriations Received                                                                  18,014               18,019                (5)                           d
3B              1400                                         Authority to Borrow                                                                      40,263               31,102             9,161                 7,107     a, c
3D1a/3D2a/3D5   1700/1800                                    Offsetting Collections - Collected                                                       13,115               13,112                 3
3D1b/3D2b       1801                                         Offsetting Collections - Receivable                                                          (6)                  (5)               (1)
4               1200/1201/1236                               Budgetary Resources/Unobligated Balance - Net Transfers                                  (3,617)              (3,618)                1
6               1023/1236/1421/1825                          Permanently not Available                                                               (41,934)             (34,827)           (7,107)               (7,107)      a
7 or 11         1930                                         Total Budgetary Resources/Status of Budgetary Resources                                  30,192               28,247             1,945                          b, c, d
8               3030                                         Total New Obligations                                                                   (26,793)             (24,850)           (1,943)                          b, c
9/10            1941                                         Unobligated Balance - End of Year                                                        (3,399)              (3,392)               (7)
12              3000                                         Obligated Balance - Beginning of Year                                                    (9,291)              (9,273)              (18)                          b, d
13              3030                                         Obligations Incurred                                                                    (26,793)             (24,845)           (1,948)                         b, c, d
14              3040                                         Gross Outlays                                                                           (24,996)             (24,992)               (4)
16              3080                                         Recoveries of Prior Year Obligations                                                      1,366                1,473              (107)                           b
17              3050                                         Change in Uncollected Customer Payments from Federal Sources                                 (6)                  (5)               (1)
18              3090/3091/3100                               Obligated Balance - End of Year                                                          (9,728)              (9,707)              (21)                          b, d
19A/19B         4190                                         Outlays                                                                                 (11,881)             (11,877)               (4)                           d

    NOTES:

    General     Any difference that is not otherwise specified is a result of rounding.



                The variance in the Revolving Fund, fund 12X4336, and the Farm Storage Facility and Sugar Storage Facility Loans Financing Fund, fund 12X4158, on Line 3B, Budget Authority: Borrowing Authority,
                is due to the differences between the Program and Finance (P&F) and Statement of Budgetary Resources (SBR) crosswalks. The P&F crosswalk records standard general ledger (SGL) account 4143,
       a.
                Decreases to Indefinite Borrowing Authority, in Line 3B Borrowing Authority. However, the SBR crosswalk reports SGL account 4143 to Line 6, Permanently not Available. The variance is offset in
                SBR Line 6.

                CCC is the Parent and USAID is the Child for Treasury symbols (72)12X2278, P.L. 480 Title II Grants, and (72)12X4336, Bill Emerson Humanitarian Trust. CCC closes its books in the first week of the
       b.       following month while USAID continues processing activity until the third week of the following month. As a result, the reconciling amounts reflect timing differences related to activity posted by USAID
                after CCC has closed its books for the reporting period.


       c.       The variance reflects prior period corrective entries identified by CCC and OMB for Tobacco Transition Payment Program and Conservation Reserve Program of the Revolving Fund, 12X4336.


                The variance reflects activity for the Hazardous Waste Fund, fund 12X0500, that is reported by CCC on the Statement of Budgetary Resources. This fund is reported at the Department level, in the
       d.
                Budget of the U.S. Government and therefore is not presented by the Agency.




                                                                                                              91
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 18 – Disclosures Not Related to a Specific Statement
Transactions with Related Organizations
CCC maintains deposit and trust liabilities for Agricultural Marketing Service (AMS), Foreign Agricultural Service
(FAS), Food and Nutrition Service (FNS), and the National Resources Conservation Service (NRCS). Refer to Note
11, Deposit and Trust Liabilities, for additional information. In addition, CCC has the following transactions with
USDA agencies:

For the fiscal years ended September 30, 2011 and 2010, outlays under reimbursable agreements with other USDA
agencies amounted to $40 million and $29 million, respectively.

For the fiscal years ended September 30, 2011 and 2010, CCC received $0 and $19 million, respectively, from FSA
for the allocation of internal software development costs, which are capitalized. Currently, CCC reimburses FSA for
the costs incurred in the development of software used to administer agriculture programs. Refer to Note 1, under
General Property and Equipment, for additional information.

CCC donates commodities for use under domestic feeding programs administered by FNS. The value of
commodities donated for these domestic purposes, including related transportation and storage costs for the fiscal
years ended September 30, 2011 and 2010 were $31 million and $159 million, respectively.

For each fiscal year ended September 30, 2011 and 2010, CCC transferred $21 million, respectively, to FNS for the
Senior's Farmers Market Nutrition Program. CCC transferred $227 million in FY 2011 to the Animal and Plant
Health Inspection Service for bovine tuberculosis, light brown apple moth outbreak, and potato cyst nematode
eradication programs. In addition, CCC transferred $1 million to the Office of the CFO for bio-diesel fuel education
and bio-based products, and $67 million to AMS for commodity assistance program and marketing service. Also in
FY 2011, CCC transferred $119 million to Cooperative State Research, Education, and Extension Service
(CSREES) for the national agricultural higher education, research, and extension system which are designed to
address national problems and needs related to agriculture, the environment, human health and well being, and
communities.

For the fiscal years ended September 30, 2011 and 2010, CCC disbursed a total of $3.1 billion and $2.9 billion,
respectively, on behalf of NRCS for various conservation programs and technical assistance. In addition, for the
fiscal year ended September 30, 2011, CCC disbursed $99 million to NRCS for CRP technical assistance. These
programs included Wetland Reserve Program, Environmental Quality Incentive Program (EQIP), Farm and Ranch
Lands Protection Program (FRPP), Wildlife Habitat Incentives Program, Ground and Surface Water Conservation
Program, Grassland Reserve Program (GRP), and the Conservation Security Program. NRCS is responsible for the
administration of these programs. For GRP, NRCS has entered into a memorandum of understanding with CCC to
disburse funds using the services and facilities of CCC. It should be noted that although NRCS has been receiving
funding for the EQIP since FY 2003, CCC continues to receive separate funding for the FY 2002 and earlier
program years. Also in FY 2011, CCC transferred $26 million to other USDA agencies including Farm Service
Agency (FSA) and Risk Management Agency.

CCC also transferred funds to USAID to fund P.L. 480 Title II transportation and other administrative costs in
connection with foreign donations. Refer to Note 1 under Allocation Transfers and Shared Appropriations for
further information.




                                                         92
                               COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 18 – Disclosures Not Related to a Specific Statement, Continued
Custodial Activity
CCC’s custodial activities involve the collection and transfer of funds received from the public on behalf of U.S.
Treasury, FSA, and other USDA agencies. These collections include amounts related to FSA’s Farm Loan Program,
as well as other interest, fees, and penalties due to Treasury and other USDA agencies.


Custodial activities for the Fiscal Year ended September 30 are as follows:


                                                                                 (In Millions)

                                                                        2011                     2010

Revenue Activity:
 Sources of Cash Collections:

   Repayment of Farm Credit Loans
                                $            1,639       $            1,360
   Administrative and Other Service Fees
                                        187                       61

Total Cash Collections                                            $            1,826       $            1,421

Total Custodial Revenue                                           $            1,826       $            1,421

Disposition of Collections:
 Transfers to Others:

    USDA Farm Service Agency
                                     $            1,648       $            1,387
    Other USDA Agencies
                                                         146                       32
    Department of Treasury
                                                       25                        2

Total Disposition of Collections                                  $            1,819       $            1,421

Increase/Decrease in Amounts Yet to be Transferred (+/-)                          (7)                       -

Net Custodial Activity                                            $                ­       $                ­




                                                           93
                              COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 19 – Reconciliation of Net Cost of Operations to Budget
Budgetary and proprietary accounting information are inherently different because of the types of information and
the timing of their recognition. The Reconciliation of Net Cost of Operations to Budget provides a link between
budgetary and proprietary accounting information. It serves not only to explain how information on net obligations
relates to the net cost of operations but also to assure integrity between budgetary and proprietary accounting.

Net obligations and the net cost of operations are different because (1) the net cost of operations may be financed by
non-budgetary resources (e.g. imputed financing); (2) the budgetary and non-budgetary resources used may finance
activities which are not components of the net cost of operations; and (3) the net cost of operations may contain
components which do not use or generate resources in the current period.




                                                          94
                                      COMMODITY CREDIT CORPORATION
                                                   Notes to the Financial Statements

Note 19 – Reconciliation of Net Cost of Operations to Budget,
Continued
The Reconciliation of Net Cost of Operations to Budget for the fiscal year ended September 30, 2011 is as follows:

                                                                                                                       (In Millions)

                                                                                                               2011                    2010
Resources Used to Finance Activities:
Budgetary Resources Obligated
  Obligations Incurred                                                                                     $    24,065          $        26,793
  Less: Spending Authority from Offsetting Collections and Recoveries                                           13,455                   14,475
  Obligations Net of Offsetting Collections and Recoveries                                                 $    10,610          $        12,318
  Less: Offsetting Receipts                                                                                        225                      576
  Net Obligations                                                                                          $    10,385          $        11,742
Other Resources:
  Transfers In/Out without Reimbursement, Net                                                              $        (3)         $            18
  Imputed Financing from Costs Absorbed by Others                                                                1,417                    1,378
  Other                                                                                                           (109)                    (262)
  Net Other Resources Used to Finance Activities                                                           $     1,305          $         1,134

Total Resources Used to Finance Activities                                                                 $    11,690          $        12,876

Resources Used to Finance Items not Part of the Net Cost of Operations:
  Change in Budgetary Resources Obligated for Goods, Services and Benefits Ordered but not Yet Provided    $      (483)         $           950
  Resources that Fund Expenses Recognized in Prior Periods                                                      (1,263)                  (2,434)
  Budgetary Offsetting Collections and Receipts That Do Not Affect Net Cost of Operations
     Credit Program Collections which Increase Liabilities for Loan Guarantees or Allowances for Subsidy           776                      723
     Change in Unfilled Customer Orders                                                                          1,583                      318
     Decrease in Exchange Receivables from the Public                                                            7,367                    6,708
     Other                                                                                                         175                      117
  Resources that Finance the Acquisition of Assets                                                              (5,635)                  (8,288)
  Other Resources or Adjustments to Net Obligated Resources that Do Not Affect Net Cost of Operations           (3,584)                     862
Total Resources Used to Finance Items Not Part of the Net Cost of Operations                               $    (1,064)         $        (1,044)

Total Resources Used to Finance the Net Cost of Operations                                                 $    10,626          $        11,832
 Total Resources Used to Fund Items Not Part of the Net Cost of Operations

Components of the Net Cost of Operations that will not Require or Generate Resources in the
  Current Period:
Components Requiring or Generating Resources in Future Periods:
  Upward/(Downward) Reestimates of Credit Subsidy Expense                                                  $       106          $           173
  (Increase) in Exchange Revenue Receivable from the Public                                                        (37)                     (68)
  Other                                                                                                           (896)                  (1,174)
Total Components of Net Cost of Operations that will Require or Generate Resources in Future Periods       $      (827)         $        (1,069)
Components not Requiring or Generating Resources:
  Depreciation and Amortization                                                                                       (30)                     1
  Revaluation of Assets or Liabilities                                                                                  4                     18
  Other Components not Requiring or Generating Resources:
    Bad Debt Expense                                                                                               533                     137
    Cost of Goods Sold                                                                                             488                     835
    Other                                                                                                          516                    (703)
Total Components of Net Cost of Operations that will not Require or Generate Resources                     $     1,511          $          288

Total Components of Net Cost of Operations that will not Require or Generate Resources
      in the Current Period                                                                                $      684           $          (781)

Net Cost of Operations                                                                                     $    11,310          $        11,051




                                                                          95
Required Supplementary
Information (Unaudited)




              96

                                                      COMMODITY CREDIT CORPORATION
                                                             Required Supplementary Information

Schedule 1
Required Supplementary Information (Unaudited)

Supporting Schedule to the Combined Statements of Budgetary Resources - Budgetary Accounts

For the Fiscal Year Ended September 30, 2011 (in Millions)


                                                             12X4336           12X2278            12X8161           (72)12X2278           12X1336           Other             Total Budgetary
BUDGETARY RESOURCES:
  Unobligated balance, brought forward, October 1:       $        1,623    $           260    $             -   $              1      $         332     $            72   $              2,288
  Recoveries of prior year unpaid obligations                       561                  -                  -                222                  -                  45                    828
  Budget authority:
    Appropriation                                                     -             1,500               932                       -             144            15,157                   17,733
    Borrowing authority (Note 17)                                30,969                 -                 -                       -               -                 -                   30,969
    Spending authority from offsetting collections:
      Earned:
         Collected                                               10,831                 94                  -                     -                 -               398                 11,323
         Change in receivables from Federal sources                (138)               (55)                 -                     -                 -                 -                   (193)
      Change in unfilled customer orders:
         Advance received                                           (42)                 -                  -                     -                 -                 -                    (42)
         Without advance from Federal sources                         -                  -                  -                     -                 -                 -                      -
      Previously unavailable
      Expenditure transfers from trust funds                         932                -                 -                    -                   -                -                      932
    Subtotal                                             $        42,552 $          1,539 $             932     $              -      $          144 $         15,555 $                 60,722
  Nonexpenditure transfers, net, actual                           11,528             (889)                -                  889                   -          (15,116)                  (3,588)
  Permanently not available                                      (34,420)              (3)                -                    -                (331)            (395)                 (35,149)
Total Budgetary Resources                                $        21,844 $            907 $             932     $          1,112      $          145 $            161 $                 25,101
STATUS OF BUDGETARY RESOURCES:
  Obligations incurred:
    Direct                                               $            -    $           780    $         932     $          1,046      $         125     $           104   $              2,987
    Reimbursable                                                 20,244                  -                -                    -                  -                   -                 20,244
  Subtotal                                               $       20,244    $           780    $         932     $          1,046      $         125     $           104   $             23,231
  Unobligated balance:
    Apportioned                                          $            -    $           107    $           -     $             66      $          19     $            334 $                 526
    Exempt from apportionment                                     1,132                  -                -                    -                  -                    4                 1,136
  Subtotal                                               $        1,132    $           107    $           -     $             66      $          19     $            338 $               1,662
  Unobligated balance not available                                 468                 20                -                    -                  1                 (281)                  208
Total Status of Budgetary Resources                      $       21,844    $           907    $         932     $          1,112      $         145     $            161 $              25,101




                                                                                  97
                                                               COMMODITY CREDIT CORPORATION
                                                                       Required Supplementary Information

Schedule 1
Supporting Schedule to the Combined Statements of Budgetary Resources - Budgetary Accounts

For the Fiscal Year Ended September 30, 2011 (in Millions)

                                                                       12X4336           12X2278           12X8161           (72)12X2278           12X1336           Other              Total Budgetary
CHANGE IN OBLIGATED BALANCE:
 Obligated balance, net
   Unpaid obligations, brought forward, October 1                  $        8,052    $           153   $             -   $          1,220      $             -   $           469    $              9,894
   Less: Uncollected customer payments from Federal sources,
   brought forward, October 1                                                 (171)               (75)              -                   -                   -                   -                   (246)
 Total unpaid obligated balance, net                               $         7,881 $               78 $             - $             1,220 $                 - $               469 $                9,648
 Obligations incurred, net                                                  20,244                780             932               1,046                 125                 104                 23,231
 Less: Gross outlays                                                       (19,365)              (660)           (932)               (797)               (125)               (494)               (22,373)
 Obligated balance transferred, net
   Actual transfers, unpaid obligations                                          -                 -                 -                     -                 -                 -                          -
   Actual transfers, uncollected customer payments from Federal
   sources                                                                      -                  -                 -                  -                    -                 -                       -
 Total unpaid obligated balance transferred, net                                -                  -                 -                  -                    -                 -                       -
 Less: Recoveries of prior year unpaid obligations, actual                   (561)                 -                 -               (222)                   -               (45)                   (828)

  Change in uncollected customer payments from Federal sources                138                 55                 -                  -                    -                 -                     193
  Total Change in Obligated Balance, net                           $        8,337    $           253   $             -   $          1,247      $             -   $            34    $              9,871
  Obligated balance, net, end of period:
    Unpaid obligations                                             $        8,369 $              273 $               -   $          1,247      $             -   $            35 $                 9,924
    Less: Uncollected customer payments from Federal sources                  (32)               (20)                -                  -                    -                (1)                    (53)
Total, unpaid obligated balance, net, end of period                $        8,337 $              253 $               -   $          1,247      $             -   $            34 $                 9,871
NET OUTLAYS:
  Gross outlays                                                    $        19,366 $             659 $           932     $           797       $         125     $            494 $               22,373
  Offsetting collections                                                   (11,721)              (94)              -                   -                   -                 (398)               (12,213)
  Less: Distributed Offsetting receipts                                          -                 -               -                   -                   -                    -                      -
Net Outlays                                                        $         7,645 $             565 $           932     $           797       $         125     $             96 $               10,160

The accompanying notes are an integral part of these statements.




                                                                                            98
                                                      COMMODITY CREDIT CORPORATION
                                                             Required Supplementary Information

Schedule 1
Required Supplementary Information (Unaudited)

Supporting Schedule to the Combined Statements of Budgetary Resources - Non-Budgetary Credit Program Financing Accounts

For the Fiscal Year Ended September 30, 2011 (in Millions)

                                                             12X4049            12X4337           12X4158            Other             Total Non-Budgetary
BUDGETARY RESOURCES:
  Unobligated balance, brought forward, October 1:       $         634      $           292   $             86   $           99    $                  1,111
  Recoveries of prior year unpaid obligations                        -                    1                 37                -                          38
  Budget authority:
    Appropriation                                                      -                  -               -                   -                           -
    Borrowing authority (Note 17)                                      1                371             369                   2                         743
    Spending authority from offsetting collections:
      Earned:
         Collected                                                 161                  221             168                  19                         569
         Change in receivables from Federal sources                  -                    -               -                   -                           -
      Change in unfilled customer orders:
         Advance received                                               -                 -                  -                 -                             -
         Without advance from Federal sources                           -                 -                  -                 -                             -
       Previously unavailable
      Expenditure transfers from trust funds                         -                    -               -                   -                           -
    Subtotal                                             $         162      $           592   $         537      $           21    $                  1,312
  Nonexpenditure transfers, net, actual                              -                    -               -                   -                           -
  Temporarily not available pursuant to Public Law
  Permanently not available                                        (555)                (171)           (225)                (19)                      (970)
Total Budgetary Resources                                $          241 $                714 $           435 $               101 $                    1,491
STATUS OF BUDGETARY RESOURCES:
  Obligations incurred:
    Direct                                               $             76   $           439   $         312      $            7    $                    834
    Reimbursable                                                        -                 -               -                   -                           -
  Subtotal                                               $             76   $           439   $         312      $            7    $                    834
  Unobligated balance:
    Apportioned                                          $         153      $           323 $            34      $            27   $                    537
    Exempt from apportionment                                        -                    9               -                    -                          9
  Subtotal                                               $         153      $           332 $            34      $            27   $                    546
  Unobligated balance not available                                 12                  (57)             89                   67                        111
Total Status of Budgetary Resources                      $         241      $           714 $           435      $           101   $                  1,491




                                                                                   99
                                                               COMMODITY CREDIT CORPORATION
                                                                       Required Supplementary Information

Schedule 1
Supporting Schedule to the Combined Statements of Budgetary Resources - Non-Budgetary Credit Program Financing Accounts

For the Fiscal Year Ended September 30, 2011 (in Millions)

                                                                       12X4049           12X4337             12X4158           Other             Total Non-Budgetary
CHANGE IN OBLIGATED BALANCE:
 Obligated balance, net
   Unpaid obligations, brought forward, October 1                  $             -   $             12    $         226     $             -   $                    238
   Less: Uncollected customer payments from Federal sources,
   brought forward, October 1                                                 (43)               (115)               (1)                 1                       (158)
 Total unpaid obligated balance, net                               $          (43) $             (103) $            225 $                1 $                       80
 Obligations incurred, net                                                     76                 439               312                  7                        834
 Less: Gross outlays                                                          (76)               (433)             (307)                (7)                      (823)
 Obligated balance transferred, net
   Actual transfers, unpaid obligations                                          -                  -                  -                 -                             -
   Actual transfers, uncollected customer payments from Federal
   sources                                                                       -                  -                -                   -                          -
 Total unpaid obligated balance transferred, net                                 -                  -                -                   -                          -
 Less: Recoveries of prior year unpaid obligations, actual                       1                 (2)             (37)                  -                        (38)

  Change in uncollected customer payments from Federal sources                  -                   -                -                  -                           -
  Total Change in Obligated Balance, net                           $          (42) $              (99) $           193     $            1    $                     53
  Obligated balance, net, end of period:
    Unpaid obligations                                             $             -   $             18    $         192     $             -   $                    210

    Less: Uncollected customer payments from Federal sources                  (42)               (117)               1                  1                        (157)
Total, unpaid obligated balance, net, end of period                $          (42) $              (99) $           193     $            1    $                     53

NET OUTLAYS:
  Gross outlays                                                    $           76 $               433 $             307 $                7 $                      823
  Offsetting collections                                                     (161)               (221)             (168)               (19)                      (569)
  Less: Distributed Offsetting receipts                                       (11)               (187)              (27)                 -                       (225)
Net Outlays                                                        $          (96) $               25 $             112 $              (12) $                      29

The accompanying notes are an integral part of these statements.




                                                                                           100
Part IV: Other Accompanying
Information (Unaudited)




              101
                                                                                    COMMODITY CREDIT CORPORATION
                                                                                           Other Accompanying Information

           Schedule 2
           Other Accompanying Information (Unaudited)
           Change in Inventory by Commodity
           For the Fiscal Year Ended September 30, 2011
           (Dollars in Thousands)

                                           Beginning Inventory                                                                                                                                                           Ending Inventory
                                              10/1/2010              Acquisitions              Cost of Sales a/          Donations         Other Additions, Net c/     Other Dispositions b/       Deductions, Net c/   September 30, 2011
                                Unit of
                                Measure   Quantity    Value       Quantity     Value        Quantity       Value         Quantity       Value        Quantity     Value Quantity      Value        Quantity Value       Quantity       Value
Feed Grains:
  Barley                        Bushels           -           -           19        10              (19)          (10)              -           -            -        -           -            -            -       -              -       -
  Corn                          Bushels           -           -       1,631      11,193        (1,247)       (8,659)          (384)      (2,535)             -        -           -            -            -       -              -       -
  Corn Meal                     Pounds       2,165         355      141,812     28,444       (129,633)      (25,780)        (14,343)      (3,018)            -        -           -            -            -       -              -       -
  Oats                          Bushels           -           -           -            -             -             -                -           -            -        -           -            -            -       -              -       -
  Grain Sorghum                 Bushels           -           -      9,913      64,511         (7,301)      (45,113)         (1,985)     (14,672)            -        -           -            -            -       -         627      4,725
  Sorghum Grits                 Pounds            -           -           -            -             -             -                -           -                                 -            -            -       -              -       -
  T otal Feed Grains                        XXX            355      XXX        104,158        XXX           (79,562)       XXX          (20,225)      XXX             -     XXX                -      XXX           -      XXX         4,725


Wheat                           Bushels           -           -      19,301    180,592         (9,494)      (87,413)        (9,804)      (93,167)           (3)      (12)         -            -            -       -              -       -
Wheat Flour                     Pounds         33             6    185,797      43,214       (164,465)      (38,486)        (21,364)     (4,734)             -        -           -            -            -       -              -       -
Wheat Products, Other           Pounds       11,879       2,040     82,620      15,766        (79,828)      (14,871)       (27,458)      (5,622)       12,787     2,687           -            -            -       -              -       -
      T otal Wheat                          XXX           2,046     XXX        239,572        XXX          (140,770)       XXX          (103,523)     XXX         2,675     XXX                -      XXX           -      XXX             -


Rice Products:
Rice Products                   Cwt.           172        4,391      2,210      51,796         (2,059)      (46,061)          (374)      (11,504)           58     1,525          -            -            -       -            7       148
Rice, Rough                     Cwt.              -           -           -            -             -             -                -           -            -        -           -            -            -       -              -       -
Rice, Brown                     Pounds            -           -           -            -             -             -                -           -            -        -           -            -            -       -              -       -


T otal Rice Products                        XXX           4,391     XXX         51,796        XXX           (46,061)       XXX           (11,504)     XXX          1,525    XXX                -      XXX           -      XXX           148


Cotton, Upland                  Bales             -           -           -            1             -             -                -           -            -        (1)         -            -            -       -              -       -
        T otal Cotton                             -           -           -            1             -             -                -           -            -        (1)         -            -            -       -              -       -


Dairy Products
 Butter                         Pounds
 Nonfat Dry Milk                Pounds       6,558        6,081           -         12               -             -        (6,295)      (9,469)         (914)    2,235        651      1,141               -       -              -       -
 Cheese Mozzarella              Pounds            -           -      2,186       4,613               -             -         (2,186)      (4,613)            -        -           -            -            -       -              -       -
 Cheese Regular Price Support   Pounds            -           -           -            -             -             -       (133,200)       (1,117)    133,200      1,117          -            -            -       -              -       -
 Cheese Variety                 Pounds            -           -      4,192       9,499               -             -         (4,192)     (9,499)             -        -           -            -            -       -              -       -
 Infant Formula                 Pounds            -           -           -            -             -             -                -           -            -        -           -            -            -       -              -       -
 Ultra High T emperature Milk   Pounds            -           -           -            -             -             -       (98,676)      (9,540)       98,676     9,540           -            -            -       -              -       -
 T otal Dairy Products                      XXX           6,081     XXX         14,124        XXX                  -       XXX          (34,238)      XXX         12,892    XXX         1,141         XXX           -      XXX             -




                                                                                                           102
                                                                                                   COMMODITY CREDIT CORPORATION
                                                                                                        Other Accompanying Information

             Schedule 2
             Other Accompanying Information (Unaudited)
             Change in Inventory by Commodity, Continued
             For the Fiscal Year Ended September 30, 2011
             (Dollars in Thousands)


                                          Beginning Inventory                                                                                                                                                                      Ending Inventory
                                                10/1/2010                 Acquisitions             Cost of Sales a/              Donations             Other Additions, Net c/    Other Dispositions b/     Deductions, Net c/    September 30, 2011
                             Unit of
                             Measure       Quantity      Value        Quantity      Value        Quantity     Value        Quantity      Value          Quantity      Value       Quantity      Value      Quantity     Value    Quantity    Value

Soybean Products              Bushels            -              -            18            315         -            -            (18)          (315)          -            -           -             -           -           -        -           -
Soybean Products              Pounds             -              -        32,149          6,242     (19,849)      (3,903)     (12,300)        (2,339)          -            -           -             -           -           -        -           -

Dry Edible Beans              Cwt.                 49       1,834          323        10,767         (273)       (8,736)         (51)      (2,168)           -             -           -            839        -             -          57      2,537
Blended Foods                 Pounds          15,609        3,707       99,503        28,813      (59,859)      (16,121)     (39,998)     (11,409)           728           220         -            -          -             -     15,983       5,209
Honey                         Pounds             -            -            -             -            -             -            -            -              -             -           -            -          -             -        -           -
Meat                          Pounds             -            -         34,127        77,648          -             -        (34,055)     (77,493)           -             -           -            -          -             -          72        155
Pork Bellies                  Pounds             -            -            -             -            -             -            -            -              -             -           -            -          -             -        -           -
Dry Whole Peas                Cwt.                  3           71       2,978        74,406       (1,919)      (46,174)        (815)     (19,908)             4             91        -            -          -             -        250       8,486
Lentils Dry                   Cwt.               -            -            174         5,240         (150)       (4,397)         (28)        (989)             4           145         -            -          -             -        -           -
Soybean Salad Oil             Pounds             -            -         55,375        30,887       (6,172)       (2,241)     (49,203)     (28,646)           -             -           -            -          -             -        -           -
Vegetable Oil                 Pounds           5,345        3,086      333,103       237,138     (195,865)     (139,667)    (113,008)     (78,986)         3,527         2,858         -            -          -             -     33,102      24,429
Eggs Whole Frozen             Pounds             -            -          5,704         3,384          -             -         (5,704)      (3,384)           -             -           -            -          -             -        -           -
Poultry Cnd Chicken           Pounds             -            -            263           572          -             -           (263)        (572)           -             -           -            -          -             -        -           -
Poultry Frzn Chicken          Pounds             -            -        119,832        78,175          -             -       (119,834)     (78,175)           -             -               2        -          -             -        -           -
Poultry Frzn Turkey           Pounds             -            -          9,476        17,128          -             -         (9,476)     (17,128)           -             -          -             -          -             -        -           -
Veg Cnd Veg Soup              Pounds             -            -            -             -            -             -       (279,000)      (2,534)       279,000         2,534        -             -          -             -        -           -
Veg Cnd Tomatoes-Soup         Pounds             -            -            -             -            -             -       (468,000)      (4,256)       468,000         4,256        -             -          -             -        -           -
Miscellaneous                 Cwt.               -            -            -           1,489          -             -            -         (1,361)           -             -          -             -          -             -        -           128
  Subtotal                                   XXX            8,698      XXX           572,204      XXX          (221,239)     XXX         (329,663)       XXX            10,104     XXX              839     XXX              -    XXX          40,944



Total Inventory Operations                   XXX           21,570      XXX           981,854      XXX          (487,632)     XXX         (494,714)       XXX            27,194     XXX             1,979    XXX              -    XXX          50,256

Note: Inventories of commodities as shown in this report include commodities committed to sale or otherwise obligated. Due to distinct units of measure, Quantity totals are not tabulated, and are denoted as xxx.
a/ Includes commodities subsequently exported and financed under P.L. 480.
b/ Includes inventory quantity gains under the Export Program, and the losses incurred for conversion, incurred casualties and transit, and shrinkage and spoilage of commodities.
c/ Includes the net of over-deliveries, premiums, under-deliveries and discounts resulting from warehouse operations; the net change in value and quantity of inventory exchanged or
   in process of exchange; and processing end packaging costs and related quantitative gains and losses in processing operations and items which are footnoted individually.




                                                                                                                           103
                              COMMODITY CREDIT CORPORATION
                                       Other Accompanying Information

Summary of Management Assurances 2
                   Conformance with Financial Management Systems Requirements (FMFIA § 4)
    Statement of Assurance           Systems do not conform to financial management system requirements
                                       Beginning                                                     Ending
    Non-conformances                    Balance       New Resolved Consolidated Reassessed           Balance
    Financial System Functionality         1                                                            1
    Unliquidated Obligation (ULO)
    Certification                                                                           1           1
    Total Non-conformances                 1                                                1           2

                    Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                         Agency                    Auditor
    Overall Substantial Compliance                         No                       No
    1. System Requirements                                                  No
    2. Accounting Standards                                                Yes
    3. USSGL at Transaction Level                                           No
    4. Information Security Policies and Procedures                        Yes




2
    This Summary of Management Assurances is as of completion of the Annual Report.


                                                      104
                              COMMODITY CREDIT CORPORATION
                                        Other Accompanying Information

                    Improper Payment Information Act (IPIA) 2002 Compliance

The Fiscal Year 2011 Improper Payment Information Act (2002) (IPIA) saw several new requirements implemented
to enhance the Government’s efforts to prevent, detect, and recover improper payments. These requirements are
contained in the following:

      -    IPERA, PL 111-204 dated July 22, 2010
      -    Presidential Memorandum on Finding and Recapturing Improper Payments dated March 10, 2010
      -    Office of Management and Budget Memorandum M-11-04 on Increasing Efforts to Recapture Improper
           Payments by Intensifying and Expanding Payment Recapture Audits dated November 16, 2010

As part of IPIA, the Farm Service Agency (FSA) participated with other Department agencies on a limited basis
under the Recovery Auditing Initiative which focused on the identification and collection of procurement contract
overpayments. This initiative annually reviewed procurement payments to comply with the requirements of the
Recovery Auditing Act.

The new requirements call for the Department to intensify and expand recovery auditing to include all programs and
activities with annual outlays greater than $1 million. To meet these requirements, the Secretary has made Payment
Recapture/Recovery Auditing a priority initiative for the Department.

As part of the Fiscal Year 2011 IPIA Review Cycle, FSA completed risk assessments on six of the seven programs
identified as high risk. The seven high risk programs were Marketing Assistance Loan Program, Loan Deficiency
Payments, Milk Income Loss Contract Program, Conservation Reserve Program, Direct and Counter-Cyclical
Payments, Noninsured Assistance Program, and Disaster Programs. As a result of continued improved performance,
the Marketing Assistance Loan Program was not assessed. Historical Performance Charts are shown below for each
of the six programs assessed.



                                     Improper Payment Results
                   Value of Total                             Value of         Value of Incorrect
                                      Improper Payments                                                  Percent Incorrect
     Program          Outlays                            Administrative Errors   Disbursements
                                          ($ millions) 1                                                  Disbursements
                    ($ millions)                            ($ millions)           ($ millions)

    Fiscal Year    2010      2011       2010       2011         2010     2011       2010       2011       2010       2011
      MAL         $4,151    $3,054     $34.7       $16       $30.9       $10        $3.8        $6       0.09%      0.21%
      NAP          $59       $90        $6.7        $8          $4.2      $4        $3.3        $4       5.63%      4.91%
      DCP         $5,921    $3,877     $55.6        $2       $12.9        $0       $42.7        $2       0.74%      0.05%
     Disaster     $108       $235       $5.1        $7          $1.1     N/A         $4        N/A       3.56%       N/A
       CRP        $1,814    $1,605     $23.7       $27          $15      $6.1       $9.2       $20.4     0.47%      1.36%
       LDP 2      $114       N/A       $0.463      N/A          $0       N/A       $0.471      N/A       0.44%       N/A
      MILC 3      $602       N/A        $4.7       N/A          $1       N/A       $3.70       N/A       0.52%       N/A

___________________________
1
  Estimates are individually calculated statistical projections and are not intended to conform to nor validate another
estimate using an arithmetical expression. Each point estimate is calculated with respect to its own expansion
factors and lies within its own confidence bounds. Because of the sample design complexity, additional calculations
are generally necessary to add or combine two distinct statistical estimates.
2
  Due to low volume of payment activity and improved past performance, Loan Deficiency Payments were not
reviewed as part of the FY 2011 IPIA Review Cycle.
3
  Due to low volume of payment activity and improved past performance, the Milk Income Loss Contract Program
was not reviewed as part of the FY 2011 IPIA Review Cycle.



                                                          105
COMMODITY CREDIT CORPORATION
    Other Accompanying Information




                106
COMMODITY CREDIT CORPORATION
    Other Accompanying Information




                107
COMMODITY CREDIT CORPORATION
    Other Accompanying Information




                108
COMMODITY CREDIT CORPORATION
    Other Accompanying Information




                109
Glossary of Acronyms




             110
                                COMMODITY CREDIT CORPORATION
                                                  Glossary of Acronyms

ADA      Anti-deficiency Act

ADP      Automatic Data Processing

AMS      Agricultural Marketing Service

BEHT     Bill Emerson Humanitarian Trust

BDO      Barter Delivery Obligations

BPMS     Budget and Performance Management System

CAP      Corrective Action Plan

CCC      Commodity Credit Corporation

CFO      Chief Financial Officer

COR      County Office Review

COTS     Commercial-off-the-Shelf

CRP      Conservation Reserve Program

CSC 2    Credit Subsidy Calculator 2

DAFP     Deputy Administrator for Farm Programs

DCP      Direct and Counter-Cyclical Payment Program

DPSP     Daily Product Price Support Program

eDCP     Electronic Direct and Counter-Cyclical Payment Program

EQIP     Environmental Quality Incentive Program

EPAS     Economics, Policy, and Analysis

FACTS II Federal Agencies Centralized Trial Balance System II

FAI      Finance Account Interest

FAPRI    Food and Agricultural Policy Research Institute

FASAB Federal Accounting Standards Advisory Board

FAS      Foreign Agricultural Service

FATER Food Aid Targeting Effectiveness Ratio

FCRA     Federal Credit Reform Act of 1990

FDIIP    Financial Data Integration Improvement Plan

FFAS     Farm and Foreign Agricultural Services

FFMIA Federal Financial Management Improvement Act

FGP      Facilities Guarantee Program

FISMA Federal Information Security Management Act



                                                           111
                               COMMODITY CREDIT CORPORATION
                                                  Glossary of Acronyms

FMFIA Federal Managers’ Financial Integrity Act

FMMI     Financial Management Modernization Initiative

FNCS     Food, Nutrition, and Consumer Services

FNS      Food and Nutrition Service

FRBs     Federal Reserve Banks

FRPP     Farm and Ranch Lands Protection Program

FSA      Farm Service Agency

FSFL     Farm Storage Facility Loan Program

FSIO     Financial System Integration Office

FSIS     Food Safety and Inspection Service

FY       Fiscal Year

GAAP     Generally Accepted Accounting Principles

GMLoB Grants Management Line of Business

GPEA     Government Paperwork Elimination Act

GPRA     Government Performance and Results Act

GRP      Grassland Reserve Program

GSM      General Sales Manager

HIPC     Heavily Indebted Poor Countries

ICRAS    Inter-Agency Credit Risk Assessment System

IPIA     Improper Payments Information Act of 2002

IT       Information Technology

ITS      Information Technology Services

JFMIP    Joint Financial Management Improvement Program

MAL      Marketing Assistant Loans

MAP      Market Access Program

MIDAS Modernize and Innovate the Delivery of Agricultural Systems

MILC     Milk Income Loss Contract Program

MRP      Marketing and Regulatory Programs

NAP      Noninsured Crop Disaster Assistance Program

NIST     National Institute of Standards and Technology

NPS      National Payment Service



                                                          112
                                COMMODITY CREDIT CORPORATION
                                                  Glossary of Acronyms

NRE     Natural Resources and Development

NRCS    National Resources Conservation Service

OCFO    Office of the Chief Financial Officer

OGC     Office of the General Counsel

OIG     Office of the Inspector General

OMB     Office of Management and Budget

PAR     Performance and Accountability Report

PART    Program Assessment Rating Tool

PECD    Production, Emergencies, and Compliance Division

P&F Schedule      Program and Financing Schedule

PL      Public Law

PP&E    Property, Plant and Equipment

PSD     Price Support Division

PV      Present Value

RD      Rural Development

REX     Re-enroll or Extend

RFI     Request for Information

RSI     Required Supplementary Information

RSSI    Required Supplementary Stewardship Information

SAP     Systems Applications Products

SCGP    Supplier Credit Guarantee Program

S&E     Salaries and Expenses

SBR     Statement of Budgetary Resources

SFFAC Statement of Federal Financial Accounting Concepts

SFFAS   Statement of Federal Financial Accounting Standards

SNC     Statement of Net Cost

SPPA    Strategic Partnership Program Agro-terrorism

TTPP    Tobacco Transition Payment Program

USAID United States Agency for International Development

USDA    United States Department of Agriculture

USFWS U.S. Fish and Wildlife Service



                                                           113
                            COMMODITY CREDIT CORPORATION
                                         Glossary of Acronyms

USGS   United States Geological Survey

USWA   United States Warehouse Act

WRP    Wetlands Reserve Program

WTO    World Trade Organization




                                                114
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday–Friday, 9:00 a.m.– 3 p.m. ET)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual’s income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
